<html>
<title> - REVIEW THE FEDERAL FOOD STAMP PROGRAM AND ITS IMPACT ON CHILDREN'S HEALTH</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
  REVIEW THE FEDERAL FOOD STAMP PROGRAM AND ITS IMPACT ON CHILDREN'S 
                                 HEALTH 
=======================================================================
                                HEARING

                               BEFORE THE

   SUBCOMMITTEE ON DEPARTMENT OPERATIONS, OVERSIGHT, NUTRITION, AND 
                                FORESTRY

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 13, 2007

                               __________

                           Serial No. 110-05


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov

                               __________

                     U.S. GOVERNMENT PRINTING OFFICE

36-264 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



























                        COMMITTEE ON AGRICULTURE

                COLLIN C. PETERSON, Minnesota, Chairman
TIM HOLDEN, Pennsylvania,            BOB GOODLATTE, Virginia,
  Vice Chairman                        Ranking Minority Member
MIKE McINTYRE, North Carolina        TERRY EVERETT, Alabama
BOB ETHERIDGE, North Carolina        FRANK D. LUCAS, Oklahoma
LEONARD L. BOSWELL, Iowa             JERRY MORAN, Kansas
JOE BACA, California                 ROBIN HAYES, North Carolina
DENNIS A. CARDOZA, California        TIMOTHY V. JOHNSON, Illinois
DAVID SCOTT, Georgia                 SAM GRAVES, Missouri
JIM MARSHALL, Georgia                JO BONNER, Alabama
STEPHANIE HERSETH, South Dakota      MIKE ROGERS, Alabama
HENRY CUELLAR, Texas                 STEVE KING, Iowa
JIM COSTA, California                MARILYN N. MUSGRAVE, Colorado
JOHN T. SALAZAR, Colorado            RANDY NEUGEBAUER, Texas
BRAD ELLSWORTH, Indiana              CHARLES W. BOUSTANY, Jr., 
NANCY E. BOYDA, Kansas                   Louisiana
ZACHARY T. SPACE, Ohio               JOHN R. ``RANDY'' KUHL, Jr., New 
TIMOTHY J. WALZ, Minnesota               York
KIRSTEN E. GILLIBRAND, New York      VIRGINIA FOXX, North Carolina
STEVE KAGEN, Wisconsin               K. MICHAEL CONAWAY, Texas
EARL POMEROY, North Dakota           JEFF FORTENBERRY, Nebraska
LINCOLN DAVIS, Tennessee             JEAN SCHMIDT, Ohio
JOHN BARROW, Georgia                 ADRIAN SMITH, Nebraska
NICK LAMPSON, Texas                  KEVIN McCARTHY, California
JOE DONNELLY, Indiana                TIM WALBERG, Michigan
TIM MAHONEY, Florida

                           Professional Staff

                    ROBERT L. LAREW, Chief of Staff
                     ANDREW W. BAKER, Chief Counsel
           WILLIAM E. O'CONNER, JR., Minority Staff Director
                                 ------                                

   Subcommittee on Department Operations, Oversight, Nutrition, and 
                                Forestry

                     JOE BACA, California, Chairman
EARL POMEROY, North Dakota           JO BONNER, Alabama,
LINCOLN DAVIS, Tennessee               Ranking Minority Member
NICK LAMPSON, Texas                  JERRY MORAN, Kansas
STEVE KAGEN, Wisconsin               STEVE KING, Iowa
NANCY E. BOYDA, Kansas               RANDY NEUGEBAUER, Texas
                                     CHARLES W. BOUSTANY, Jr., 
                                         Louisiana
               Lisa Shelton, Subcommittee Staff Director


















                            C O N T E N T S

                              ----------                              
                                                                   Page
Baca, Hon. Joe, a Representative in Congress from the State of 
  California,
    opening statement............................................     1
    prepared statement...........................................    47
Pomeroy, Hon. Earl, a Representative in Congress from the State 
  of North Dakota,
    opening statement............................................     5
Davis, Hon. Lincoln, a Representative in Congress from the State 
  of Tennessee,
    opening statement............................................     6
Lampson, Hon. Nick, a Representative in Congress from the State 
  of Texas,
    opening statement............................................     7
    prepared statement...........................................    50
Kagen, Hon. Steve, a Representative in Congress from the State of 
  Wisconsin,
    opening statement............................................     8
    prepared statement...........................................    50
Boyda, Hon. Nancy, a Representative in Congress from the State of 
  Kansas,
    opening statement............................................     8
Peterson, Hon. Collin C., a Representative in Congress from the 
  State of Minnesota,
    prepared statement...........................................    49
Bonner, Hon. Jo, a Representative in Congress from the State of 
  Alabama,
    opening statement............................................     2
    prepared statement...........................................    48
Moran, Hon. Jerry, a Representative in Congress from the State of 
  Kansas,
    opening statement............................................     5
King, Hon. Steve, a Representative in Congress from the State of 
  Iowa,
    opening statement............................................     6
Boustany, Hon. Charles W., Jr., a Representative in Congress from 
  the State of Louisiana,
    opening statement............................................     7
Goodlatte, Hon. Bob, a Representative in Congress from the State 
  of Virginia,
    opening statement............................................     4
    prepared statement...........................................    49
Schmidt, Hon. Jean, a Representative in Congress from the State 
  of Ohio,
    opening statement............................................     9

                               WITNESSES

Montanez-Johner, Hon. Nancy, Under Secretary, Food, Nutrition, 
  and Consumer Services, U.S. Department of Agriculture, 
  accompanied by Hon. Kate Coler, Deputy Under Secretary, Food, 
  Nutrition and Consumer Services, U.S. Department of 
  Agriculture, and Hon. Clarence Carter, Deputy Administrator, 
  Food Stamp Program, U.S. Department of Agriculture,
    oral statement...............................................    10
    prepared statement...........................................    87
Weill, James, D., President, Food Research and Action Center,
    oral statement...............................................    26
    prepared statement...........................................    90
Chilton, Mariana, PhD., MPH, Principal Investigator, The 
  Philadelphia Grow Project at St. Christopher's Hospital for 
  Children,
    oral statement...............................................    28
    prepared statement...........................................   114
Murguia, Janet, President and CEO, National Council of La Raza,
    oral statement...............................................    30
    prepared statement...........................................   129
Massey, Rene, Director, Baldwin County Department of Human 
  Resources,
    oral statement...............................................    32
    prepared statement...........................................   136
Brunk, Gary, Executive Director, Kansas Action for Children,
    oral statement...............................................    34
    prepared statement...........................................   138
Wade, Kim McCoy, J.D., Executive Director, California Association 
  of Food Banks,
    oral statement...............................................    36
    prepared statement...........................................   140

                           SUBMITTED MATERIAL

Emerson, Hon. Jo Ann, Member of Congress from the State of 
  Missouri and the Honorable James P. McGovern, Member of 
  Congress from the State of Massachusetts, submitted statement..    50
Chilton, Dr. Mariana, PhD, MPH, Drexel University School of 
  Public Health, Philadelphia, Pennsylvania, submitted statement.    71
Bhatia, Eduardo, Executive Director, Puerto Rico Federal Affairs 
  Administration on behalf of the Commonwealth of Puerto Rico, 
  submitted statement............................................    75
American Dietetic Association, Chicago, Illinois, submitted 
  statement......................................................    79
Society for Nutrition Education, Indianapolis, Indiana, submitted 
  statement......................................................    82


  HEARING TO REVIEW THE FEDERAL FOOD STAMP PROGRAM AND ITS IMPACT ON 
                           CHILDREN'S HEALTH

                              ----------                              


                        TUESDAY, MARCH 13, 2007

              House of Representatives,    
     Subcommittee on Department Operations,
                 Oversight, Nutrition and Forestry,
                                  Committee on Agriculture,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10 a.m., in room 
1302 of the Longworth House Office Building, Hon. Joe Baca 
(Chairman of the Subcommittee) presiding.
    Members present: Representatives Baca, Pomeroy, Davis, 
Lampson, Kagen, Boyda, Bonner, Moran, King, Boustany, and 
Goodlatte (ex officio).
    Staff present: Christy Birdsong, Rob Larew, John Riley, 
Sharon Rusnak, Lisa Shelton, April Slayton, Debbie Smith, 
Stephanie Myers, and Jamie Weyer.

 STATEMENT OF HON. JOE BACA, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF CALIFORNIA

    Mr. Baca. I would like to call the hearing on the 
Department of Operations, Oversight, Nutrition and Forestry to 
order at this point. I would like to welcome each and every one 
of you to our first hearing. I would like to first of all start 
off by making an opening statement and call on my minority 
ranking member to make the opening statement, and then I will 
just ask the members present just to make brief remarks, since 
they are here. First of all, I would like to welcome you to the 
first hearing of the Subcommittee on Department of Operations, 
Oversight, Nutrition and Forestry for the 110th Congress. I 
look forward to a busy and productive session.
    As we look at the Farm Bill, all of us know that we have 
huge responsibility to the American families and farmers, but 
none of us have obligations as important as the reauthorization 
of the Food Stamp Program. The food stamps are one of our 
country's greatest safety net programs and it helps to feed 26 
million legal residents, most of which are children, senior 
citizens, disabled and those living in poverty. And we know 
that it impacts 36 million people in the United States, and 
that is 11 million people that are going hungry in the United 
States overall.
    For over 70 years, our government has taken on the moral 
responsibility to feed those who cannot feed themselves and 
this year marks the 30th anniversary of the passage of the 1977 
Food Stamp Act and it is appropriate that we mark this 
anniversary with the reauthorization of the Farm Bill. We must 
work to ensure that our country's long tradition of combating 
poverty, hunger and disease through a strong nutrition title 
and Food Stamp Program. Over the years, the Food Stamp Program 
has changed and grown with the needs of our society. Many 
people misunderstand how Food Stamp works and how effective the 
program is. To help correct its mistakes and views, today's 
hearing will focus specifically on how the Food Stamp supports 
the childhood health and nutrition.
    This topic is near to my heart, as I represent the 43rd 
Congressional District, where Hispanics are twice as likely to 
suffer from diabetes and the rate amongst groups is one of six 
children that is affected by diabetes. Studies have shown that 
one in four Hispanics, the ages of six to eleven, is obese, so 
when you look at the average rate, that is one of six children, 
other than Hispanics, have obesity. Neither of these statistics 
are acceptable and they need our attention now and I think all 
of us are very much concerned, not only here but nationwide, of 
the effects it has on all of us and it is a concern, not only 
for us. But as citizens of the wealthiest country in the world, 
I believe that we have moral obligation, as a public servant, 
to provide good nutritious food to all of our people. But even 
if you don't agree with my philosophy, there is a strong 
economic argument to be made.
    The World Bank estimates that 12 percent of our Nation's 
healthcare spending is related to obesity. Twelve percent of 
Nation's healthcare that is spent is related to obesity. That 
equals $90 billion each year, $90 billion. My fellow Members of 
Congress might be interested to also know that almost half of 
that amount is being paid with Federal dollars through Medicare 
and Medicaid. Good nutrition isn't just a feel-good issue, it 
affects our budget, our economy, our educational system and the 
health of our Nation.
    Before we hear from our distinguished witnesses, I want to 
thank the members of this subcommittee. I deeply appreciate 
your heartfelt interest in the children's health and nutrition. 
Each of you who attended our organizational meeting last Monday 
expressed your concerns about this issue and I look forward to 
working with each of you to make the Food Stamp Program a pro-
nutrition, pro-healthy lifestyle program that is responsible to 
the needs of our kids and working families.
    [The information appears at the conclusion of the hearing.]
    Mr. Baca. Now I call on Ranking Member Bonner to make his 
opening statements. And if there is no objection, we would like 
to have Ms. Schmidt join the subcommittee today. Is there any 
objection to having Ms. Schmidt? Hearing no objection, we will 
have Ms. Schmidt sit at the table. Ranking member, Mr. Bonner.

STATEMENT OF HON. JO BONNER, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF ALABAMA

    Mr. Bonner. Thank you, Mr. Chairman, and good morning. Let 
me begin by thanking today's witnesses who have agreed to come 
to testify before the committee regarding the Federal Food 
Stamp Program and its impact on children's health. I am pleased 
that we were able to hear that we will be able to hear from 
such a distinguished group of individuals and we all appreciate 
your willingness to testify. I am especially pleased that one 
of my own constituents, Mrs. Rene Massey, will appear before us 
during the second panel and offer her expertise as Director of 
the Department of Human Resources in Baldwin County, Alabama.
    The Federal Food Stamp Program, as the chairman indicated, 
was established over 40 years ago and has played an important 
role in food security for low-income households throughout the 
United States. A great number of individuals and families in 
our country depend on these benefits. In fact, according to the 
most recent data available, over 45,000 households in Alabama's 
1st Congressional District are currently receiving Food Stamp 
benefits. That is almost 18 percent of the total households in 
my district and I am sure many of our colleagues would have 
similar numbers.
    The purpose of today's hearing obviously is to review how 
this program impacts the health of our children. It could not 
come at a better time, given the obesity crisis that our Nation 
is facing. The Centers for Disease Control and Prevention cites 
two surveys, one from 1976 to 1980 and the other from 2003 to 
2004, to illustrate the prevalence of overweight children. 
Between those two timeframes, the prevalence of overweight 
children, ages two to five, increased from five to over 13 
percent, for those aged six to eleven, the prevalence increased 
from six and one-half percent to 18.8 percent, and for those 12 
to 19 years of age, the prevalence increased from five percent 
to 17.4 percent. It is absolutely imperative that we do what we 
can to help curb this epidemic. Educating our children with 
regard to what is healthy versus what is not healthy is one of 
the things that we can do to help in this effort. Like many 
young boys growing up, I know I didn't always like to hear from 
my mom about the importance of eating your broccoli, but that 
is exactly the type of education that we need in order to be 
successful. And as now, today, the father of two young 
children, I know how hard that challenge can be. However, we 
must work to educate, in addition to providing our children the 
types of nutritious foods that they need in their daily diets.
    USDA, in the summary of the 2007 Farm Bill proposals, cites 
that children under 18 years of age generally consume 50 
percent or less of the recommended levels of fruit and 
vegetables. The summary goes on to say that providing increased 
fruit and vegetable options in the Food Assistance Programs can 
help increase consumption as well as improve the quality of 
many American diets. I agree with this assessment and know that 
we need to work to improve the nutrition aspect of the Food 
Stamp Program as we move forward in the 2007 Farm Bill process.
    Our subcommittee's first hearing of the 110th Congress will 
no doubt provide some valuable insight as we address this 
important topic. I look forward to hearing from USDA and the 
various individuals from around the country who will testify 
today to share some of their knowledge and experience in the 
field. So once again, Mr. Chairman, thank you for the time this 
morning to provide an opening statement and I know that our 
colleagues on our side look forward to working with you and the 
other members of our subcommittee on this and many other 
important topics of interest. Thank you.
    [The information appears at the conclusion of the hearing.]
    Mr. Baca. Thank you very much. At this time, we would like 
to ask Mr. Goodlatte if he would like to make a statement.

 STATEMENT OF HON. BOB GOODLATTE, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF VIRGINIA

    Mr. Goodlatte. Mr. Chairman, thank you very much for 
holding this hearing and I will submit a written statement for 
the record, but I do want to note that this is a very important 
part of the Farm Bill. More than 60 percent of the mandatory 
spending that is done by this committee goes for nutrition 
programs and I think it is very important that these programs 
operate effectively to provide nutritious food to those who are 
most in need. We ought to look at it from the standpoint of 
making sure that the programs are preserved and continue, but 
also from the standpoint that they operate effectively. The 
Food Stamp Program in particular has had a long and checkered 
history, going through periods of time where it was very much 
the subject of a lot of fraud and scandal. There is still a 
great deal of waste and fraud in the Food Stamp Program and we 
should always work to make sure that we are rooting out those 
things and improving the program.
    I had the opportunity to chair this subcommittee for over 
six years and during that time, we introduced measures to 
require that. For example, people who were dead, whose 
nutritional needs may be overrated, were checked against, for 
example, the Social Security rolls to make sure that they were 
continuing to draw food stamps after their demise. We do the 
same thing, we put in requirements that prisoners, who are 
getting three squares a day in the slammer, not be also drawing 
food stamps, and each year many, many millions of dollars were 
being paid to people who were in prison and we required that 
the prison rolls be checked against the food stamp rolls by the 
States. These have improved the situation significantly.
    In addition, we need to make sure that the people who are 
qualifying as food stamp redeemers are indeed grocery stores 
selling food stamps, because there have been a lot of problems 
with that over the years. The Electronic Benefits Transfer 
Program, the EBT cards, which have not only helped to reduce 
fraud, but also to restore some dignity to the people who 
participate in the Food Stamp Program, have helped in that 
regard, but they are also subject to fraud and abuse. So making 
absolutely sure that this program works well is very important.
    Mr. Chairman, as you may know, I am a very strong supporter 
of the Food Bank Program and the Federal government support for 
that, which is a tiny, tiny fraction of what we spend on food 
stamps. It is estimated that this year we will spend about $33 
billion on food stamps, less than $190 million on the TEFAP, 
The Emergency Food Assistance Program, for food banks. Food 
banks are wonderful grassroots operations that I think get far 
more out of a dollar than any other food program. Hundreds of 
volunteer organizations, civic groups, church organizations and 
so on, will work with each food bank and there are hundreds of 
food banks around the country and most of them affiliated with 
the America's Second Harvest food program. These systems reach 
people and not only bring them a box of food to help them get 
through the week or the month, but also help them with other 
things. It is community helping community and neighbors helping 
neighbors. When somebody brings that box of food, they are not 
just bringing a box of food. They may be finding out whether 
somebody in the family needs a ride to work, somebody needs a 
ride to the doctor, somebody needs help finding a job, somebody 
needs help tutoring in the school, and it is a wonderful 
program and I would hope that we will be able to not only 
continue to support it through The Emergency Food Assistance 
Program, but find ways to increase that support.
    Mr. Chairman, I thank you very much for the opportunity and 
I look forward to the witnesses' testimony.
    [The information appears at the conclusion of the hearing.]
    Mr. Baca. Thank you very much, Mr. Goodlatte. All members 
will, if you can, you know, submit for the record your 
statement and hopefully that will give ample time to the 
witnesses to testify, but I will allow you to make a short, 
just a brief introduction of yourself and a short statement and 
we will alternate back and forth and I will start with Mr. 
Pomeroy.

 STATEMENT OF HON. EARL POMEROY, A REPRESENTATIVE IN CONGRESS 
                 FROM THE STATE OF NORTH DAKOTA

    Mr. Pomeroy. Thank you, Mr. Chairman. I have been on the 
Agriculture Committee for several sessions, six I think. This 
is my seventh. I mean, I have never been able to serve on this 
subcommittee, so I am delighted to be on this subcommittee. And 
I think, as we look at the work in front of us, relative to the 
nutrition title, we ought to evaluate carefully, as Ranking 
Member Goodlatte has suggested, whether there is more fraud and 
waste that can be identified and rooted out. We certainly ought 
to applaud and support the efforts made involving the nonprofit 
sector to respond to hunger in our communities. But there is an 
undeniable fact that we are going to have to come squarely to 
grips with it. The food insecurity figures are appalling. We 
have got more people either hungry, or one meal away from being 
hungry, than is acceptable for a Nation of our size and wealth. 
And this isn't a pass the hat at the basketball game. Let us 
get some money and buy some people hot dogs. We have got to get 
real serious about a national strategy to deal with food 
insecurity and that is going to mean a leadership role by this 
subcommittee, developing the best nutrition title we can in the 
upcoming Farm Bill. There is no shirking the Federal 
government's responsibility here. We have got too many people 
hungry or on the brink of being hungry and qualify, therefore, 
as food insecure under the data and we need to respond to it. 
Thank you.
    [The information appears at the conclusion of the hearing.]
    Mr. Baca. Thank you. Mr. Moran.

  STATEMENT OF HON. JERRY MORAN, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF KANSAS

    Mr. Moran. Mr. Chairman, thank you very much. Thank you for 
scheduling this hearing, you and Mr. Bonner. I appreciate the 
opportunity to listen and learn from the witnesses today, both 
from USDA and from our second panel. I particularly want to 
point out that we have two Kansans who are going to be 
providing us with information and I appreciate Mr. Brunk being 
here on behalf of the Kansas Association for Children. Excuse 
my words. And Janet Murguia, the President of National Council 
of La Raza. And I appreciate particularly Mr. Brunk's 
testimony, pointing out the long history that Kansans have in 
trying to meet the needs of those who face hunger each and 
every day, both in our own country and around the world. So I 
look forward to hearing the testimony and I thank you for 
conducting the hearing.
    [The information appears at the conclusion of the hearing.]
    Mr. Baca. Thank you very much. Mr. Davis.

 STATEMENT OF HON. LINCOLN DAVIS, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF TENNESSEE

    Mr. Davis. Well, I appreciate the opportunity to make a few 
comments and I will make those very brief, but thank you, Mr. 
Chairman and the ranking member, for having this hearing today 
and those who will testify. As I look in this room, I think the 
majority of us and probably every one of us are food secure and 
perhaps have never known the pangs of hunger. I think it is 
important, as we go through the process of the hearings and as 
we do the Farm Bill, that we realize there are those in many 
rural areas and in urban areas of our country that they still 
feel the pangs of hunger. And it is important that, as a 
country that has the moral fiber that we have, that we fulfill 
that commitment to the moral standards that we have established 
for ourselves. I look forward to the hearings.
    [The information appears at the conclusion of the hearing.]
    Mr. Baca. Thank you. Mr. King.

STATEMENT OF HON. STEVE KING, A REPRESENTATIVE IN CONGRESS FROM 
                       THE STATE OF IOWA

    Mr. King. Thank you, Mr. Chairman. I appreciate you holding 
the hearing today and I appreciate the witnesses and I look 
forward to their testimony. I will have to step out in just a 
few minutes, which I regret. I wanted to express something here 
from a bit of a constitutional perspective and I would ask us 
to keep this in mind as we make these deliberations, and 
remember also that FDR was the person that defeated Iowan 
Herbert Hoover, so I have to be a little more critical, 
perhaps, of FDR. But he established the four freedoms and two 
were constitutional and two were not. Those four freedoms were 
freedom of speech, freedom to worship, those were both 
constitutional freedoms, and the other two were the freedom 
from want and freedom from fear. Those are extra constitutional 
rights established by FDR and sometimes put into the mindset of 
Americans as if they are constitutional.
    And now I hear another phrase called food insecurity and it 
occurs to me that we have gone from constitutional rights to 
FDR's manufactured rights about freedom from want and freedom 
from fear, and now we are talking about freedom from fear of 
want. That is quite a progression to do here in about, oh, 70 
or 80 years and it is just curious to me how the body politic 
and how our language is so carefully crafted to establish the 
perception of a right and then we flow along with it, without 
looking back into our constitutional underpinnings.
    That said, I do think we need to take a look across this 
country and see how we can help those who are in need and I 
don't take the stand that we have a constitutional duty to do 
that, but I think we have a humanitarian interest in this and I 
am certainly going to be part of that humanitarian interest to 
take a good look at those in need and see what we can do with 
those food stamps. And I thought it was important for us and 
instructive to look at it also from a constitutional 
perspective.
    Thank you.
    [The information appears at the conclusion of the hearing.]
    Mr. Baca. Thank you. Mr. Lampson.

 STATEMENT OF HON. NICK LAMPSON, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Mr. Lampson. Thank you, Mr. Chairman, and I do appreciate 
the hearing and all of the witnesses who will be joining us 
today, and I will submit my statement for the record. I would 
mention that, unbelievably to me, about \1/4\ of all the 
children in my State of Texas rely on food stamps and that the 
value of the Food Stamp Program has been dwindling 
significantly over time, making too often people to rely on 
charities to provide or to subsidize their food stamp 
allotment, which creates a significant problem, particularly 
when you face something like what happened in Texas and along 
the Gulf Coast last year with storms like Katrina and Rita. We 
still have some 80,000 people in Houston alone who are 
struggling. We were caught more or less flat-footed, I think, 
and unprepared and so I would ask and hope that we will hear 
some comments. I implore you to use this disaster as a catalyst 
to reform the food aid plans for our future crisis situations. 
And again, I will submit my remarks for the record, Mr. 
Chairman. Thank you very much for the hearing.
    [The information appears at the conclusion of the hearing.]
    Mr. Baca. Thank you. Mr. Boustany.

STATEMENT OF HON. CHARLES W. BOUSTANY, JR., A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Mr. Boustany. Thank you, Mr. Chairman. I am pleased to join 
you and Ranking Member Bonner on the subcommittee and I look 
forward to hearing the witnesses. A couple points. I am glad to 
see the emphasis on childhood obesity because, as a cardiac 
surgeon, I saw the ravages of a lifetime of obesity and this is 
a critically important area and it is an area that we need to 
make some gains in to reduce childhood obesity, because I 
think, clearly, dietary habits are established early on in life 
and the consequences are dire as a result and so this is 
something we need to focus on.
    My colleague from Texas mentioned the two hurricanes. My 
district was hit by Hurricane Rita but also had many, many 
people who evacuated from the New Orleans area into my district 
as a result of Katrina, so we sort of had a double hit in my 
congressional district and the TEFAP program very important. 
The food bank has served our State well and I look forward to 
seeing how we can improve these programs and I am very eager to 
hear the witnesses. Thank you.
    [The information appears at the conclusion of the hearing.]
    Mr. Baca. Thank you. Mr. Kagen.

  STATEMENT OF HON. STEVE KAGEN, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WISCONSIN

    Mr. Kegan. Thank you, Chairman Baca, and I am very happy to 
be here with my fellow colleagues and even if it is a 
cardiovascular surgeon, who I hope I get to work with just in a 
political sense and not a medical sense. I am very pleased to 
be here today and work with people everywhere who believe that 
good government can make a real difference in people's lives. 
The Food Stamp Program rose from a very humble beginning to 
become one of the greatest programs we have in our government 
to administer. It has been a very successful program. And as we 
have seen on a grand scale in response to what my colleague 
Nick had referred to, Hurricane Katrina, it has made a 
significant difference in keeping people not just well fed, but 
alive. This program exists really solely to assist those who 
are in need, and as a physician, I deeply understand the value 
of preventative medicine and this program illustrates this 
tenet perfectly. I agree with my colleagues that obesity is not 
just a problem in children, it is also a problem for all of us 
here in Congress, so I am going to help put Congress on a diet 
while I am here. I look forward to working with everyone and I 
hope to be a leader on this committee, along with my colleagues 
on both sides of the aisle, to make this program more effective 
and more efficient in every way. Thank you, Mr. Chairman.
    Mr. Baca. Thank you. Gentlewoman Boyda.

STATEMENT OF HON. NANCY E. BOYDA, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF KANSAS

    Ms. Boyda. Thank you so much, Chairman Baca, and thanks for 
calling this. It is such an important issue right now in my 
State as well as, I am sure, in every State. The number of 
children who are in poverty just keeps escalating every year. I 
think we should be alarmed by that. I applaud the Food Stamp 
Program. I will support the Food Stamp Program. But let me just 
tell you a story that I heard the other day that I thought was 
remarkable. It was questioning why I voted to raise the minimum 
wage and said why don't we just send more food stamps to people 
or more aid? And while I applaud food stamps, the fact is that 
we need to have jobs that keep families independent and keep 
families working hard in that sense of self-sufficiency and 
hope that is there, and I think we need to look at the entire 
economic package as we look at this and food stamps play an 
extremely key role in making sure that we do not have hungry 
children and families. But I think we need to step back and say 
why are the number of people who are needing food stamps rising 
so drastically, and what can we do as a Nation to stop that 
trend?
    Let me just say that I am happy to be one of two women, 
with my colleague Jean Schmidt. I think it is kind of 
interesting, Jean, that we are the only women on this 
subcommittee which basically deals with children's nutrition. 
So I am very happy that our voices will be heard on this, as 
well as I know that all of you guys care about this as well, 
too. But a deep, deep concern about our families and how 
nutrition is going. Again, too, I am so happy to have Gary 
Brunk here from Topeka, Kansas, who works for and is the 
Executive Director of the Kansas Action for Children Network 
and has been in my face very often, telling me about why this 
is so important, and I am just thrilled that you are a playing 
a key role and advocating for our children and for our families 
in this regard. So thank you very much and I look forward to 
working with my colleagues on this important issue.
    [The information appears at the conclusion of the hearing.]
    Mr. Baca. Thank you. Gentlewoman Schmidt, would you like to 
make a comment?

 STATEMENT OF HON. JEAN SCHMIDT, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF OHIO

    Ms. Schmidt. Thank you so much. I will be brief since I am 
technically not a member of this subcommittee, but a member of 
the full committee.
    Mr. Baca. We realize that.
    Ms. Schmidt. I am really here today to listen to what the 
Food Stamp Program has as far as nutrition, corrective 
nutritional opportunities for our working poor and most 
especially our children. One of my concerns with the Food Stamp 
Program is that we give an amount of stamps for an individual 
to purchase food for their families and on tight incomes, when 
you go to the grocery store and you look at an apple that is 
maybe 80 or 90 cents per apple and you look at a box of Little 
Debbie's that are 99 cents, it is a lot easier to buy the 
Little Debbie's, because it fills up the tummy a whole lot more 
quickly, but nutritionally, it is not very, very sound. I am 
trying to work out some sort of an idea that would give these 
working poor families the opportunity to have the apple and to 
be able to afford the apple or the banana or the pear or fruits 
and vegetables that are so important to our dietary supplement, 
and I haven't worked out the details yet, but that is why I am 
here today, sir, to listen to what is going on and hopefully be 
able to address it in the future. Thank you so much.
    [The information appears at the conclusion of the hearing.]
    Mr. Baca. Thank you very much. We would like to welcome our 
first panel and I would like to first start by introducing 
them. The Honorable Nancy Montanez-Johner, who is the Under 
Secretary for Food, Nutrition and Consumer Service of the 
United States Department of Agriculture in Washington, DC, will 
be accompanied by Honorable Kate Coler, Deputy Under Secretary 
for Food, Nutrition and Consumer Service of the United States 
Department of Ag, and then the Honorable Clarence Carter, the 
Deputy Administrator for Food and Service Program, USDA, 
Washington, DC. And at this time, I would like to have the 
Under Secretary, Nancy.

 STATEMENT OF HON. NANCY MONTANEZ-JOHNER, UNDER SECRETARY FOR 
FOOD, NUTRITION AND CONSUMER SERVICES, UNITED STATES DEPARTMENT 
 OF AGRICULTURE, ACCOMPANIED BY HON. KATE COLER, DEPUTY UNDER 
  SECRETARY FOR FOOD, NUTRITION AND CONSUMER SERVICES, UNITED 
  STATES DEPARTMENT OF AGRICULTURE; AND HON. CLARENCE CARTER, 
       DEPUTY ADMINISTRATOR FOR FOOD STAMP PROGRAM, USDA

    Ms. Montanez-Johner. Thank you and good morning. The Food 
and Nutrition Service's mission is to increase food security 
and reduce hunger, in partnership with cooperating 
organizations, by providing children and low-income individuals 
with access to food, a healthful diet and nutrition education, 
in a manner that supports American agriculture and inspires 
public confidence. Together, our 15 assistance programs serve 
one in five Americans and form our Nation's first line of 
defense against hunger.
    The Department of Agriculture commits about 60 percent of 
its annual budget to these programs. While the Food Stamp 
Program is the Nation's primary nutrition assistance program, 
you may be familiar with some of our other programs, such as 
the National School Lunch Program, the Breakfast Program, the 
Special Supplemental Nutrition Program for Women, Infants and 
Children, commonly called WIC. More than 30 million school 
children participate in the School Lunch Program and nearly 10 
million participate in the School Breakfast Program, and more 
than eight million participate in the WIC Program. Just over 26 
million low-income individuals participate in the Food Stamp 
Program every month and about half of those are children. In 
2004, 60 percent of those who were eligible to participate in 
the program did so. This compares with 53 percent in 2001 and 
in the past four years, 6.6 million more low-income children 
and families have entered the program. Families participating 
in the Food Stamp Program spend more on food and participating 
in the program increases the availability of food nutrients in 
the home.
    We aggressively promote food stamp participation among 
those who are eligible. These efforts include a national media 
campaign that uses radio advertising in areas with low 
participation rates, and public service announcements that can 
be used by local food stamp offices and community and faith-
based outreach providers. Partnerships are key to achieving our 
goals and we maintain strong, active relationships nationwide. 
This includes State government, local food stamp offices, anti-
hunger organizations, food banks, faith and community-based 
organizations and food retailers. We provide a variety of 
outreach tools to our partners to increase participation. We 
also tailor our efforts to reach certain eligibility 
populations. For example, we have launched a three-year local 
community outreach campaign to reach eligible Spanish-speaking 
Americans and we are targeting other underserved populations, 
such as the elderly. We are committed to increasing access to 
food and to providing nutrition education to program 
participants. Overweight and obesity are critical issues for 
every part of our population and addressing these problems 
early life is critical. Our food stamp nutrition education 
efforts support this.
    The Food Stamp Program is an important, often times a 
critical benefit to low-income households, not only to provide 
food, but also to provide the nutrition education that can form 
lifelong behaviors. Each year, we award grants to States and 
faith and community-based organizations to educate eligible 
participants about the nutrition benefits of the Food Stamp 
Program. Mr. Chairman, we wish to expand the nutrition 
education efforts that accompany the delivery of our nutrition 
assistance programs. We recently announced the 2007 Farm Bill 
proposals that increase access to the Food Stamp Program and 
expand nutrition education efforts by investing $100 million in 
grants to address the rising rates of obesity.
    The proposed Farm Bill includes new mandatory funding to 
purchase $500 million in fruits and vegetables over 10 years 
for the School Meals Program. It also asks for $2.75 billion 
over the next 10 years to purchase fruits and vegetables for 
our other nutrition assistance programs. Lastly, Mr. Chairman, 
we feel it is important to note that the President is very 
committed to these programs. The Administration is requesting a 
record high of $59 billion in its 2008 budget to continue our 
nutrition assistance to America. This represents more than a 70 
percent increase since 2001.
    Mr. Chairman, thank you for your interest in the Food Stamp 
Program and our efforts to provide nutritious food to all of 
those who are eligible to participate, as well as our efforts 
to combat the significant problem of overweight and obesity in 
America. We are happy to be here and we are grateful and we are 
happy to answer any questions that you have. Thank you.
    [The prepared statement of Ms. Montanez-Johner appears at 
the conclusion of the hearing.]
    Mr. Baca. Thank you very much. Next, we have Kate Coler. 
Okay. Then what we will do, then, is each of the members will 
be recognized, based on the time that they arrived and that is 
how we will ask them to ask questions. You will have five 
minutes on the total time. We will begin with myself asking the 
question, then the minority leader will ask the next question, 
and I will start with myself. According to Under Secretary 
Johner, according to your figures, it states that you are able 
to connect eligible people to the Food Stamp Program with a 
variety of degrees of success. The average State service is 
about 50 percent of the working families, but the range is from 
as low as 34 percent in California to as high as 78 percent in 
Tennessee. What is it that States are doing to ensure that 
better services are done, which is question one, and what is 
the USDA doing to promote better practices?
    Ms. Montanez-Johner. Thank you, Mr. Chairman. And again, 
the participation rates are very important to us and it is a 
critical issue and that is one of the things that we are doing 
to partner more closely with the States to promote that 
because, obviously, as you just stated, some States are doing 
better than others and that is why we are looking at our level. 
We are looking at outreach strategies, especially, to the 
underserved populations. We are focusing on all Americans, but 
especially Hispanics and the elderly, because those numbers are 
very low. And I am going to let Clarence talk a little bit more 
in some detail, but I just wanted to let you know of some of 
the things that we have in place. We have an outreach 
strategist who is trying to coordinate or attempting to 
coordinate. There are a lot of good things that are happening 
across the Nation and we are trying to coordinate that and have 
better coordination efforts here at headquarters, so that we 
can look at what works and then maybe do we invest in that and 
expand that across the Nation? So this way, that there are some 
standards, some consistencies within our outreach efforts.
    But I am going to let--and also the media--I know. I kind 
of get excited about this. The media campaign is also another 
piece. Last year alone, we had almost 1700 events to promote 
the Food Stamp Program and the other programs. We also have an 
800 number that we have here that people can call to get 
information that would be more specific to their States. We 
also have a prescreening where people can get on and find out 
if they could possibly be eligible for food stamps, because I 
believe one of the biggest myths that is out there is that 
people don't believe that they are eligible for food stamps or 
they don't know about it. So Clarence, do you have anything 
else you want to add?
    Mr. Carter. Good morning, Mr. Chairman and committee 
members. Just a little illumination on some of the things that 
we do from an outreach perspective. We have an outreach 
coalition where we bring together partners from all across the 
Nation to look at best practices and how we might be able to 
support States' efforts in increasing outreach activities. We 
also have a set of outreach grants. We have just put out 
another million dollars this year in grants to local community 
agencies that focus on particular parts of our constituency to 
try to increase access to the Food Stamp Program. And as the 
Under Secretary just mentioned, our 3-year national media 
campaign it is a very, if you would, targeted approach to 
attempt to spread the message to every potential eligible 
individual that this most necessary assistance is there for 
them to take advantage of, if that is what they choose to do 
so.
    Mr. Baca. Have you been able to measure why? You know, you 
indicated that some States are doing better than others. Have 
you been able to measure why some States are doing better in 
their outreach versus some of the other States in what kind of 
programs that they have that have been effective?
    Mr. Carter. Yes, sir, Mr. Chairman. We do something that we 
also call a program access review and we go into local agencies 
and we look at how those local agencies are complying with 
standards and some of things that they have been doing to begin 
to identify best practices. So we do have some sense of what 
does work and what doesn't work and we try to share those best 
practices. But we do have some very intimate understanding of 
what goes on in local agencies.
    Mr. Baca. Because the comparison would be different because 
of when you look at California with 37 million people compared 
to some of the other States that are a lot smaller, so it is a 
lot easier in terms of the promotion and the outreach. And 
California has one of the worse participation rates in the 
country, particularly among working families. Why do you think 
that the poor working families in California do not participate 
in this program?
    Ms. Montanez-Johner. I think I am going to lead you to the 
modernization piece, because that is where I think this is an 
exciting move. We really do support and encourage States to 
move towards streamlining and modernizing and that is, I have 
seen a couple of sites and one in particular is an employer 
that I have seen. Working families, they have working hours, so 
it is hard for them to get to the office and a lot of your 
offices are open from 8:00 to 5:00. There are more States, I 
guess, participating in this now as we continue to move 
forward. But they are expanding their office hours. They are 
using online applications. They are doing the data imaging 
piece, where they can actually scan their documents that they 
need. And they have 24/7 call centers that they would be able 
to call in their information and find out about the status. So 
we are really encouraging that to happen in our States. And 
again, Florida has a pretty good model that I have been at and 
it was just awesome, because you can go any time of the night. 
They have over 2700 sites, where it could be your local church, 
your school, your library, where you can go in an do an online 
application.
    Mr. Baca. Okay. Thank you. You know, I support the name 
change of Food Stamp Program. Please tell the members how you 
feel the name change would be beneficial.
    Ms. Montanez-Johner. The Food Stamp Program no longer 
accurately portrays the mission of the program. We don't use 
food stamps anymore and as one congressman mentioned, we have 
EBT cards and those are electronic benefit cards and they work 
very well. And so the mission is more about the Food Assistance 
Program along with food nutrition and education. So we would 
like to change the name so that it really does portray the 
mission. And also, there is a stigma attached to that and we 
believe that is why some of our elderly population, they do not 
want to participate in this, because they see this as a welfare 
program.
    Mr. Baca. Okay. Thank you. One final question. Besides the 
need for higher benefits, what can we in Congress do to more 
effectively address the child hunger in America?
    Ms. Montanez-Johner. I think that, with the Farm Bill 
proposals, I think we have made some things more accessible or 
easy for the families to access, excluding the retirements, 
excluding the approved IRS savings account, also the deduction 
on child care and excluding military combat pay, which would 
make it easier for families to access the programs. So I think 
the proposals that we have in the Farm Bill would be very 
helpful.
    Mr. Baca. Okay. Thank you. Mr. Bonner.
    Mr. Bonner. Thank you, Mr. Chairman. Madam Under Secretary, 
one of the points that I made in my opening statement is the 
need for better childhood nutritional education in order to 
promote a healthier lifestyle. Many of our colleagues have said 
similar things. I was pleased to see, as a part of the 2007 
Farm Bill proposal, that recommendations within the Food Stamp 
Program are there to support healthy and nutritious lifestyles. 
Based on these recommendations in the USDA's Farm Bill 
proposal, could you elaborate a little further about how we can 
continue to improve the nutrition education effort for our 
children in this country?
    Ms. Montanez-Johner. I will start off with the $10 million, 
the grants, the $100 million grants that I was talking about 
for the obesity. We are very excited about that, with that 
proposal, because that would encourage, again, community and 
faith-based, other States, to come up with ways, innovative 
ways, how can combat that? But with the other Farm Bill 
proposals, we have the fruit. Obviously, the dietary 
guidelines, the 2005 dietary guidelines, recommend consumption 
of fruits, vegetables and whole grains, and that is probably 
all Americans, that we need to do a better job with that. I can 
tell you that the nutrition education in the school system, it 
is getting better and I can let Kate talk a little bit in more 
details on this. But I can tell you, personally, I have visited 
many schools and it was very rewarding and satisfying to see 
young kids, I mean, we are talking little kindergarteners on 
up, and they understand what kind of fruits and vegetables make 
you grow and what makes you glow. I mean, they understand about 
the colors. You know, My Pyramid is also a very useful tool 
that they use in the school system and also our nutrition 
education guidelines are for mothers and children. So again, it 
focuses on the family. So Kate, do you have anything?
    Ms. Coler. The only thing I would add is that the Food 
Stamp Program has nutrition education as a component of the 
program and it is an allowable expense for States to have under 
their administrative costs. There is a 50/50 match and we have 
worked with all States to develop nutrition education plans 
specifically geared for the Food Stamp Program. But also, we 
have had an effort to have the food stamp nutrition education 
plans coordinate with other nutrition education activities in 
the States. We call them SNAPs, or State Nutrition Action 
Plans, where the WIC Program coordinates with the school 
program that coordinates with the Food Stamp Program and other 
programs that are funded through HHS. So we are all working off 
of some consistent messages, based on the dietary guidelines, 
to get some consistency and key messages out. We have seen 
funding for this grow. It is dependent upon the States' 
dedication to it. It is a 50/50 match, so we reimburse the 
States. But for fiscal year 2007, Federal expenditures in this 
are about $275 million. And so building that consistency of 
message and making sure that is available to food stamp 
recipients is very important.
    Mr. Bonner. Shifting gears, by all accounts, the welfare 
reform legislation that passed in the mid 1990s, it has been 
hailed as a significant success. The Republicans claim it a 
success when we were in the majority. President Clinton claimed 
it as a success when he was in office. And the statistics show 
that it did help reduce the welfare rolls by as much as 60 
percent over the last decade. What impacts specifically can the 
Department share with us in terms of people enrolling for food 
stamps as a correlation to the reduced dependency on welfare?
    Mr. Carter. Congressman Bonner, one of the things that we 
have seen is a shift in the characteristics of the food stamp 
population. If you look at that population pre-welfare reform, 
it was about 21 percent of all individuals on the Food Stamp 
Program had some sort of earned incomes. They were working. 
That has increased to almost 29 percent and we see this as a 
work support program. What happens is, as individuals go to 
work, then you have a Food Stamp Program that allows them to 
help support their ability to work. So we have seen some 
important changes in the characteristics of the Food Stamp 
Program that allow this to be support for working families.
    Ms. Coler. In the Farm Bill proposals, that is why we have 
the proposals to exclude the retirement accounts from your 
assets, because that really does target working families. More 
people are on the Food Stamp Program actually rely on a 
paycheck than rely on cash welfare and that is underserved 
populations as well. Many people have this perception that if 
they have a job, they are just automatically not eligible for 
the Food Stamp Program. We are targeting those low-income 
people, working very closely with community organizations to 
get that message out. But the average duration on the Food 
Stamp Program is less than a year. It is about eight months and 
the asset limits right now do sort of add an extra burden on 
families. They would have to deplete those accounts in order to 
qualify and that is why the President's proposal wants to 
exclude this.
    Mr. Bonner. Thank you very much.
    Mr. Baca. Thank you, Mr. Bonner. Mr. Lampson.
    Mr. Lampson. Thank you, Mr. Chairman. Madam Secretary, in 
your testimony, you talked about how Food Stamp Program 
integrity has been improving and that States are issuing 
benefits with greater accuracy. My State of Texas has been 
testing ways to modernize the enrollment process for food 
stamps through better use of technology and by allowing 
families to apply over the phone and on the Internet. While I 
support making the Food Stamp Program more efficient and more 
accessible, Texas has experienced some very serious problems 
related to the effort. Their so-called privatized effort has 
led to serious problems. Thousands of families face delays in 
getting their benefits during a pilot of this new system last 
year and the error rates have gone up noticeably and I am 
assuming the same thing is happening in some other States as 
well. What oversight will USDA exercise in Texas and other 
States to ensure that changes to the enrollment process for 
food stamps are thoroughly tested and do not jeopardize program 
access or program integrity?
    Ms. Montanez-Johner. Thank you, Congressman. That is an 
important issue for us and I will go ahead and turn this over 
to Clarence, but I would like to say a few things. The food 
stamp and the error and fraud are high profile issues for FNS 
and also for the Department. Again, this is a strong 
performance in the area that is important for us as the 
President management agenda and we are very happy and proud of 
the fact that our payment accuracy rate right now is 94.2 
percent, which demonstrates a lot work between the States and 
the Federal government. But I understand your concerns in Texas 
and that is something that we are monitoring and Clarence has 
been very involved in that, so I am going to go ahead and let 
him answer the details.
    Mr. Lampson. Thank you.
    Mr. Carter. Congressman Lampson, I would begin by saying 
that I think that the Food, Nutrition and Consumer Service 
exercised its oversight role, with regard to Texas, very 
diligently. We worked with Texas every step of the way to 
understand what it was that they were about to do. We even 
decided to withhold funding, to only allow funding to be 
incremental so that we could test their model. When we began to 
work with Texas, when we talked about the notion of a pilot, 
they rejected that. They wanted to go full ahead, but we said, 
``no, you have to pilot this.'' And then, as we monitored the 
pilot and explained that we were not seeing the kinds of 
results and were not prepared to release any additional 
dollars, then Texas began to retrench. So I think that we 
actually are monitoring an oversight in a very diligent way 
there.
    The other thing I would suggest is that, in Texas, I think 
the problem, if you would, was there really was an attempt to 
do too much too soon with a new eligibility system, a new 
process and also closing a significant number of offices. There 
were just much too many processes that were crunched into one 
application. And so we think that, quite frankly, the State is 
moving smartly to attempt to correct the problem and we 
understand that there has already been one, if you will, 
reduction in the privatization contract, the contract they had 
with the vendor, and there are others in discussion. So we 
think that we exercised our oversight properly and we will do 
this with every other State.
    Mr. Lampson. Thank you very much. I yield the balance of my 
time, Mr. Chairman, to Mr. Pomeroy.
    Mr. Baca. Mr. Pomeroy.
    Mr. Pomeroy. I thank the gentleman for yielding. I have a 
commitment and I have to leave this hearing, but I wanted to 
get this question in. It involves the disturbing coincidence of 
a couple of events, first, the increased number of those 
reporting to be food insecure, now north of 35 million in this 
country, and the President's proposal to eliminate categorical 
eligibility. Now this would kick out of the program 329,000 
people nationally, nearly 1500 in North Dakota, and the 
director of North Dakota food stamps has characterized this 
move as devastating. Do you support the move to kick out 
categorically eligible individuals that are presently eligible 
for food stamps, and what is the rationale?
    Ms. Montanez-Johner. Congressman, what we do is, what we 
want to look at, again, at those who have the greatest need. 
Those that are currently, the categorical eligibility are for 
those who are receiving TANF of non-cash benefits. And so we 
are looking at, if they meet the eligibility guidelines, they 
can still apply for food stamps. At this point, we have folks 
out there who are not receiving, again, the cash TANF benefits. 
They are getting food stamps and they get on the program 
because they might have a brochure that has been funded by TANF 
funds. And so, again, trying to go back with how do you serve 
those of the greatest need----
    Mr. Pomeroy. You know, you have just been talking. Excuse 
me, the time is so short. You have just been talking about 
enrollment failures and I would say a program that has half the 
people in it that are eligible raises serious questions about 
the ultimate effectiveness of enrollments. And so now you have 
got a program that brings in these people that are otherwise 
getting some kind of TANF benefit, reflecting their low income 
and you want to kick them off the program and put them through 
some bureaucratic hoops to get on it. Now, how in the world is 
this responsive at all to increasing the participation in the 
Food Stamp Program? In North Dakota, only 51 percent who are 
eligible receive benefits and we are above the national 
average.
    Mr. Carter. Mr. Pomeroy, as the Under Secretary was saying, 
individuals who receive TANF cash benefits, receive SSI, they 
are disabled, they are still continued to be categorically 
eligible. What this proposal got it doing was individuals who 
end up being made eligible for the Food Stamp Program because 
they are tangentially related to the TANF, and what the attempt 
was here was to make sure that these very limited resources are 
going to those people who are the most in need.
    Mr. Pomeroy. Following up on that, what is the, and I trust 
that the time is running, so it will kick me out when we are 
done, so these people that are the tangential edge of 
eligibility, what are they making?
    Ms. Coler. I would say you have to sit back and look at 
categorical eligibility and how it started. It was to simplify 
for States and for those States that had more generous TANF 
benefits that exceeded the food stamp eligibility requirement, 
generally about 130 percent of poverty, they could 
automatically be eligible. We want to scale that back to just 
those that are receiving TANF cash. So if your State----
    Mr. Pomeroy. Now, what if a State had a slightly different, 
for example, motor vehicle valuation, now, would that kick them 
out?
    Ms. Coler. That should not. If they are receiving a TANF 
cash benefit in your State, even if it exceeds the food stamp 
eligibility, that individual would still be categorically 
eligible for food stamps. However, if they aren't getting the 
cash benefit, if it is some other service, they are still able 
to apply for the Food Stamp Program.
    Mr. Pomeroy. What are these other TANF services?
    Ms. Coler. One that was brought to our attention were 
receiving child reproductive information from a TANF fund, so 
they were TANF-funded pamphlets.
    Mr. Pomeroy. Is that the one? We have got 390,000 
individuals. Do you think most of them are brochure recipients?
    Ms. Coler. I would say at least half would be, I think, and 
it is depending on the State.
    Mr. Pomeroy. The position of the Department of Agriculture 
is that about half of these categorically eligible individuals 
that will no longer be eligible, their only TANF benefit is 
receiving brochures? That is the position of the 
Administration?
    Ms. Coler. Well, I will have to submit a more detailed 
description. It varies on the States.
    Mr. Pomeroy. Well, you said that was the position.
    Ms. Coler. No, I said that was the----
    Mr. Pomeroy. Now I will issue a formal request to the Under 
Secretary. I want breakouts. You have 390,000 people here. The 
last time this came up was last year. The staff person for the 
Ag Committee putting this proposal forward had no idea what the 
ultimate impact would be. I want information. Who are these 
people? How are they connected? What is their income? And I 
would like it in writing and I think it would be very important 
to the consideration of this program. Thank you, Mr. Chairman. 
I yield back.
    Mr. Baca. Thank you very much, Mr. Pomeroy. Mr. Boustany. 
Charles.
    Mr. Boustany. Thank you, Mr. Chairman. I have just kind of 
a general question, but I want to make a comment first. After 
getting elected to Congress, I started going around to many of 
the various agencies in my district, whether it was dealing 
with housing, workforce development, nutrition, to try to 
understand what was happening on the ground and one of the 
things I was amazed by was just the diverse array of services 
at local, State and then, you know, of course Federal programs. 
And after the two hurricanes hit our State, I noticed that we 
had a problem with coordination of all these efforts and of 
course, it became a very acute problem and what we did in my 
hometown of Lafayette was that we put together a group, sort of 
an advisory council, to kind of coordinate all of these 
efforts. And I guess the question I have for you, and you 
mentioned your outreach program and the things you do with the 
eligibility. Are you looking at opportunities to coordinate 
various services at the local level?
    Mr. Carter. We always, within the Food Stamp Program, look 
for opportunities to be able to leverage the Food Stamp Program 
along with other important human services. I would say, and 
this is my own editorial comment, is that we do have a real 
challenge, in that all of the programs that we operate, the 
local, State and Federal programs, all end up existing in their 
silos and it does become a real challenge to take a 
comprehensive look at an individual or a community and bring 
all of those services together. But we make the Food Stamp 
Program have some flexibilities built into it, which allow for 
it to be able to work in conjunction with some other programs, 
but it is an overall design problem of our safety net, if you 
would.
    Mr. Boustany. I appreciate your answer, because I have 
spoken to heads of many of the local agencies and encourage 
them to find a way to coordinate, because I think it can 
leverage what they are doing much more effectively. And do you 
think there is a Federal role to direct local agencies to form 
some sort of anti-poverty councils, for want of a better 
description?
    Mr. Carter. I think the Federal role really can be in 
looking to, through waivers that sort, be able to relax some 
rules to allow for it to happen, because very, very often the 
rules of one program will conflict with the rules of another so 
it doesn't allow for that sort of coordination and where we can 
use waiver authority to be able to relax some rules to allow 
for that, it would allow for more of that kind of coordination.
    Mr. Boustany. Thank you. I appreciate your answer and that 
is all I have. I yield back.
    Mr. Baca. Thank you very much. Mr. Kagen.
    Mr. Kagen. Thank you. Madam Under Secretary, you have 
mentioned in your written testimony that you would be remiss if 
you didn't mention the other programs that you administer, such 
as the WIC Program, so maybe I would appreciate you 
enlightening me as to why you have 185 percent of the Federal 
poverty level for the WIC Program and 130 percent to qualify 
for food stamps.
    Ms. Montanez-Johner. I am going to go ahead and pass that 
on to Kate Coler. She has more details.
    Ms. Coler. Those eligibility requirements are established 
by Congress, by statute, and food stamps was determined that, 
generally, 130 percent of poverty and where the Women, Infant 
and Children, because it does target a more vulnerable 
population, Congress determined that at 185 percent.
    Mr. Kagen. My next question has to do with boots on the 
ground. Do you have enough staff to administer this program? If 
you have an enrollment that is so woefully poor, I mean, if I 
was a cardiovascular surgeon and 51 percent of my people were 
surviving, I would not give you a passing grade. What is the 
problem in terms of enrolling those who are in need? Is it like 
Iraq? Do you not have enough boots on the ground?
    Ms. Montanez-Johner. Congressman, we just had our 
appropriation hearings last week, last Thursday, and we are 
requesting $3 million in our budget to increase some of the 
staff. But some of the staff will probably go, where we would 
like to see them go is more in the investigative piece for the 
fraud and the trafficking. And then the other is some quality 
control and then, obviously, to work and partner and provide 
technical assistance to the States.
    Mr. Carter. And if I could just add? Our boots on the 
ground, if you would, is also our State partners, because the 
States administer the Food Stamp Program on our behalf and so 
it is joined-at-the-hip partnership and what we attempt to do 
is to support that partnership by, again, sharing best 
practices, looking where one State is doing something which is 
of real value and benefit and attempting to share those with 
others. So yes, we certainly could use the kinds of additional 
resources that are outlined in our budget, but we see the 
States as being invaluable partners in the administration of 
the program.
    Mr. Kagen. Thank you. I yield back.
    Mr. Baca. Thank you very much. Mr. Goodlatte.
    Mr. Goodlatte. Thank you, Mr. Chairman. Madam Secretary, 
welcome. Welcome to all of you. We appreciate your testimony 
here today. I would like to start with a very general question. 
How do you determine if a household is food insecure?
    Ms. Montanez-Johner. That is a good question. Do you want 
to go ahead? We will let Kate answer that.
    Ms. Coler. Well, our job really is to enroll people and to 
make sure that they have access to the Food Stamp Program under 
the eligibility criteria that Congress established that each 
State then implement. As far as the measure of food insecurity, 
that is a study that the USDA does through the Economic 
Research Service and they do household----
    Mr. Goodlatte. But certainly there must be a definition of 
food insecurity that is the basis of the survey.
    Ms. Coler. The survey asks a variety of questions and then 
they extrapolate the data from that. Our concern is no matter--
--
    Mr. Goodlatte. But when you say a certain percentage of the 
population are food insecure, you must be using a certain 
portion of that data to arrive at the percentage of the 
population that you arrive that meet that criteria.
    Ms. Coler. Certainly the researchers do explain how they 
come to their conclusions and that the food insecurity overall, 
nationally, we have seen a slight dip. What we focus on is 
reaching those that are eligible according to the income 
guidelines.
    Mr. Goodlatte. In other words, you are saying by whatever 
definition you are pursuing, the number of people who are 
deemed to be food insecure has dipped a little bit?
    Ms. Coler. We have seen it. In this last report that the 
Department issued, there was a very slight decline.
    Mr. Goodlatte. I wonder if you might provide to the 
chairman and to the members of the committee what that 
definition of food insecurity is so that we can understand the 
basis for the figures. And I take it that it is not, that 
percentage does not indicate the percentage of people in the 
country who are hungry, who have hunger.
    Ms. Coler. No, I actually have the report here and I am 
happy to submit that. That does have the definition and they 
are very careful in how they are defining food security or 
insecurity and to the different degrees.
    Mr. Goodlatte. And it relates to whether or not somebody 
knows they can stretch their budget based upon their income and 
other sources of support through a period of time, rather than 
that people in the family are actually going hungry?
    Ms. Coler. This study does look at economic questions more 
than physical condition questions. But again, from our agency's 
perspective, Food, Nutrition and Consumer Services, we are 
looking to make sure that people who are eligible for our 
program have access to it, because this is really a very strong 
tool to combat hunger or food insecurity. It is very important 
for low-income families to know about this program and to 
utilize it should they be eligible.
    Mr. Goodlatte. Well, let me ask you about those eligibility 
requirements. I believe Mr. Weill, in his written testimony, 
states that we need to expand the eligibility to certain able-
bodied adults who do not meet the work requirements. Would you 
explain the ability that the State agencies already have to 
make exceptions on a case-by-case basis?
    Mr. Carter. An able-bodied individual is able to receive, 
that is, an able-bodied individual without dependents, 
(ABAWDS), is able to receive three months worth of food stamps 
in a three year period. The State has a 15-percent exemption 
that they are able to enact each year, that they could increase 
that, the number of or percentage of ABAWDS, if you would.
    Mr. Goodlatte. And I understand that that is 15 percent of 
the State's entire food stamp caseload can be able-bodied 
adults without dependents.
    Mr. Carter. That is correct.
    Mr. Goodlatte. So even without the three month benefit, 
which goes to every able-bodied adult without dependents, the 
State has a lot of room to meet the needs of a lot of people, 
in spite of the fact that the Congress was obviously, when we 
changed our rules, very concerned that people who are able-
bodied be required to work in order to receive food stamps. 
Notwithstanding that, they can provide people with, in that 
circumstance, a lot of food stamps, because they can comprise 
up 15 percent of the entire pool of people in that State 
receiving food stamps. Am I correct?
    Mr. Carter. Yes, the States do have some flexibility in 
that regard.
    Ms. Coler. They are based on geography. It has to do with 
the economic conditions within certain pockets of the State, 
but the State can ask for a waiver based on the geographic 
situation, more so than the individual circumstances.
    Mr. Goodlatte. Let me follow up on Mr. Pomeroy's question 
as well. He noted that current law allows certain individuals, 
not otherwise eligible for food stamp benefits, to receive them 
through categorical eligibility. I think that is what he was 
referring to when he said certain people receiving just a 
pamphlet. For example, certain States allow a person who is 
eligible to receive TANF in-kind services, that might be the 
pamphlet, such as job training, to receive food stamp benefits. 
But some households receiving food stamp benefits despite the 
fact that the household does not meet the conventional food 
stamp eligibility requirements, would it be more cost-effective 
to limit categorical eligibility to people who receive cash 
benefits from TANF and concentrate the available food stamp 
funds in the segments of the population who demonstrate that 
they need them the most?
    Ms. Coler. That is exactly what is in our proposal, to 
limit it to just the cash benefits. So if the State has a more 
generous TANF cash benefit above the 130 percent of the food 
stamp eligibility, that individual would be categorically 
eligible for food stamps. It is just those that are receiving 
services only that we are trying to----
    Mr. Goodlatte. And we are not talking about people under 
the WIC Program who can be in a much higher eligibility 
criteria because the percentage of poverty is much----
    Ms. Coler. WIC and food stamps do not have an automatic 
eligibility.
    Mr. Goodlatte. People who have a higher income level are 
able to qualify for WIC. We are only talking about the women 
with infants and children are in a different category than this 
and here, when we are talking about a person who might only 
receive a pamphlet, the reason may well be that we have an 
interest in their nutritional needs, but they are well above 
the income level set by the Congress and that particular State 
has chosen, notwithstanding that, to give them food stamp 
benefits even though they do not have that eligibility. That, I 
think, is a right of any State to choose to do so. But should 
they do so in circumstances where the Federal government, where 
this Congress, with our tight budgets, are paying for that? I 
think not and I agree with the position of the Administration. 
Mr. Chairman, thank you very much.
    Mr. Baca. Thank you very much. Mr. Davis.
    Mr. Davis. Mr. Chairman, thank you very much, and for those 
who are witnessing today. A little bit earlier in the comments, 
we had someone that talked about constitutional rights and 
freedom and liberty and freedom of speech. In that First 
Amendment that was added, there are actually 12 that was 
authorized in 1787, one of them said freedom of speech and then 
right under it, it said freedom of religion. It pretty much 
speaks for one of the most important things we have, when you 
talk about the Constitution, is to be able to vote. Until 1920, 
ma'am, a lot folks in this room couldn't have voted. So when we 
talk about what the constitutional responsibilities of all of 
us are, we need to maybe look at our Constitution, that some 
folks on this committee would assume that everything is 
constitutional.
    But freedom of religion, it says someplace in that book 
that I read, I was hungry and you feed me, and the nations that 
do that, I will bless them. I think we have been blessed in 
this Nation for a reason. Many of us have agreed from our 
hearts and through our faith, that it is important that those 
who are poor and those who are described in that book that I 
read, that when you reach out to those, it is one of the most 
blessed things you can do. And I think the Food Stamp Program 
has been a major part of why this Nation has been blessed the 
way that it has. There is nothing constitutional that requires 
it. It is in that First Amendment that says freedom of religion 
that gives us the responsibility to be sure that we act as a 
Nation. No other nation in the world has done what we have 
done. No other nation of the world has a safety net nor 
provides, for those who live in this country as we have 
provided, no other nation of the world achieves that.
    Four questions. The percent of working families on food 
stamps; how many military families are on food stamps; the 
percent of eligibility today that are able to obtain food 
assistance; and the purchasing power of the Food Stamp Program, 
has it increased or decreased? And the reason I ask those four, 
and if I need to repeat those, I will do that, I have no doubt 
that the farm program that we have is the best bargain that the 
American consumer has in any area of Federal spending. It has 
kept food safe, it has kept food abundant and it has kept food 
available to many families, those who can purchase and those 
who are able to purchase with food stamp assistance. Do you 
want them one at a time? The percent of working families today 
on food stamps.
    Ms. Coler. A significant change from what we have seen 
since the 1996 welfare reform. We will have to get you 
information on the exact numbers. We have got a food stamp 
population of about 26 million. The working poor is really a 
population we are trying to target. Percentage-wise, we are 
only reaching about 30 percent of those working poor that are 
eligible for the program.
    Mr. Davis. So about 70 percent are not being reached?
    Ms. Coler. Of the working families that are eligible for 
the program.
    Mr. Davis. Military.
    Ms. Coler. They have been underserved.
    Mr. Davis. How many military families do we have?
    Ms. Coler. We would have to get that information to submit.
    Mr. Davis. Would you get that for me?
    Ms. Coler. And we will.
    Mr. Davis. Okay. And the purchasing power, has that receded 
in comparison to where it was five years ago, 10 years ago, or 
when the program really started?
    Mr. Carter. I am not quite sure, Congressman, if I 
understand the question. If I am----
    Ms. Coler. If I could just throw in. The purchasing power, 
I mean, it is that we see the percentage of the household for 
food is relatively consistent and I think, actually lower than 
it has been in years for the Nation as a whole. One of the 
figures we do know specifically about the Food Stamp Program 
is, not only the purchasing power and the economic benefit to 
the household that is participating, but every $5 in food stamp 
benefits yields about $9.2 in local economic activity. And one 
of the approaches we have been taking in trying to improve 
participation in this program----
    Mr. Davis. What I am talking about, purchasing power, an 
example. In 1961, that was a day that I could buy a gallon of 
gas for 25 cents, that was four gallons for a dollar. In 
comparison, what does a dollar buy today?
    Ms. Coler. Overall, for the Nation as a whole, you can buy 
more food for your dollar than you could before, I think, and 
we will submit that USDA does some research on just overall, 
and I know that the Farm Bureau celebrates the day that all of 
your income goes for food, I think, in early April or in late 
March and it seems to get a little earlier each year.
    Mr. Davis. Thanks. I appreciate it.
    Mr. Baca. Thank you very much, Mr. Davis. Before we dismiss 
this panel, I have one final question and hopefully, you know, 
you can be brief in answering this. All children who 
participate in the Food Stamp Program are automatically 
eligible for free school meals. There is a new requirement on 
the States and schools to auto-enroll these children to avoid 
duplicative paperwork for parents to save schools from spending 
unnecessary time for processing applications for these 
children. But according to your figures, only 60 percent of the 
children on food stamps are auto-enrolled in these free school 
meals. Why aren't we doing a better job in connecting the 
hungry children to school meals, and what steps has the United 
States is taking to get the number up to 100 percent? 
Especially as we look at the No Child Left Behind, it impacts a 
lot of the learning and behavior patterns and the testing that 
goes on, because a lot of these children that are going to 
school are going hungry and yet a lot of the requirements in 
the testing, and it is very difficult to pass the tests when 
you are going to school on an empty stomach. And yet teachers 
are asked that these students have got to perform at a certain 
level and yet we haven't done enough to make sure that the 
children are receiving the nutritional programs that they need.
    Ms. Montanez-Johner. That is a very good question, Mr. 
Chairman, and I am going to go ahead and pass that on to Kate, 
because, again, she has worked very intensively about this and 
this is an important issue for FNS, the good, healthy, 
nutritious meals in the school systems, because, again, I have 
seen on my visits out to the school, it is very important for 
kids to get a good start. But again, I have seen a lot of 
schools where the Breakfast Program is growing and they are 
very much in support of that, with the Fresh Fruit and 
Vegetable Program and again, trying to incorporate their lunch 
that kids can actually eat so that they will be able to learn 
and grow healthy.
    Mr. Baca. Yes, but it is more than just a lunch. Remember 
that lunch, they are taking the tests already and lunch is 
after and they are taking the tests in between. So what happens 
to that child when their stomach is growling?
    Ms. Montanez-Johner. The schools that I have visited, Mr. 
Chairman, the Fresh Fruit and Snack Program is in the 
afternoon. It is between lunch and recess and the end of school 
for that, I am sure, because that is a time when they are 
hungry. But I will go ahead and let Kate maybe give you some 
more details.
    Mr. Baca. All right. Thank you.
    Ms. Coler. Just your question about making sure that the 
children are participating in both is so important and it is an 
easy population to try to target and really help enroll in the 
program. The Child Nutrition Reauthorization Act passed in 2004 
did mandate direct certification for children from the Food 
Stamp Program into the National School Lunch Program and it 
requires information sharing between the State agencies that 
administer both, and so we have seen a lot of progress in 
making sure that children who participate in the Food Stamp 
Program are receiving a free meal at lunch. I think we are also 
looking at innovative ways to do more to have data information 
coming from the schools to help do some outreach to families 
that may be eligible for the Food Stamp Program. So that is 
just one area that the collaboration has yielded some great 
results.
    Mr. Baca. Thank you. I know that we are just about done 
with our panel, but we will ask Mr. Moran for a comment.
    Mr. Moran. Mr. Chairman, thank you for doing that. I 
apologize for being absent. I think every Kansan, and maybe you 
all can say that about your own districts, but every Kansan is 
in Washington, D.C. today. Madam Secretary, you and I had a 
brief conversation before the hearing commenced and I just 
would like to express my appreciation to you for your 
willingness to meet with me. We had a conversation on the phone 
several months ago, but we continue to have WIC issue in Kansas 
in which we are losing, potentially losing our WIC stores 
because of a proposed final rule at USDA that bases the price 
paid upon a formula that includes large providers that the 
small stores can't compete with. And so I just want to express 
my desire to work with you to see if, one more time, maybe we 
can find a solution. And despite your certainty that USDA can't 
solve this problem, I am going to convince you that you can.
    Ms. Montanez-Johner. Yes, I will be looking forward to our 
meeting.
    Mr. Moran. Thank you very much.
    Mr. Baca. Charles, a quick comment?
    Mr. Boustany. Yes. Thank you, Mr. Chairman. I appreciate 
the opportunity to ask one last question. The question is about 
the administrative cost of the program and I know it is a very 
complex question beyond the scope of this hearing. But I would 
ask that you provide the subcommittee with your assessment of 
the administrative cost of this program and any suggestions 
that you may have that we can take that would make the program 
more efficient. Thank you.
    Ms. Montanez-Johner. I would be happy to do that.
    Mr. Baca. Mr. Goodlatte, a final?
    Mr. Boustany. Thank you, Mr. Chairman.
    Mr. Goodlatte. Thank you, Mr. Chairman. I will just have 
one question. As I indicated in my opening statement, I am a 
very strong supporter of the Emergency Food Assistance Program 
and the vital help it provides to food banks, because much of 
the food they receive is very generous donations from 
individuals, from grocery stores, from food processing 
companies, but that is basically at the choice of the people 
who donate the food, whereas the Commodity Program helps the 
food back round out what they provide to a family and make sure 
that it is a balanced diet, a balanced selection of food 
products. So lots of the vegetables and fruits and meats and so 
on come out of that program, and I wonder if you could give us 
your assessment of how well you think the Emergency Food 
Assistance Program is working?
    Ms. Montanez-Johner. Well, I can give you my piece and if 
Kate and Clarence wants to join in at any time, that would be 
fine. But I do think that the food bank, they do a great job 
and I know that we continue to build our partnership with them. 
And in fact, I was in Chicago, Illinois, Zion, where there is a 
Food Stamp Express pilot project and it was fantastic. It was 
in a church food bank and they had this pilot set up where 
there was two volunteers actually doing prescreening 
eligibility for participants there for food stamps. When they 
left there they had a link card, so within 72 hours they can 
actually call the local State office and they could have one to 
two months of food stamps for food. So then they can go back to 
their local office and then apply, you know, the way they 
normally would. But at least it got them through the next 
couple of months. They knew that they were eligible and it is a 
great pilot project. So I am looking forward for the 
evaluation, but our food banks, we have a very good 
relationship with them. They are very strong and they do play a 
vital role.
    Mr. Carter. The other thing I would say, Congressman, is I 
think that it is important component of an overall feeding 
apparatus, if you would, and so you couldn't just have a Food 
Stamp Program by itself. There does need to be a complement to 
it. You know, we saw, when we had the weather-related 
disasters, how that congregate feeding was actually the first 
thing we could do. Quite frankly, in some places the Food Stamp 
Program couldn't work, at least in places in Louisiana, because 
there was no infrastructure to be able to purchase the food. So 
it is a component of an overall nutrition apparatus.
    Mr. Goodlatte. That is a very good point. It is a very good 
point. I had the opportunity to bring this committee to New 
Orleans and other parts of Louisiana to Congressman Boustany's 
district, as a matter of fact, following Hurricane Katrina and 
we visited the Second Harvest food bank in New Orleans, which 
distributes to many of the parishes in the surrounding area and 
they had, in the month immediately after the hurricane, 
increased their distribution of food about sevenfold over their 
normal distribution and that came also from help from other 
food banks around the country who sent food that sometimes they 
didn't really have to spare. So making sure that this TEFAP 
program, which then is needed to replenish not only New 
Orleans, but other food banks that sent food to them from 
around the country, making sure it stays strong I think is a 
high priority.
    Ms. Montanez-Johner. We do have in our Farm Bill proposal 
to add $2.75 billion in the fruits and vegetables, so that 
would be going to the food banks.
    Mr. Goodlatte. Yes. Thank you very much.
    Mr. Baca. Thank you very much, Mr. Goodlatte. I would like 
to thank the panelists for being here, but before I do, I would 
like to have Mr. Moran make one final comment.
    Mr. Moran. Thank you, Mr. Chairman. It is my understanding 
that Deputy Under Secretary Kate Coler's tenure at the 
Department of Agriculture is coming to an end and I just want 
to take this moment that I assume may be your last opportunity 
to appear before our committee and thank you for your service 
to the public and your commitment to seeing that people don't 
go hungry in the United States and around the world.
    Mr. Baca. Thank you very much. With that, I would like to 
thank the panelists and like to invite the second panelists, 
Dr. James Weill, President of Food Research and Action Center; 
and Mariana Chilton, Ph.D., Principal Investigator from 
Philadelphia GROW Project from St. Christopher's Hospital for 
Children; Janet Murguia, President and CEO, National Council of 
La Raza; and Rene Massey, Director of Baldwin County Department 
of Human Resource; and Gary Brunk, Executive Director from 
Kansas Action for Children; and Kim McCoy Wade, Executive 
Director from the California Association of Food Banks, from 
Sacramento. I would just like to mention that the television 
cameras from Univision will be taping during the subcommittee 
second panel today. We will begin with the first panelist. Mr. 
Weill, would you please begin when you are ready.

   STATEMENT OF JAMES D. WEILL, PRESIDENT, FOOD RESEARCH AND 
                         ACTION CENTER

    Mr. Weill. Good morning, Chairman Baca and members of the 
subcommittee. I thank you for the opportunity to testify today. 
The Food Research and Action Center has been working since 1970 
to end hunger in this country, and the Food Stamp Program is 
the Nation's most important public program working towards that 
end. A little while back the TV show 60 Minutes interviewed a 
mother on a line of 896 people waiting outside a food bank in 
rural Ohio. She told the reporter that when she bought milk for 
her baby, she would cut it with an equal part of water to make 
the milk last longer. When asked what her dream in life was, 
this mother said that it was to feed her baby milk which is 
undiluted. A better Food Stamp Program can help fulfill her 
dream, and this Nation not only can afford to fulfill that 
dream, it can't afford not to. The price to children's health, 
learning and eventual productivity is too high if we fail to do 
that.
    Food stamps, of course, reach not just children but their 
parents, their grandparents and other seniors and working an 
unemployed adults. Eighty-three percent of beneficiaries are 
children, their families, seniors and disabled persons. There 
are also more than 600,000 veterans in households receiving 
food stamps. Food stamps support people, not only in hard 
economic times, but in emergencies of all types. And several 
people have mentioned today the important response of the Food 
Stamp Program after Katrina and the other hurricanes of 2005. 
And the program is extraordinarily important, not just to 
hungry children in cities, but in suburbs and rural areas as 
well. A University of New Hampshire study showed that non-
metropolitan areas contained 22 percent of the U.S. population, 
but 31 percent of food stamp beneficiaries.
    Let me turn now to the program's specific impact on 
children's nutrition and health. First, food stamps increase 
household food spending and therefore increase basic nutrients 
in the home's food supply. As the Under Secretary mentioned, 
USDA has found that food stamps raise scores on the Healthy 
Eating Index, a measure which is based on the dietary 
guidelines. The higher the level of food stamps the family 
receives, the larger the positive effect on the index. Food 
stamps also have been shown to have a positive effect on 
preschool children's intake of iron, Vitamin A and other 
nutrients, and an improvement reading and math for children 
from kindergarten to third grade.
    Separate from the boost in nutrients, the basic building 
blocks that food stamps provide, children also benefit when 
food stamps help make their households food secure, the phrase 
the USDA and the Census Bureau used for households with 
adequate resources to obtain a healthy diet on a regular basis. 
When children live in households that are food insecure, they 
are more likely to become sick or hospitalized, to be irritable 
in the classroom and to be absent from school. Food stamps help 
cure food insecurity. Food stamps also can prevent childhood 
obesity, which, as the chairman and several members of the 
subcommittee have indicated this morning, is a growing concern. 
One of the studies, for example, shows that school-aged food 
insecure girls are less likely to be overweight if they 
participate in the Food Stamp Program. Food stamps can play a 
protective role against obesity for children, but that role may 
well be diminished by the inadequacy of the benefit amount, and 
that inadequacy brings me to the final subject I want to 
mention briefly.
    As important and effective as the Food Stamp Program is, it 
needs to be improved in significant ways to further reduce 
childhood hunger and food insecurity, to combat obesity and to 
support nutrition, health and education. The first priority is 
making benefit allotments more adequate. It is now the norm 
rather than the exception for families to run out of food stamp 
help days, often 10 days, before the end of the month. The 
average benefit, which is roughly a dollar per person per meal, 
just is not enough to purchase a healthy diet. And the minimum 
benefit of $10, which has been unchanged since 1977, when it 
had three times as much purchasing power, has to be adjusted. 
More adequate benefits backed by better nutrition education, as 
the Under Secretary discussed, will combat obesity as well as 
hunger.
    Second, reforms are needed so the program can reach 
additional needy people. It is essential and long over due to 
revise resource limits that have been stuck for most households 
at a maximum of $2,000 for more than three decades. We also 
urge you to cover key groups of needy people totally barred by 
arbitrary program rules, particularly legal immigrant parents 
and other adults, and unemployed able-bodied adults who face a 
three month and three year time limit on benefits.
    Third, we hope that the subcommittee will work to improve 
access to the program by already eligible but unserved 
families, the 40 percent that have been mentioned who are 
eligible now but not getting benefits, through streamlining, 
eliminating unnecessary red tape and supporting out reach 
efforts. In some ways, this will help relieve the shortage of 
boots on the ground that Representative Kagen referenced.
    I want to close with a metaphor that I am borrowing from 
the doctors of the Children's Sentinel Nutrition Assessment 
Program, or C-SNAP. So I may be stealing from Dr. Chilton's 
presentation and if so, I apologize. But it is worth saying 
twice, in any event. They say that food stamps are like a 
childhood vaccine against malnutrition, hunger and food 
insecurity, a miracle drug that reduces infant mortality and 
child hospitalization and increases school achievement. But 
because benefits are so inadequate, we are giving children what 
they call a sub-therapeutic dose of this miracle drug, enough 
to make them somewhat better, and that is incredibly important 
and we appreciate Congress' role in doing that, but less than 
the children need to cure the disease, and we are giving this 
miracle drug to fewer than 60 percent of the people who need 
it. So we urge you to work to reach more children and adults 
with fuller doses of this miracle drug as you reauthorize the 
program. Thank you very much.
    [The prepared statement of Mr. Weill appears at the 
conclusion of the hearing.]
    Mr. Baca. Thank you very much, Mr. Weill. Dr. Chilton.

      STATEMENT OF MARIANA CHILTON, PH.D., MPH, PRINCIPAL 
      INVESTIGATOR, THE PHILADELPHIA GROW PROJECT AT ST. 
              CHRISTOPHER'S HOSPITAL FOR CHILDREN

    Ms. Chilton. Muy buenos dias, Chairman Baca and 
distinguished committee members. It is an honor to be invited 
to speak to you today about the importance of child nutrition 
and child health as you begin your hard work of reviewing the 
Food Stamp Program. I am a public health researcher from 
Pennsylvania, where agriculture is the Number One industry. It 
is where we take pride in our farms, our dairies and food 
production and at the same time, where we always remember our 
youngest children at risk for hunger. I am here today to speak 
on behalf of more than 23,000 infants and toddlers and their 
families across the United States who show up to emergency 
rooms and ambulatory care clinics with health crises whose 
roots stretch far beyond the clinic walls.
    I can speak about these babies because I am one of several 
pediatric and public health researchers from the Children's 
Sentinel Nutrition Assessment Program, the study we call C-
SNAP. C-SNAP is a multi-site research study that, since 1998, 
has been the most current and largest dataset in the Nation, 
about the food security, health and development of very young 
children living in poverty. We have held in our hands each one 
of these 23,000 children in Minnesota, Pennsylvania, Maryland, 
Arkansas, Massachusetts, California and Washington, D.C. We 
have measured their height, taken their weight and interviewed 
their parents and grandmothers about their participation in 
food stamps, WIC, subsidized housing and child care programs. 
We ask each of these children's parents about all of the 
policies that begin right here on the Hill. In this way, our C-
SNAP study shows evidence of how Federal policies manifest in 
the bodies and brains of babies.
    I want to tell you Alexander's story. His mother brought 
him into the emergency room at St. Christopher's Hospital for 
Children in Philadelphia last week. He is a 6-month-old baby 
who came in with pneumonia. When we interviewed his mother, 
Marilyn, she told us that they did not have enough money to buy 
food. She said that they told her that her husband makes too 
much money. His wage of $14 an hour puts their family of four 
just over the limit for their household size to receive food 
stamps. She also described how she could not pay her heating 
bill, so her house was cold. In the meantime, she says, due to 
Alexander's pneumonia, baby Alexander has lost weight and they 
do not have enough money for food to make it to the end of 
March. My physician colleagues would not be surprised that a 
hungry baby would catch pneumonia, because good immune function 
depends on good nutrition. Furthermore, good nutrition is the 
brain's building blocks. Alexander's food insecurity, weight 
loss and illness place him at risk for long-term developmental 
problems.
     If we look at the USDA food security report that is 
released every year, it has been consistently reported that the 
surest way for a family to be at risk for food insecurity is to 
have a very young child under the age of six. On C-SNAP, we 
monitor the most vulnerable group of these young children, 
those who are in the rapid growth phase from birth to three 
years old. The C-SNAP study has found that food insecurity is 
related to higher developmental risk. Nutrition provides the 
building blocks to build new brain. Everything from cognitive 
development, fine and gross motor skills, to educational 
obtainment and psychosocial disorders are linked to a child's 
nutritional status. The brain's building blocks for all of 
these skills are laid down in those first three years of life. 
If a child does not have the proper nutrition during this 
critical period, long before they cross the threshold of a 
school, their ability to pay attention and learn may be 
permanently altered, starting the child on a downward spiral 
for life.
     The C-SNAP study has also found that children in food 
insecure households are 90 percent more likely to be in poor 
health and 30 percent more likely to have a history of being 
hospitalized. The average cost of a hospitalization for a 
pediatric illness costs about $11,000. This same amount of 
money could provide enough food stamps for a family of four for 
several years. As you can see, these negative health impacts on 
a child's development translate into dollars subsequently spent 
by the public sector to address issues that could have been 
prevented, expenditures that could have been avoided, if we 
practiced the prevention that we know works, by assuring 
adequate food and nutrition.
     There is some good, powerful medicine for this problem, 
but doctors, pediatricians, teachers and nutritionists cannot 
prescribe this medicine; however, you can. You can prescribe 
this good medicine through protecting and enhancing the Food 
Stamp Program. Our research shows that children whose family 
receives food stamps were 26 percent less likely to be food 
insecure. Our research has also shown that food stamps buffer 
young children from health problems in food insecure 
households. Other researchers have found that if a child, 
starting at birth, is enrolled in the Food Stamp Program, then 
the Medicaid payments for this child's anemia and malnutrition 
are likely to decrease as compared to children who did not 
receive food stamps from birth. Food stamps is a good medicine, 
but the dose is not enough. When America's families get food 
stamps, the dose is what my pediatrician colleagues would call 
sub-therapeutic, but it has already stated before me, so I will 
continue on.
    You might remember that the Thrifty Food Plan is the USDA's 
theoretical estimate of what it would cost to purchase a 
grocery basket that provides a minimally adequate diet. This 
serves as the basis on which food stamp allotments are 
calculated. The government's lowest cost meal plan, the Thrifty 
Food Plan, does not reflect current scientific thinking about 
nutrition and health. If a family of four, like Marilyn's, 
tried to purchase the most economically reasonable version of 
the Surgeon General's most recent dietary recommendations, 
their cost would exceed the maximum possible food stamp 
allotment by nearly $2,000 a year. This is an impossible 
expense for families who are constantly trading off how to have 
money to get to work, pay for child care, keep a roof over 
their heads, or keep the house warm while trying to provide 
healthy meals. Therefore, on the basis of our medical research 
and that of others, my colleagues and I make the following 
recommendations: food stamp benefits should be based on a food 
plan that reflects what it actually costs to buy a health diet 
for all members of the family.
    To continue, our C-SNAP sites in Los Angeles, California 
and Minneapolis, Minnesota, pick up many immigrants, including 
many young Latino children. Latino children who are in food 
insecure homes are two times more likely to be at developmental 
risk than Latino children in food secure households. Our data 
showed that Latinos have very high rates of food insecurity, 
especially our newest American citizens born to immigrant 
parents. But food stamps protect these children, as citizen 
children of immigrant parents are 32 percent less likely to be 
in poor health if their parents receive food stamps. They make 
a profound difference. This is extremely problematic, however, 
that new Americans are not given or don't have the access to 
food stamps and are food insecure because they are the fastest 
growing child population in America, which brings us to our 
final recommendation, restore food stamp eligibility to all 
income eligible legal immigrants and increase outreach to these 
populations.
    When you consider the reauthorization of the Farm Bill, 
this is your opportunity to make history by ensuring a strong 
nutrition title that will make children's bodies strong, their 
health excellent, their minds ready to learn and all of them 
ready to achieve to their fullest potential. Thank you.
    [The prepared statement of Ms. Chilton appears at the 
conclusion of the hearing.]
    Mr. Baca. Thank you very much. The red light indicates that 
it is almost time due and if you can, stick within that period 
of time. I know the subject matter is so important and that is 
why I let you go on. At this point, may I have Mrs. Murguia? 
Janet?

STATEMENT OF JANET MURGUIA, PRESIDENT AND CEO, NATIONAL COUNCIL 
                           OF LA RAZA

    Ms. Murguia. Thank you. Thank you. Hello, my name is Janet 
Murguia and I am President and CEO of the National Council of 
La Raza. NCLR is a private nonprofit, nonpartisan organization 
established in 1968 to reduce poverty and discrimination and 
improve opportunities for the Nation's Hispanics. As the 
largest national Hispanic civil rights and advocacy 
organization in the United States, NCLR serves all Hispanic 
nationality groups, in all regions of the country, through a 
network of nearly 300 affiliated community-based organizations. 
I want to thank the Subcommittee on Nutrition for inviting me 
to speak about the impact of the Food Stamp Program on Latino 
families and children. I also extend particular thanks to our 
chair here today, Chair Baca, for his efforts to ensure that 
Latino families can fully participate in the Food Stamp 
Program. In 2002, your work on the Farm Bill ensured that many 
more legal immigrants, especially children, could access this 
important program and I thank you for your leadership. I also 
want to commend the two Kansas representatives. As a home State 
Kansas girl, I appreciate your interest in being here today.
    You know, at NCLR, I take great pride in the fact that we 
had a very excellent report that was put out late last year, 
earlier this year, in an area around food insecurity and 
Latinos. It is called Sin Provecho and I commend it to the 
committee and I am going to highlight some of the points from 
this, I think, groundbreaking report. There are more than 42 
million Latinos in the United States contributing to almost 
every facet of American life, as you all know, bolstering the 
workforce, serving in the military and helping to strengthen 
the Nation's economy. However, food security is hard to 
achieve. More than one in five Latinos live at or below the 
poverty line, and nearly \1/4\ of Latino households with 
children are poor. Why is improving Latino food security so 
important? Children who are food secure have higher school 
performance and are likely to be in better health. You have 
heard from our panelists and I am sure you will hear more about 
that.
    But a study of young Latino children found that their 
parents were twice as likely to note developmental concerns if 
they were food insecure. Currently, 17.9 percent of Latinos are 
food insecure, which is more than twice the rate for non-
Hispanic white households; about 8.2 percent. Latino households 
with children have even higher rates of food insecurity; 21.6 
percent of Latino households with children experience food 
insecurity, compared to 11.8 percent of white households with 
children. The Food Stamp Program shows great potential for 
helping Latinos achieve food security with improved nutrition. 
After the implementation of partial immigrant restorations to 
food stamps in 2002, there was a surge in Latino food security 
by four percent, even as the numbers of poor in the Latino 
community were growing. With increased food security, the 
negative consequences of food insecurity are diminished, which 
can range from intense headaches to long-lasting cognitive 
deficits to growth abnormalities and decreased ability to fight 
illness and disease. Latino families and children do not have 
equal opportunity to take advantage of the Food Stamp Program.
     Only 52 percent of Latinos are participating. Why? There 
are major legal restrictions placed on legal immigrant 
families. Despite the 2002 food stamp restorations, there are 
still a number of complex laws that restrict between 250,000 
and 300,000 lawfully residing immigrants from the rolls of food 
stamps. As a result, participation is abysmally low, with only 
four in 10 eligible non-citizens participating. These barriers 
also affect children in these households, many of whom are 
citizens. Only half of eligible citizen children in households 
headed by non-citizen parents are participating in the Food 
Stamp Program, compared to eight in ten eligible citizen 
children in citizen-headed households.
    Latinos have difficulties navigating the food stamp system. 
Administrative barriers and lack of available translated 
materials make it difficult for families to apply for food 
stamps. Further, in households with non-citizens, complex 
eligibility rules and fear of immigration reporting all 
compound this confusion. Improving the Food Stamp Program for 
Latinos is essential. We have a great opportunity to improve 
food security in America by building a stronger Food Stamp 
Program. As the nutrition title of the Farm Bill is considered, 
it is essential to do the following to improve the food 
security for Latino families and children: it should be a top 
priority to restore benefits to all legal immigrants and we 
want to reinforce that of the other panelists, as they have 
said before, and we must ensure that Latino community is 
engaged in outreach and enrollment activities. The Farm Bill 
should include provisions which allow culturally and linguistic 
appropriate outreach and enrollment services to be carried out 
by community-based organizations. We heard earlier today, the 
USDA was talking about involving the States more. Well, they 
need to do even more than that. They need to drill down and 
involve the actual communities who serve these Latino families. 
At NCLR, we have a network of 300 community-based organizations 
and there are several other national organizations that could 
invoke their ties to those communities to make sure that we 
have that culturally and linguistic and appropriate services to 
those families.
    I just want to thank you for this opportunity to testify 
and commend you for your leadership in looking at this very 
important issue. Thank you very much.
    [The prepared statement of Ms. Murguia appears at the 
conclusion of the hearing.]
    Mr. Baca. Thank you very much for your testimony. We next 
have Ms. Massey.

 STATEMENT OF RENE MASSEY, DIRECTOR, BALDWIN COUNTY DEPARTMENT 
                       OF HUMAN RESOURCES

    Mr. Massey. Thank you, Mr. Baca. Mother Theresa, in her 
essential wisdom, wrote, I once picked up a small girl who was 
wandering the streets lost. Hunger was written all over her 
face. Who knows how long it had been she had eaten anything. I 
offered her a piece of bread. The little one started eating, 
crumb by crumb, and I told her, eat, eat the bread. Aren't you 
hungry? She looked at me and said, I am just afraid that when I 
run out of bread, I will still be hungry. We know Mother 
Theresa touched the lives of millions of children in India, 
here in the United States, and all around the world. Her story 
about the hungry little girl could be about a child in 
Calcutta, but sadly enough, it also could easily be about a 
child in Alabama. More specifically, a child in southwest 
Alabama, where I work and oversee the administration of the 
States Food Stamp Program to the citizens of Baldwin County.
    Baldwin County is the largest county geographically in 
Alabama, and is the second fastest growing in population. Our 
county is located on the Gulf of Mexico and is the largest 
county for tourist industry and potential jobs in this industry 
in the State. Many families and children benefit from the 
States Food Stamp Program in Baldwin County. However, about six 
months ago, in studying the growth of our population and from 
feedback from our State officials, we realized there was an 
unserved number of citizens who we were failing to reach with 
the benefits of the program. We began an outreach to better 
serve our citizens by working with our agency partners, the 
schools and our local staff and other programs, et cetera, to 
be sure applications were made available in various agencies 
and that people were assisted in completing the applications. 
In just a few short months, we were able to increase the 
county's participation by an extra 10 percent. We have 
continued to work toward our goals of reducing hunger and 
providing better nutrition for children and their families by 
these means and other ideas we continue to explore. There is 
much that needs to be done to further simplify the program in 
order to encourage more families with children to access the 
benefits.
    From my 28 years of social work in Alabama, I can come 
before you today and testify that the Food Stamp Program has 
been a godsend to many hungry children in our State. It is the 
largest benefit program in the Department of Human Resources. 
The program is designed to supplement the basic food needs of 
low-income households and our working poor. It also increases 
the family's food buying power and improves nutrition and 
health of many adults and children. We are all aware of the 
emphasis that is placed on healthy eating and a healthy 
lifestyle. It is very important that our low-income families 
have access to programs that supplement their ability to make 
wise choices for their family and put food on their table. 
Currently our State has nearly 514,000 people receiving 
benefits, and of this number, over 278,000 are children, making 
them the largest population receiving food stamps in Alabama.
    It is said repeatedly that our children all across our 
Nation are our greatest resource. We have worked very hard in 
Alabama to make the needs of children a priority, as evidenced 
by the many improvements in our child welfare programs over the 
past two decades. We realize the value of the Food Stamp 
Program as it helps to contribute to family stability. The 
ability of a family to feed their children and provide proper 
nutrition to them, keeps many families off the child welfare 
and neglect rolls, thereby strengthening our families in 
Alabama.
    The 2002 Farm Bill brought about significant positive 
changes that improved and simplified the delivery of the Food 
Stamp Program to our citizens. However, there continue to be 
areas that need further strengthening. Federal funding for the 
Food Stamp Program must keep pace with the daily-increasing 
needs and the ever- increasing costs of providing a healthful 
diet for our families and our children. Also, funding for 
companion programs for education and nutrition should be 
increased. Including nutrition education as a viable program 
thrust has aided our families in Alabama tremendously by 
educating them on how to select healthy foods for themselves 
and their children. We applaud programs such as Teen Nutrition, 
Program Nutrition Education, Eat Smart, Play Hard, School 
Breakfast Program, and many others, as they support the goal of 
providing better nutrition for our children.
    Many of you will recall the hurricane of 1979, Hurricane 
Frederick. I began my career seven weeks after Frederick hit 
the Alabama Gulf Coast. While I was assigned to the child 
welfare program, I will never forget observing the greatest 
need of our citizens in rural southwest Alabama at that time: 
the need for food. Sure, there were sheltering issues, job 
issues, financial issues, but the first and greatest need was 
the need for food. Almost 30 years later, that basic need has 
not changed for our families and their children.
    Chairman Baca, Congressman Bonner, and members of this 
committee, thank you for this opportunity to share with you my 
thoughts on the Food Stamp Program and its impact on our 
children in Alabama.
    [The prepared statement of Ms. Massey appears at the 
conclusion of the hearing.]
    Mr. Baca. Thank you very much. To introduce our next 
witness is the gentlewoman from Kansas.
    Ms. Boyda. I am so pleased to have our executive director 
of the Kansas Action for Children Network. I always put that 
network word in there. They are a great advocacy group that 
comes together really to discuss polices in the State of Kansas 
that affect so many of our children and this is clearly one 
that is a big issue. So Mr. Brunk, I certainly appreciate your 
remarks. Thank you for being here.

STATEMENT OF GARY BRUNK, EXECUTIVE DIRECTOR, KANSAS ACTION FOR 
                            CHILDREN

    Mr. Brunk. Thank you, Representative Boyda. Thank you, 
Chairman Baca. I especially appreciate the fact that both of 
the Members from Kansas are on this committee. Representative 
Moran and Representative Boyda are here. Representative Moran 
earlier referred to this grand Kansas tradition of Wheat State 
political leaders who have fought hunger by strengthening the 
Food Stamp Program. Both of you are part of this tradition and 
I look to both of you to continue that tradition. Senator Dole, 
of course, one of the architects of the Food Stamp Act of 1977, 
which we are celebrating the 30th anniversary this year, 
Representative Sebelius, Representative Glickman, 
Representative Roberts and now Senator Roberts, all played a 
key role and I was pleased to notice that Representative 
Roberts is with us in that picture back there, sort of silently 
guarding over this session.
    Let me dispense with some of my written comments, because I 
don't want to repeat things that others more knowledgeable than 
I have already said about the relationship between nutrition 
and child well-being. But let me just a point about the 
relationship in Kansas between economic security and hunger. I 
don't want to bore you with too many figures, but child poverty 
in Kansas increased from a little bit under 12 percent in 2000 
to a little bit over 14\1/2\ percent in 2004. Twenty percent 
additional children in Kansas belong to families whose income 
is below 200 percent of the Federal poverty level, arguably, 
families that struggle economically. Of those children in 
Kansas, the percentage of them who live in families where one 
of the parents, one or more parents are not working more than 
25 weeks per year grew from 8\1/2\ percent in 2002 to a little 
bit over 10 percent in 2006, the year that we have the most 
latest figures available. This, I think, adds to the picture of 
economic income stagnation for many, many families in Kansas 
who, in the face of that income stagnation, still struggle with 
rising housing costs, rising healthcare costs, rising child 
care costs.
    It is no surprise, then, that food stamp participation in 
Kansas over that same period of years increased substantially, 
from 116,000 families in 2000 to 183,000 families in 2006, an 
increase of 57 percent. When I talk to my friends, that is the 
data. On the anecdotal side, when I talk to my friends at the 
Catholic Charities Food Pantry in Wichita, they tell me that, 
in 2001, they served 6500 clients. In 2005, they served 10,500 
clients, a substantial increase. And these are families that 
are coming once a month to get a supply of food that maybe will 
give them food for two or three days. One-half of the 
recipients of food stamps in Kansas are kids and you have 
already heard that hungry kids are less healthy, more likely to 
be hospitalized, less prepared to succeed in school, more 
likely to have behavioral and emotional problems, less likely 
to be successful adults.
    So I come to you with a sense of urgency about the 
importance of the Food Stamp Program for the health and 
wellbeing of children and I am going to ask you to strengthen 
the nutrition title of the Farm Bill in four ways that I think 
could really make a difference. First, I encourage you to 
improve food stamp benefit levels which, in Kansas, amounts to 
95 cents per person per meal. I don't know how many people 
think that for 95 cents, a child can be well fed. Not only is 
the level insufficient, and this is a point that I really want 
to stress, but as a result of cuts enacted in 1996, the 
purchasing power of most households food stamp benefits is 
eroding in value each year. In 2008, food stamp benefits for a 
typical working parent with two children will be about $37 a 
month lower than they would have been without the 1996 across-
the-board benefit cuts. To restore those benefits at that level 
would require a standard deduction change from the current $134 
a month to $188 a month and then to annually adjust those for 
inflation. And then families would be able to keep up with the 
same level of benefits that they enjoyed before 1996.
    Secondly, only about two out of every three of those who 
are eligible for food stamps in Kansas are getting them. I hope 
your committee will look at streamlining enrollment and 
eligibility so State agencies can serve more eligible 
households. Third, I endorse the President's proposal to allow 
working families with high child care costs to deduct the full 
cost of that care when determining the food stamp benefit 
level. That would help literally tens of thousands of families 
in Kansas. And finally, I urge you to expand access to legal 
immigrants in poor households that have modest savings. Serving 
those children and their families is really critical to a 
comprehensive solution to child poverty in Kansas. Stopping the 
erosion of benefits, simplifying enrollment, making adjustments 
for child care costs, and expanding access would move us closer 
to the goal of eliminating hunger in America.
    That tradition in Kansas of working to stop hunger through 
the Food Stamp Program is a bipartisan tradition. Senator Dole 
reached out to Senator McGovern to really forge the Food Stamp 
Act of 1977. So my challenge to my representatives from Kansas 
is to continue that food stamp tradition of bipartisan work and 
it is also my challenge to the whole committee. Thank you for 
attention.
    [The prepared statement of Mr. Brunk appears at the 
conclusion of the hearing.]
    Mr. Baca. Thank you very much, Mr. Brunk. Ms. Wade.

    STATEMENT OF KIM McCOY WADE, J.D., EXECUTIVE DIRECTOR, 
              CALIFORNIA ASSOCIATION OF FOOD BANKS

    Ms. Wade. Good morning, or at least in California it is 
still good morning. I am Kim McCoy Wade with the California 
Association of Food Banks. I represent 40 food banks across the 
State, serving about two million people; 5,000 charities and 
congregations we partner with. I too want to start with a 
story. Forty years ago my mom, who is actually here with us 
today, was a Texas home economics graduate and went out to 
become a VISTA volunteer in Newark, New Jersey, to help other 
moms learn how to stretch their food stamps. She soon found 
that living on food stamps, as a VISTA volunteer, it was the 
moms who taught her how to take that peanut butter and stretch 
it all month long for soup for your kids. And here we are 40 
years later, whether you are in Newark, New Jersey where she 
was, or Texas where she came from, or Oakland, California where 
I live, food stamps are still the number 1 child nutrition 
program, if unsung. People think about school meals. They think 
about WIC. But no matter how old your child is, food stamps is 
there for you. No matter what day of the week it is, food 
stamps are there for you. In California, two out of three of 
the people on the program are children. Ninety percent are 
families with children. It is our number one child nutrition 
program.
    Well, why do food banks care about food stamps? Of course, 
we have our mission of ending hunger, but beyond that it is 
also in our self-interest. The Food Stamp Program is a lot 
bigger than we are and we need it to be that way, the 
frontline. We are the second line. But in California only half 
the folks who are eligible are currently getting benefits, and 
they are getting $400 less than they did ten years ago. So what 
are the food banks doing? They are trying to fill that gap and 
we can't do it alone. Our goal is to partner with the Food 
Stamp Program, promote the Food Stamp Program, not replace it. 
So we have only the food stamp outreach contract in California. 
We contract with 48 CBOs, food banks and nonprofits, in 22 
counties, aiming to reach 135,000 people this year. We have a 
similar contract on nutrition education, aiming to reach 
115,000 people, integrating those two messages. Here are 
benefits to help you buy food. Here is how to buy and prepare 
and consume healthy food.
    So what does all that work on the frontline teach us? It 
teaches us that there are three things we need to do. First of 
all, families need enough money to buy healthy food. A dollar a 
meal is not going to do. It is going to fill your plate, but it 
is not truly going to nourish your child. That coupled with 
nutrition education is needed. Second, we have to serve all 
people. We have started carving out immigrants, single adults, 
certain ex-offenders. That has complicated the rules on the 
ground. Kids, particularly in immigrant families, the rules are 
confusing and those kids do not get served. Another thing, 
surely we want parents to be saving for their kids. We want 
parents saving for tuition and we want them saving for 
apartment security deposits, for a rainy day, for that health 
bill. The asset test keeps those families out. Finally, one 
thing we also want is many doors into the Food Stamp Program. 
The only door can't be the county welfare office. We want that 
door to be open and friendly, but we also want the health 
clinic, we want the school and we want the food bank to be 
doors in.
    Many of you all who were around before, thank you much for 
the EBT card. We appreciate that here in California, the Golden 
State Advantage Card, but there is more to do to bring 
technology and modernize this program. We are still 
fingerprinting every adult in California. We don't have to do 
that anymore to really make sure we have integrity in the 
program. Those are the food stamp asks we have of you. Finally, 
I do need to mention that the emergency food programs have 
declined in California and nationwide. We have lost 5,000 folks 
off the Commodity Supplemental Food Program. We have also lost 
about 40 million pounds in emergency food assistance, because I 
am glad to hear the farmers are doing well, but that means less 
food is coming to our food banks and we are feeling that, 
particularly of the citrus freeze. We did not have the food in 
the system that we have had in years past to respond quickly 
and really needed State help and now we are coming to the Feds 
to help us respond to that freeze as well.
    Let me just close with a story. I was very privileged a few 
years ago when Katrina hit, to go spend three weeks at the Bay 
Area Food Bank, helping respond with the food bank there, the 
Bay Area Food Bank. And one of the weekends I was there was the 
weekend you all were rolling out disaster food stamps at the 
convention center and it really was a wonderful thing to see 
this program serving children and serving families in their 
time of need and I call on you today to make sure this program 
doesn't just work in times of disaster, but in the everyday 
emergencies of the families we see all the time. Thank you.
    [The prepared statement of Ms. Wade appears at the 
conclusion of the hearing.]
    Mr. Baca. I want to thank all of the panelists for their 
testimony. At this time, we will open up to some of the 
questions and I will start, first of all, with Mr. Weill. In 
your testimony, you talked about the strength of the Food Stamp 
Program, but you also mentioned that you think that the benefit 
levels are not adequate in keeping pace with the inflation. 
What impact do you think it will have on the diet health of 
people who rely on the program? And what do you think we could 
do to fix the problem, especially as I look at and I heard the 
last two witnesses right now testify about Kansas and the need 
in that area, and we are not keeping up with the inflation and 
I just asked a couple of questions. Alaska and Hawaii have 
different rates in terms of the food stamps and yet, when I see 
California and some of the other States, that it is very 
difficult for some of the families, some of the poor families, 
to feed their families based on a household of three. It is 
difficult on a gross income of $1600 to pay for their children 
under food stamps. So can you address that too, as well? I 
mean, it is so difficult and yet, you know, we talk about 
nutrition and the health and the obesity that is there, but 
yet, how can you feed a family when we have not even made the 
adjustment based on the inflation and the growth and yet only 
two States are higher and every other State has a standardized 
flat rate for food stamps no matter what the cost is for each 
State.
    Mr. Weill. Two things, Mr. Chairman. The program benefits 
were inadequate before the 1996 law and some built-in 
provisions of the 1996 law keep pushing those benefits lower 
compared to inflation. And the result of that in terms of 
nutrition and obesity is significant. There is more and more 
evidence coming out that when families do not have enough 
resources to buy adequate foods and healthy foods, they get 
into cycles of sort of feast and famine. When there is enough 
food the first week, two weeks of the month, they eat enough 
food and sometimes more than enough food, because there are 
either physiological or psychological changes that come from 
not having enough food at all or any food the last week of the 
month. And so there is more and more evidence that ties 
inadequacy of food resources to obesity and of course to other 
nutritional deficits. So the answer to that is to get benefits 
up to a level that are adequate to meet families' basic needs. 
And everybody on this panel, I believe, has called on Congress 
to start moving in that direction this year.
    Your question about the difference in benefits from State 
to State, Alaska and Hawaii, of course, have radical cost 
differences from the 48 continental States and those 
differences were built into the program. While prices vary from 
State to State and community to community from food, those 
differences are relatively small compared to differences in 
housing and compared to differences with Alaska and Hawaii. So 
one of the strengths of the Food Stamp Program is its core 
national structure. The rules are essentially the same State to 
State. The benefit amount, the same income levels are the same. 
The entitlement is national. So while I understand the interest 
in looking at benefit differences and cost differences from 
State to State, I think it is important to keep the important 
national strengths of this program in mind as well.
    Mr. Baca. Thank you. But I realize that the housing is so 
high, especially in California compared to some of the other 
States, and yet, you know, when you have a family, you know, 
you are paying an average home, $350-some thousand now. And 
that is just the standard average compared to buying a home in 
some of the other States where you are paying $150,000. Or if 
you are renting, the average rent right now, it is $900 and 
that is at the low rate, renting at $900 per month, and it 
becomes so difficult and yet you are talking about people right 
now that have to determine between the Food Stamp Program, 
paying the rent and trying to feed a family that are underfed 
right now and we are talking about children that are being 
affected too, as well.
    Mr. Weill. That is a great point. The program does in part, 
and I should have said this before, compensate for those 
differences in housing and child care costs, because families 
can deduct from their countable income in the program, what are 
called excess shelter costs and child care costs. So in a place 
like California where those costs are higher, at least some of 
those costs are offset by the ability to deduct them.
    Mr. Baca. Okay. Thank you. Ms. Chilton, there is a lot of 
concern on the committee and in Congress about childhood 
obesity and other nutritional-related issues. Do you have any 
comments about how the Food Stamp Program responds to obesity, 
diabetes and other nutritional-related health diseases?
    Ms. Chilton. Again, we are mostly looking at children who 
are age zero to three. In our own sample of almost 24,000 
children, we found no relationship between food stamps and 
obesity among these very young children. And I also wanted to 
remind you, in my written testimony and also in Jim Weill's 
testimony, we talked about the study that found that girls 
whose families were receiving food stamps were much less likely 
to be obese. The importance of food stamps for protecting 
childhood obesity and protecting children from diabetes is very 
important, because it gives children and it stretches the 
family food dollar so that they can purchase healthier foods. 
So I am not sure about the research with older children, 
related to diabetes and food stamps, but in our own study, we 
found no relationship, again, between food stamps and obesity 
and that is something to, again, think about, is that food 
stamps increase the diversity of the kinds of foods that 
families can buy and having a diversity of foods means good 
nutrition for families.
    Mr. Baca. Thank you. Janet, in your testimony, you point 
out that the Latino children face higher food insecurity and 
poverty than other children. Do you think there is a direct 
result of Latino children missing out on food stamps?
    Ms. Murguia. Yes, that is what we have seen, is that there 
is still so many, not just Latino citizen children who are 
still having trouble participating in the system, but of 
course, I also know that, as was noted consistently by every 
panel member up here, that we still have many legal immigrant 
children who could benefit from this. And we obviously want to 
see those benefits restored to those legal immigrant children 
and then look for ways that we can make the program more 
accessible to Latino families, and I mentioned in my testimony 
how important it is to work with institutions and organizations 
where the families we know already go to and trust. Many are 
Latino community-based organizations that have health clinics 
that they are running, or preschool centers that they are 
running, or run charter schools, or run any number of different 
efforts that they are engaging Latino families. We should find 
ways to build those organizations into the system so that they 
are getting the information to these families in a more 
effective way.
    Mr. Baca. Thank you. And it has also been my understanding 
that many people who are eligible for government benefits 
sometimes do not apply because they lack strong English skills. 
This includes both citizens and legal immigrants. How would you 
rate the USDA's assistance to limited English proficiency 
families in respect to the Food Stamp Program? And this is a 
constant problem and I know that the Under Secretary indicated 
that they need to do a better job in doing the outreach and 
reaching out to our communities, because many of the Hispanic 
members within the communities don't even know that they are 
even eligible to receive assistance.
    Ms. Murguia. That is right. Well, and I think that is 
right. I mean, there is a lot more work to be done by the USDA 
and again, her reference to reaching out to States is helpful, 
but it is not enough. We have got to drill down deeper into the 
communities where these families actually live and it is not 
just in urban areas, as you know. You have heard from the rural 
communities and there are many community-based organizations 
and faith-based organizations that do interact with these 
families and can be more culturally competent in working with 
those parents in different languages. And I will remind folks, 
it is not just Latino immigrants. We are talking about 
immigrants who speak a different language besides Spanish. And 
we want to make sure that we are able to have these programs be 
accessible to those families so that these kids, especially, 
can get that kind of assistance. So we need to do a lot more 
work and we are prepared to do our part in working with the 
USDA and with you all as we reauthorize the bill, the Farm 
Bill. Thank you.
    Mr. Baca. Okay. Thank you very much. Mr. Bonner.
    Mr. Bonner. I would love to have the time to ask each of 
you a question because your testimony has been very 
enlightening and I am going to try to get about two or three 
questions in. Let me start with Ms. Massey. First of all, thank 
you for over almost 30 years of dedicated service to the people 
of Alabama, and you certainly have set a wonderful example for 
all of us in public service. In your opening statement, you 
indicated that the Food Stamp Program had been a godsend to 
many hungry children in the State of Alabama. Based on your 
work in both Baldwin County, which is one of the fastest 
growing counties and more affluent than many in the southeast, 
and your home county, Washington County, which is one of the 
most economically challenged and more rural counties in the 
State of Alabama, can you comment on the importance of not only 
a strong Food Stamp Program, but also the overall importance of 
a healthy nutritious lifestyle for our youth? And specifically, 
can you tell the difference when you come from a rural area or 
you are at a fast-growing area, is there really a difference 
between the child who needs that extra help?
    Ms. Massey. Congressman Bonner, I would have to say there 
really isn't a difference. I think children across the board 
have the same basic needs. And again, as I mentioned in my 
testimony, the need for food is so basic for our children, for 
everyone. I have seen over the years, particularly with my work 
in child welfare, and I mentioned that as well in my testimony, 
that a lot of children that we hear reports on in the neglect 
area are children who are not being fed properly. So we see 
that as a gap and our Food Stamp Program has just, as I 
mentioned again, has been a godsend to these families. A lot of 
families we might receive a neglect report on have no idea what 
food stamp benefits are available to them and we can start 
working with them and get them on the program and help them 
with their nutrition and education of nutrition and healthy 
choices, a healthy lifestyle, and we are able to help them to 
reduce the amount of neglect that we see across both counties, 
in Washington County, which was very economically depressed, as 
well as there in Baldwin County.
    Mr. Bonner. Ms. Wade, I would like to pick up on a comment 
that you made, and we do appreciate your coming to our area 
after Hurricane Katrina. The Bay Area Food Bank is a source of 
pride, that we are all very proud of the role that they have 
played. But being with the food banks, you can probably 
appreciate this better than some might and that is the role. We 
know that government has a role to play. The Food Stamp Program 
is a good example of the partnership between the Federal 
government and the State government and the people. But what 
about the nonprofits? What about the faith-based groups? What 
about the other groups, especially as you reach out to try to 
educate people about benefits that they may be entitled to but 
they are not seeking? How do the nonprofits play a role, and 
especially through the work that you might do with the food 
banks?
    Ms. Wade. Sure. You are right, the food banks do have a 
long history of partnering with USDA on the emergency food 
programs. We work with a network of charities, congregations. 
Most of the food pantries and soup kitchens we work with are 
faith-based. That is exactly right. What is new for us is 
partnering with other USDA programs, including food stamp 
outreach and nutrition education, and we do that because it is 
a such a valuable resource for the people we serve and we need 
to help make that connection. So for example, when USDA rolls 
out an outreach campaign, we want that phone number to ring at 
the food bank and make sure someone of the right language who 
is trusted can help them work through the food stamp 
application. We know the best case scenario for us and the 
California food banks is we are trying to do three things, give 
them more California-grown fruits and vegetables, help them get 
nutrition education to know how to shop and use those fruits 
and vegetables, and then give them the food stamp benefits and 
they can go out and buy that for themselves. We see those three 
things all going hand in hand, the nutrition education, the 
food stamps and the emergency foods. So for us it is just 
learning how to use all of the tools, the nutrition toolbox, to 
help families get on their feet.
    Mr. Bonner. Mr. Chairman, if I might just throw this up to 
the entire panel and if anyone of you feels so inclined, can 
take a bite at it. The challenge we are going to face in 
writing the new Farm Bill obviously comes with fiscal restraint 
or fiscal constraints placed upon us because of a war that we 
are fighting and other challenges that are equally as 
important, access to healthcare and other challenges that we 
look to every day as a Nation. This is obviously an important 
part of our bill, but does anyone have a magic solution out 
there that would help us stretch the limited dollars that we 
have go further, especially as it relates to the Food Stamp 
Program? We have got a taker.
    Mr. Weill. Well, it won't surprise you that I don't have a 
magic solution, but I would just quickly emphasize that we are 
talking here about investing in children in a way that solves 
long-term fiscal and economic problems that increases 
productivity and reduces government health costs. So I 
apologize that I can't help you with today's fiscal problem, 
but from a longer-term point of view, this is a magic bullet. 
It is magical medicine and it is a magical bullet for the 
Nation's fiscal problems.
    Mr. Bonner. Thank you.
    Ms. Chilton. Am I allowed to add something?
    Mr. Baca. Yes.
    Ms. Chilton. Just to not only just reiterate about 
investing in young children, but also, I think that basing your 
fiscal decisions on evidence is something that we strive for in 
science and we hope that you take the evidence that was 
presented to you today and be fiscally responsible and invest 
where there is evidence.
    Mr. Baca. Okay. Thank you. Anybody else want to tackle it? 
And if not, I would like to call on the gentlewoman from 
Kansas. Nancy.
    Ms. Boyda. Thank you and thanks to each of the panelists 
for your very excellent remarks. I would kind of like to 
address perhaps the elephant in the room and at least in my 
district, we are going in the wrong direction in many, many, 
many ways. We represent, in the 2nd, District, why the mean 
income is going up and the medium income is going down. That is 
the 2nd District of Kansas. When you look globally, we are 
seeing more and more disparity between people who have food and 
people who don't, people who have wealth and people who don't, 
people who can raise their family securely and people who 
don't. It just seems like we are losing ground and I follow up 
on Mr. Bonner's. We are losing ground at a time when our fiscal 
restraints are hitting us harder and harder. So in this room 
today, my guess is that each one of us thinks that we ought to 
be out there taking care of our children and our families and 
food stamps is a good idea. We are losing ground on another war 
and I will go straight to the issue of immigration.
    We are becoming a very intolerant Nation in many, many of 
our parts and we need to recognize that that is what is going 
on. I don't mind saying that I think that we need to enforce 
our immigration laws and I have said that directly, but I have 
also told people in my district that I refuse to have somebody 
speak to me hatefully or send me e-mails about any group of 
people and that is happening constantly and it is happening in 
my district. And my question to you, you are the nonprofits and 
you are the NGOs and you are working with our faith-based 
organizations and my question to you is, what are we doing from 
our pulpits, from our temples, from anywhere, to go back to 
people of faith and start talking about issues and start 
turning around what is going on, because the direction that we 
are headed is getting worse, not better. And somewhere or 
another we need to get a message into the pulpits on Sunday 
morning that, you know, no matter what faith you are, I happen 
to be a Christian and the bottom line is Matthew, Mark, Luke 
and John talk a whole lot about this issue, you know, a whole 
lot about it and yet I don't hear this coming from the 
grassroots in my district. What I do hear, you all would not be 
very pleased in hearing. I will be quite honest. So let us talk 
about the elephant in the room. What do we do about that? What 
are you doing to interact with our faith communities?
    Ms. Murguia. I would be happy to take a first stab at that 
and I appreciate you raising the question, because I think 
there are many people who first often confuse legal immigrant 
children with undocumented children and I want to be very clear 
that everything we are talking about today and the history of 
the Food Stamp Program, we are talking about children who are 
here legally. And I think sometimes people paint with this 
broad brush and they try to confuse the issue. There should be 
no confusion when it comes to this program, which is essential, 
and I will say that I commend Ms. Massey for quoting Mother 
Theresa, so you may have missed that, Congresswoman, but the 
faith-based community I think can also be relevant, but let me 
get to the broader point. Look, we are fighting on a larger 
scale to get comprehensive immigration reform and we understand 
in working with a broad coalition, left, right, Republicans, 
Democrats, labor and business, faith-based communities and 
civil rights organizations, that we have come together and 
offered a comprehensive bipartisan solution that we know is 
going to be advanced, we believe, in both chambers this year. 
We must get that broader issue off the table so that it doesn't 
confuse and limit the ability for us to deal with other issues 
that we know are important to children and families across this 
country, particularly Latino kids and families. So we must get 
comprehensive immigration reform done so that we can get this 
cloud that seems to come over every issue when we talk about 
anything related to oftentimes Hispanic or immigrant kids. But 
let us be really clear. This program today and everything we 
are talking about today affects only legal immigrant kids and 
there should be no confusion about that and there should be no 
hesitation in the Congress to deal with that.
    Ms. Boyda. We are limiting. As we talked about, we are 
cutting out whole groups of people out of this and again, it is 
the direction that we are headed that I find very troubling and 
those of us who are in this room believe in this program and 
think that we ought to be out there doing it. What I am asking 
you all, I am actually asking you to get involved. I would like 
to see what we are doing and I talk to people back in my 
district and say, you know, why aren't you talking to your 
minister? Why isn't this being discussed from the pulpit on 
Sunday morning? I hear back virtually, with very limited 
exceptions, that the faith-based community has not taken on 
issues and issues that affect our families like this and I 
would just ask that, as I know you are the private sector, can 
we start bringing in issues and getting the popular 
conversation going around this? I think it would make a big 
difference in the long run and start to return to an America 
that I would be a little bit more comfortable and a little bit 
more proud of on a given day.
    Mr. Baca. Thank you.
    Mr. Weill. If I may just add quickly one point there. As 
Kim Wade indicated, a huge part of the America's Second Harvest 
Network is faith-based and there is a group of virtually every 
religious denomination represented in Washington, called the 
Food Policy Working Group, that works on food stamps and 
related issues with members of the Congress and with the 
grassroots of the denominations. So I believe you will be 
hearing from the Food Policy Working Group after your----
    Ms. Boyda. Good, good. Anything that you can do. Have at 
it. Hallelujah. Thank you.
    Mr. Baca. Okay. Thank you very much. Next, before I do, and 
thank you very much, Janet, for clarifying that the Farm Bill 
is about legal immigrants and those citizens that are eligible 
and this is what we are doing now in reference to the 
legislation. There is a misconception out there about everybody 
else that is eligible. So this is about legal immigrants and 
citizens and children that are eligible for the Food Stamp 
Program and this is what we are dealing with right now. But I 
am glad for the clarification. Mr. Moran.
    Mr. Moran. Mr. Chairman, thank you very much. Dr. Chilton, 
in looking at these issues with the facts, as you suggest, is 
there a study that demonstrates the dollars saved, as Mr. Weill 
indicated about the investment in children? Is there a study 
that demonstrates the dollars saved in healthcare down the 
road? I think one of the most serious issues we face in the 
country today is the unaffordability of healthcare and I would 
like for you to relate to me, if you can, what we can do to 
reduce healthcare costs through nutrition programs.
    Ms. Chilton. Thank you for your question. If you will look 
in my written testimony, I cite a few studies that show that 
food stamps can reduce Medicaid costs for children who are 
malnourished and suffering from anemia. As well, I just wanted 
to remind you about the cost of the hospitalization for a 
pediatric illness. It is about the same cost as what it is to 
support a family of four for several years on food stamps. I am 
not aware myself of particular studies that look at the 
economics on the long term for children, so I would be happy to 
investigate that and submit that along with my testimony and I 
welcome anybody else's comments.
    Mr. Moran. I appreciate your response and I appreciate your 
offer of help. And then, Ms. Wade, you discussed this in your 
testimony and I had made a note that I wanted to explore this 
at least from a Kansas perspective, is how the Food Stamp 
Program fits in, in conjunction with private entities, church-
related groups, with the School Lunch and Breakfast Program. 
Are there formal arrangements between the recipients of foods 
stamps and their involvement in other programs to help meet 
further their nutrition needs?
    Ms. Wade. The one area is the outreach. In California, we 
have a master plan of about five steps that we ask our 
charities and congregations to do, beginning with information 
and moving on to application assistance to help individuals 
through the process. So they come to that interview. Maybe we 
even scheduled that interview for them. We have an envelope 
with all of the paperwork you have to bring. Maybe we have the 
interview at the food bank. All kinds of things to help them 
through the process. But the other thing we are trying to do in 
California this year is create other doors in, so that once you 
are on MediCal, you are automatically on food stamps. Some 
States have, if you are on SSI, you are automatically on food 
stamps. School lunch, automatically on food stamps. We are 
asking the same questions. It is the same families. They are 
working families by and large. We don't need them spending more 
time going through paperwork and red tape. Let us get them the 
benefits they need. So those practices on the ground of making 
the direct connection with individuals and the programs and 
policies at the State and county level, to have a one-stop 
shops for families where we are focusing.
    Mr. Moran. Mr. Brunk, any different response from a Kansas 
perspective?
    Mr. Brunk. No, I think that there is a vigorous 
relationship of cooperation among all the private providers 
working, I think, diligently to see how they can coordinate 
services and be more effective. I will say, in reference to 
some earlier comments, that there is no food bank director, 
there is no food pantry director that I have spoken to who 
thinks that the solution is absent really improving the Food 
Stamp Program. The Food Stamp Program everybody sees as the 
first line of defense. There is just no way that food banks and 
other private providers can meet the need that is out there and 
I think that the community as a whole believes that we need to 
strengthen the Food Stamp Program. The private sector will 
continue doing what they are doing, but without the Food Stamp 
Program, a lot of people would be in much worse shape than they 
are now.
    Mr. Moran. Much of your testimony, Mr. Brunk, as it should 
be, related to children, as has been several of our other 
witnesses. My assumption is that in Kansas there is a 
significant, and I know we have a significant elder population, 
and my assumption is that there are significant nutrition and 
hunger issues with seniors.
    Mr. Brunk. Absolutely. And elderly folks are obviously one 
of the beneficiaries of the Food Stamp Program, so that when we 
are strengthening the Food Stamp Program, we are not only 
benefiting the younger generation, we are also benefiting the 
older generation.
    Mr. Moran. In many communities, I, again, assume in Kansas, 
food stamps would be the only access to nutrition programs, in 
addition, I assume, for children, School Lunch and Breakfast 
Programs. But we would have a wide array of communities in 
which there is no community pantry, no opportunity for the 
private sector, at least no one is taking it because we are so 
rural.
    Mr. Brunk. I think that is true and I think that raises a 
related question, which is, if you look at the map of Kansas, I 
don't have it with me, but SRS, our Social and Rehabilitation 
Services agency provides a map, by county, with the number of 
food stamps recipients and the participation rate, and if you 
look at that map, the broad sense that you get is that, as you 
move further west, the participation rate drops and I think 
there is some sort of logistical reasons for that. As you well 
know, Representative Moran, in those frontier counties and 
those rural counties, we are struggling with keeping the 
population. Those are the counties that are depopulating and 
the folks that are remaining there increasingly, I believe, 
elderly citizens and families with young children who 
economically don't have the wherewithal to move some place else 
for greater opportunities, and so hunger is a real problem in 
rural areas of Kansas.
    Mr. Moran. I don't know whether the chairman intends to 
have another round of questions. If he does, I have other 
questions, but my time has expired.
    Mr. Baca. I don't, because I think we have exhausted the 
time that we have here, but if you want, do you want to ask 
another set of questions?
    Mr. Moran. Just to follow up, then, a bit on that topic. In 
rural communities, one of the things that has happened in our 
State is that SRS has reduced the number of offices. We have 
consolidated State services into more regional centers. I 
assume, again, there is a consequence in those rural 
communities to access to social and rehabilitating services in 
our State, and access to nutrition programs?
    Mr. Brunk. Right, that is very true. Many offices have 
closed down over the last several years as a kind of cost-
cutting efficiency measure. That has been something that has 
been of great concern to me from the very beginning. Supposedly 
there are new tools, mainly the Internet and the phone, that 
families can access, but frankly, I am not sure how many of 
those families are comfortable with using the Internet. And so 
the loss of that face-to-face contact, I am not sure that 
anybody has said this yet, but it is a matter of concern to me, 
because I think, as you lose face-to-face contact, it is very 
likely that families who would earlier be accessing services 
might not be accessing them now.
    Mr. Moran. I appreciate that very much from a rural 
perspective. And finally, Mr. Brunk, I wanted to give you a 
chance. You indicated something in the President's budget that 
you appreciated, related to including high child care costs as 
an offset to income guidelines or standards. I want you to just 
explain to me why that is so important.
    Mr. Brunk. Yes, thank you, Representative Moran. There are, 
by the way, a few things in the President's budget related to 
food stamps that I don't appreciate, but one of the things that 
I do appreciate is that the President proposes that the child 
care costs of families be basically taken out of the 
calculation for food stamps. I think that is very important 
because, really, families right now are often facing the choice 
between paying for child care, which is very expensive, 
especially if you want to get good child care, and paying for 
food. So by disallowing those child care costs, I think that 
you are now making families make that choice. It is a very good 
proposal and I hope it is a proposal that you and other members 
of the committee will endorse.
    Mr. Moran. Thank you very much. Thank you, Mr. Chairman.
    Mr. Baca. Thank you very much. Before we adjourn, I just 
want to thank all of you for taking the time to share your 
knowledge and your expertise with us today, and what each of 
you do for our children who live with hunger and poverty is 
extremely important and we appreciate your dedication to our 
families and all of your hard work. I know that we have got a 
lot of hard work still ahead of us and hopefully that we can 
continue to have hearings on this important issue that impacts 
a lot of us as we move the Farm Bill. And hopefully we can look 
at ideas in reaching out and developing programs, not only as 
we look at the suggestions that were just mentioned now, we 
talk about after school programs, we talk about No Child Left 
Behind, maybe we should develop, you know, after school 
nutritional programs too, as well. I mean, we talk about after 
school programs, so maybe something that we can incorporate 
too, as well, and some of the suggestions that we need to do 
for a lot of our children. But I believe that we have got a lot 
of work ahead of us.
    I believe that the testimony that was heard today 
reinforces my belief that the Food Stamp Program is essential 
to providing long-term well-being for our children. And I know 
it is important for a lot of us, and I know Mr. Bonner talked 
about his children and his experience, and a lot of us can talk 
about our own personal experience and I know, coming from a 
large family of 15 and I am the 15th child and I know what it 
was like growing up and having a lot of tortillas and frijoles, 
you know, during that period of time and changing our habits 
and I know that now at my age, I ended up having a heart attack 
because maybe I ate too much frijoles and tortillas and should 
have had something else during that period of time. But we have 
got to change our habits of eating.
    But it is part of an educational process that we have to go 
and educate in our communities and what needs to be done and we 
realize the importance, but we also realize it is important 
that a lot of our children and our community are aware that it 
is important that they have good nutrition and food stamps, not 
only for our seniors or disabled, but we want to make sure that 
it is healthy for them, because it is investment that, if we 
invest now, it is a savings to us both in health and future and 
improving the quality of life for all us. So the taxpayers end 
up saving in the long run if we invest now versus saving at the 
end. And too often we think only in terms of what the cost is 
now, but we really should look at what the cost will be in the 
future, because it is really reducing the cost. We will end up 
paying one way or the other by providing those health services 
that we should have done if we had done the preventative at the 
very beginning, and this is what we are talking about. So 
hopefully through good nutrition and proper education and food 
stamps, we can help our country produce healthy and active 
adults for generations to come. With that, I thank you. I leave 
closing remarks for my minority chair, Mr. Bonner.
    Mr. Bonner. Mr. Chairman, thank you for holding this 
hearing, and to each of the panelists, thank you for coming and 
sharing your very insightful stories. Every person in this 
room, whether you are a panelist of a member or you have been 
in the back, can relate to a child that we know that has 
benefited because of the concern and the love that our 
government, our communities, our organizations, and more 
importantly, our individuals care to share with that child and 
the impact you leave on that person is oftentimes lasting. So 
thank you for being here with us today. It has been an 
enlightening and very informed meeting. Thank you, Mr. 
Chairman.
    Mr. Baca. Thank you. Before we adjourn, under the rules of 
the committee, the record of today's hearing will remain open 
for ten days to receive additional materials and supplemental 
written responses from witnesses to any questions posed by 
members of the panel. This hearing of the Subcommittee on 
Department Operations, Oversight, Nutrition and Forestry is 
adjourned. Thank you very much.
    [Whereupon, at 12:35 p.m., the Subcommittee was adjourned.]

                 Opening Statement of Chairman Joe Baca

    Welcome to the first hearing of the Subcommittee on Department 
Operations, Oversight, Nutrition and Forestry for the 110th Congress.
    I look forward to a busy and productive session.
    As we look at the Farm Bill, all of us know we have a huge 
responsibility to America's families and farmers.
    But none of our obligations are as important as the reauthorization 
of the Food Stamp program.
    Food stamps are one of our country's greatest safety net programs.
    And it helps to feed 26 million legal residents--most of which are 
children, senior citizens, the disabled, and those living in poverty.
    For over 70 years, our government has taken on the moral 
responsibility to feed those who cannot feed themselves.
    And this year will mark the 30th anniversary of the passage of the 
1977 Food Stamp Act.
    It is appropriate that we mark this anniversary with the 
reauthorization of the Farm Bill.
    We must work to ensure that our country's long tradition of 
combating poverty, hunger, and disease continues through a strong 
nutrition title and Food Stamp Program.
    Over the years, the Food Stamp program has changed and grown with 
the needs of our society.
    Many people misunderstand how Food Stamps work and how effective 
the program is.
    To help correct this mistaken view, today's hearing will focus 
specifically on how the Food Stamps support the childhood health and 
nutrition.
    This topic is near to my heart as the representative of 
California's 43rd district, where Hispanics are twice likely to suffer 
from diabetes.
    Studies also show that one in four Hispanic boys ages 6 through 11 
is obese.
    The rate among other groups is one in six.
    Neither of these statistics are acceptable and they need our 
attention NOW.
    As citizens of the wealthiest country in the world, I believe we 
have a moral obligation as public service to provide good, nutritious 
food to all our people.
    But even if you don't agree with my philosophy, there is a strong 
ECONOMIC argument to be made.
    The World Bank estimates that 12% of our nation's healthcare 
spending is related to obesity.
    That equals $90 billion dollars each year!
    My fellow Members of Congress might be interested to also know that 
almost HALF of that amount is being paid with federal dollars through 
Medicare and Medicaid.
    Good nutrition isn't a just a ``feel good'' issue.
    It affects our budget, our economy, our education system, and the 
health of our nation!
    Before we hear from our distinguished witnesses, I want to thank 
the Members of the subcommittee.
    I deeply appreciate your heartfelt interest in children's health 
and nutrition.
    Each of you who attended our organizing meeting last month 
expressed your concern about this issue.
    And I look forward to working with each of you to make the Food 
Stamp program a pro-nutrition, pro-healthy lifestyle program that 
responds to the needs of our kids and working families.
                               __________

                   Statement of Congressman Jo Bonner

    Good morning. Let me begin by thanking today's witnesses who have 
agreed to appear before the committee regarding the federal food stamp 
program and its impact on children's health. I am pleased that we are 
able to hear from such distinguished individuals and do appreciate your 
willingness to testify. I am especially pleased that one of my 
constituents, Rene Massey, will appear before us today during the 
second panel and offer her expertise as Director of the Department of 
Human Resources in Baldwin County, Alabama.
    The federal Food Stamp Program, established over 40 years ago, has 
played an important role in food security for low-income households 
throughout the United States. A great number of individuals and 
families in our country depend on these benefits. In fact, according to 
the most recent data available, over 45,000 households in Alabama's 
First Congressional District are currently receiving food stamp 
benefits. That's almost 18 percent of total households in my district.
    The purpose of today's hearing, to review how this program impacts 
the health of our children, could not have come at a better time given 
the obesity crisis our nation is facing. The Centers for Disease 
Control and Prevention cites two surveys, one from 1976-1980, and the 
other from 2003-2004, to illustrate the prevalence of overweight 
children. Between those two timeframes, the prevalence of overweight 
children aged 2-5 years increased from 5.0% to 13.9%; for those aged 6-
11 years, prevalence increased from 6.5% to 18.8%; and finally, for 
those aged 12-19 years, prevalence increased from 5.0% to 17.4%.
    It is absolutely imperative we do what we can to help curb this 
epidemic. Educating our children with regard to what is healthy versus 
what is not healthy is one of the things we can do to help in this 
effort. Like many young boys growing-up, I know I didn't always like 
hearing from my mother to eat my broccoli, but it's that type of 
education we need in order to help be successful. As the father of two 
young children, trust me, I know how hard that can be. However, we must 
work to educate, in addition to providing our children the types of 
nutritious foods they need in their daily diets.
    USDA, in the summary of their 2007 Farm Bill Proposal, states that 
children under 18 years of age generally consume 50 percent or less of 
the recommended levels of fruit and vegetables. The summary goes on to 
say that providing increased fruit and vegetable options in the food 
assistance programs can help increase consumption as well as improve 
the quality of many Americans' diets. I agree with this assessment and 
know we need to work to improve the nutrition aspect of the Food Stamp 
Program as we move forward in the 2007 Farm Bill process.
    Our subcommittee's first hearing of the 110th Congress will no 
doubt provide some valuable insight as we address this important topic. 
I look forward to hearing from USDA and the various individuals from 
around the country who will testify today to share some of their 
knowledge and experience in this field.
    Mr. Chairman, thank you for time this morning to provide an opening 
statement, and I look forward to working with you and the other members 
of our subcommittee on this, and other topics of interest.
                               __________

     Statement of Agriculture Committee Chairman Collin C. Peterson

    Thank you, Chairman Baca for recognizing me to speak and for 
holding this hearing today. I also want to thank the USDA Under 
Secretary for Food, Nutrition and Consumer Services and all of our 
witnesses for testifying here today.
    The Food Stamp program helps more than 26 million Americans, and 
that number is on the rise. The Congressional Budget Office recently 
projected that the cost of the current Food Stamp and Child Nutrition 
programs over the next ten years would be about $565 billion. This is 
45 percent higher than CBO's ten-year cost projection made five years 
ago after the 2002 Farm Bill passed. These numbers reveal the fact that 
more people are relying on our current nutrition programs for help, and 
while it might look like there is more money for nutrition programs, 
this is actually just the cost of continuing with the programs 
currently in place.
    Half of those who receive food stamps today are children. Every 
day, we see reports and new data that suggest that if children do not 
have adequate nutrition, they suffer at school and beyond. I look 
forward to hearing from our witnesses about the ways our current system 
of nutrition programs meets the needs of children and how we can 
improve the effectiveness of these programs.
    As the Agriculture Committee begins to write the Farm Bill, we have 
a responsibility to meet the needs of all Americans--farmers and 
ranchers, consumers who expect a safe and abundant supply of food and 
fiber, as well as those who count on the Farm Bill's food and nutrition 
programs for a square meal. This is a tremendous responsibility for the 
Committee, and we intend to fulfill it to the best of our ability.
    Chairman Baca, thank you again for holding this hearing today on 
this very important issue, and I look forward to the testimony from our 
witnesses here today.
                               __________

               Statement of Ranking Member Bob Goodlatte

    Thank you, Mr. Chairman. As you know, the Federal Food Stamp 
program consumes nearly two-thirds of the budget allocated to this 
Committee. Since FY2003, Federal costs have grown from $20.6 billion to 
in excess of an estimated $33 billion for FY2006. The food stamp 
program was intended as an income supplement to help individuals and 
families meet their nutritional needs. And I'm curious if the program 
is still functioning as it was intended to function. I'm afraid it 
creates a cycle of dependency that lasts for generations and American 
taxpayers ultimately end up paying for this rapidly expanding welfare 
program.
    I have led congressional efforts to reform the federal food stamp 
program and to end food stamp waste, fraud, and abuse. These reforms 
are aimed at protecting the integrity of the program so that it 
continues to have the public support it needs to accomplish its purpose 
of helping meet the nutritional needs of those most in need. I believe 
we should limit categorical eligibility to people who receive cash TANF 
or SSI assistance, thereby concentrating the available funding in the 
segments of the population who need it the most. I'm concerned about 
efforts to expand eligibility. Even small changes to eligibility or 
benefit rules in a program as large as food stamps can lead to 
relatively large budget costs or savings.
    As we review the food stamp program, we need to focus on how to get 
benefits to those truly in need as effectively and efficiently as 
possible. Programs such as the Temporary Emergency Food Assistant 
Program, which provides USDA commodities to states who then distribute 
the food through local food agencies, such as soup kitchens and food 
banks, are good models of efficiency in getting food directly to those 
who need it. Programs like TEFAP allow state and local organizations to 
meet the nutritional needs of their communities with which they are 
involved in on a day to day basis. Local administration of nutrition 
programs ensures that the specific and unique needs of communities 
across the country.
    I'm interested to hear what our witnesses have to say today and I 
look forward to your testimony.
                               __________

             Opening Statement of Congressman Nick Lampson

    I want to thank Under Secretary Montanez-Johner and all of our 
witnesses for being here today--to educate and discuss with us the Food 
Stamp program. The issue of food security for those in need is of great 
importance to Texas and especially the 22nd Congressional District.
     Five percent of households in Texas' 22nd District receive food 
stamps. While that number may not seem out of the ordinary, we must 
take into account that only 60% of those eligible participate in the 
program, and it is estimated that 1 in 10 Texas children are at risk 
for hunger. This leads to poor concentration at school and poor health, 
both of which are preventable through a strong, effective, and 
efficient Food Stamp program and the Food Nutrition System. The number 
of children helped by food stamps in Texas has increased in the last 
five years, with one quarter of all Texas children rely on food stamps. 
But the value of the food stamp benefit has eroded over the years, 
costing and many families struggle to make it to the end of the month, 
often relying on private charities to subsidize their food stamp 
allotment.
    I would like to see an increased effort by the USDA and the state 
to increase enrollment, to promote healthy food choices, and in turn 
raise healthy, smart kids, and help out America's farmers at the same 
time.
    I would also like to see the USDA--along with the states--improve 
contingency plans for emergency situations. In September 2005, the 
Houston area experienced an influx of 100,000 new residents. The 
Katrina evacuees placed a great strain on our resources across the 
board. The government provided supplemental caseloads, but they were 
only temporary. With an estimated 80,000 evacuees remaining in the 
Houston area, I implore you to use this disaster as a catalyst to 
reform food aid plans for future crisis situations. We were all caught 
off guard. Victims waited weeks or months to receive aid. Many food 
stamp recipients have now been absorbed into our state's system as 
Texas residents, but many others, especially seniors, lost the aid they 
were receiving through the Commodity Supplemental Food Program.
    Again, thank you for being here today and I look forward to a 
fruitful discussion.
                               __________

                  Statement of Congressman Steve Kagen

    Chairman Baca and fellow colleagues: I am pleased to be here today 
to work hard with my fellow colleagues on both sides of the aisle. I 
believe that good government makes a real difference in people's lives. 
The Food Stamp Program rose from a humble origin. Now, it is one of the 
most important, and most successful programs our Federal Government 
administers. As we've seen on a grand scale in response to Hurricane 
Katrina, and what many of our witnesses see locally, on a daily basis, 
the Food Stamps Program exists solely to assist those in need. As a 
physician, I deeply understand the value of preventive medicine and 
this program illustrates this tenet with the marked improvement we see 
in the health of children who participate. I hope to be a leader on 
this committee, and I look forward to hearing from today's witnesses.
                               __________

      Testimony of Hon. Jo Ann Emerson and Hon. James P. McGovern

    Chairman Baca and Ranking member Bonner,
    We are the co-chairs of the Congressional Hunger Center (CHC). This 
organization administers the Bill Emerson National Hunger Fellows 
Program and the Mickey Leland International Hunger Fellows Program. We 
are proud of the work of these young leaders, but the future of the 
Fellowship funding is in jeopardy and we have specific recommendations 
on how to resolve this important matter.
    Bill Emerson and Mickey Leland, former distinguished Members of the 
House of Representatives, were deeply involved in helping the poor, the 
hungry, and the victims of humanitarian crisis, both at home and 
overseas. They were ``leaders'' with their words, passions, and action. 
CHC fights hunger here and abroad by developing future leaders in the 
fight against hunger and poverty. Representatives Leland and Emerson 
demonstrated their bi-partisan commitment to ending hunger by serving 
together on the former House Select Committee on Hunger, and by helping 
establish the fellowship programs named after them. CHC administers the 
Emerson/Leland programs as the successor organization to the House 
Select Committee on Hunger.
    The Emersonl/Leland Hunger Fellowships are the only programs in the 
United States that provide young leaders with the skills, knowledge and 
experience to end domestic and international hunger. The programs are 
unique in that they combine field program experience and intensive 
policy training and placements for these highly qualified young leaders 
who are accepted into the program.
    A critical feature of the Emerson program is the ``Hunger Free 
Community Reports'' (See Attachment I) which are completed after the 
first six months of the program. These reports provide insight on how 
poor people from those communities face the daily challenge of hunger 
and provide evidence on how the Food Stamp Program is making a 
difference in their struggle. Many of the Hunger Free Community Reports 
are directly connected to the subject of today's hearing: The Food 
Stamp Program and Its Impact on Child Health. One of our Emerson 
fellows was placed at the Boston Medical Center working on the 
Children's Sentinel Nutrition Assessment Program (C-SNAP). C-SNAP 
medical staff conducts research in pediatric settings on the effects of 
U.S. social policies on low-income child nutrition and health, children 
whose nutritional status can be positively or negatively affected by 
changes in policy in programs like Food Stamps and WIC. A CHC Emerson 
Fellow was assigned to the C-SNAP team. He conducted research, helped 
produce and disseminate the most recent C-SNAP report on the 
relationship between low income children, food insecurity, and food 
stamps. This report, entitled ``Food Stamps as Medicine: A New 
Perspective on Children's Health,'' provided important findings such as 
children receiving food stamps are 26 percent less likely to suffer 
from the negative effects of food insecurity. The connection is 
strong--food insecurity contributes to developmental problems and poor 
health among children, and food stamps decreases child food insecurity. 
C-SNAP research shows that children in food insecure homes are 
approximately twice as likely to suffer from poor health and one-third 
more likely to be hospitalized. This report was cited in the testimony 
of Dr. Mariana Chilton, a C-SNAP physician from Philadelphia, a witness 
on panel two today.
    Other Hunger Free Community Reports cover topics such as the 
critical importance of providing nutritional support to people living 
with a life threatening illness, such as HIV/AIDS and diabetes; food 
insecurity within immigrant communities in Atlanta, Georgia; farmworker 
justice in Immokalee, Florida; disaster preparedness and access to the 
Food Stamp Program in Seattle; the story of Hurricanes Katrina and Rita 
and their impact on the Second Harvest Food Bank; and many other 
community level examples of how to fight hunger and poverty. We have 
attached a summary of the 23 Hunger Free Community Reports, all of 
which are available electronically should you, Mr. Chairman or 
Representative Bonner, or your staff like to review them.
    Two of the witnesses at today's hearing, Kim McCoy Wade of the 
California Association of Food Banks and Jim Weill of the Food Research 
and Action Center, have hosted Fellows working on Food Stamp outreach. 
All of the witnesses at the recent House Budget Committee hearing on 
Hunger have hosted Emerson Fellows, including the U.S. Department of 
Agriculture. Over a two year period, Emerson Fellows designed and 
implemented the U.S. Department of Agriculture's Food Stamp Outreach 
Web site. Dr. Deborah Frank, of the Boston Medical Center, has hosted 
Emerson Fellows for three years and Denise Holland of the Harvest Hope 
Food Bank in Columbia, South Carolina, hosted an Emerson Fellow working 
on Spanish translation of food stamp materials for people visiting food 
pantries.
    Our point here is that the Emerson Hunger Fellowship is working 
exactly as intended. The Fellowship develops leaders that continue 
working on issues of social importance in government, nonprofit 
organizations and the private sector long after their Fellowship has 
ended.
    On the international side, the Mickey Leland Fellows continue their 
work in USDA and USAID anti-hunger programs, such as school feeding, 
maternal and child nutrition programs, microenterprise for women, 
agricultural cooperatives, HIV/AIDS and nutrition, and emergency food 
aid provided through Title II of Public Law 480, Food for Peace. Many 
of these Leland Fellows are now working as program officers and policy 
analysts for organizations such as Save the Children, Catholic Relief 
Services, Counterpart International, Mercy Corps, American Red Cross, 
Land O'Lakes, USAID and the UN World Food Program. Together with the 
Bill Emerson Fellows, they are fulfilling the mandate of Mickey Leland 
and Bill Emerson in a bi-partisan fight against hunger.
     why is funding for the emersonl/leland fellowship in jeopardy?
    The FY 2007 Continuing Resolution for Appropriations (CR) removed 
$2.5 million, or 100% of the program costs for the operation of the 
Bill Emerson/Mickey Leland Hunger Fellowships. Without these funds, CHC 
will be forced to close its operations during 2008. The funds were 
removed because the appropriation was declared an ``earmark'' and 
neither the Fellowships nor the administering entity, CHC, met the 
technical requirements of the authorization contained in the 2002 Farm 
Bill. If the 2007 Farm Bill is not amended to establish a permanent 
authorization for the Emerson/Leland Hunger Fellowships to be 
administered through CHC, future appropriations will continue to be at 
great risk.
    CHC has received federal funding to administer the Bill Emerson/
Mickey Leland Fellowships since 1994. The programs were established as 
a memorial to former Representatives Bill Emerson and Mickey Leland and 
the programs enjoy wide support from both the House and the Senate. But 
in 2002 the Farm Bill authorized a ``Congressional Hunger Fellows'' 
program (identical to the CHC administered Fellowships) as an 
independent entity of the Legislative Branch of the U.S. government. 
This program would have two components: A Bill Emerson Hunger 
Fellowship and a Mickey Leland Hunger Fellowship, administered by a 
Board of Trustees, appointed by Congress. An authorization for an 
endowment was included in the Farm Bill as a mechanism for funding the 
Fellowships. The Congressional Hunger Fellows Program never commenced 
operations, no legislative branch of government entity was created, no 
endowment was established and the Board of Trustees never met.
    Congress did not implement any elements of the ``Congressional 
Hunger Fellows'' program as authorized in the 2002 Farm Bill. Instead, 
Congress provided yearly appropriations for these Fellowships to CHC 
from FY 02 through FY 07 (mandatory funding in FY 03 and FY 04 and 
regular annual appropriations through FY 07). However, since the 2002 
original authorization for the Fellowships was not amended, the FY07 
appropriation was declared an earmark and funds were removed from the 
CR.
     how can we assure the continued success of the emerson/leland 
                              fellowships?
    First, the 2007 Farm Bill should be amended establishing a 
permanently authorized Bill Emerson National Hunger Fellowship Program 
and a Mickey Leland International Hunger Fellowship Program to be 
administered through the Congressional Hunger Center. Second, mandatory 
funding of $3 million should be provided for FY 2008 as a part of the 
Farm Bill. Third and finally, the Emerson/Leland Fellowships should be 
authorized for ``such sums as necessary'' in future fiscal years 
through the USDA to the Congressional Hunger Center. These actions will 
ensure that the legacy of Bill Emerson and Mickey Leland will continue 
to inspire the next generation of anti-hunger leaders at home and 
abroad.
    We have attached a list of organizations and Fellow alumni (see 
Attachment II) that support funding for the Emerson/Leland Fellows 
along with six letters (see Attachment III) from Fellows and host 
organizations that illustrate how important the Fellowship is for these 
future leaders and the organizations in the U.S. and around the world 
that rely on that leadership.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                   Testimony of Nancy Montanez-Johner

    Thank you, Mr. Chairman. I am Nancy Montanez-Johner, Under 
Secretary, Food, Nutrition, and Consumer Services (FNCS), U.S. 
Department of Agriculture (USDA).
    I am pleased to be at today's hearing to discuss the Food Stamp 
Program (FSP) and its impact on children's nutrition and health. The 
FSP is the Nation's primary nutrition assistance program, increasing 
food purchasing power for households with little income and few 
resources by providing benefits that are redeemed at retail grocery 
stores across the country. Over 26 million low-income people make use 
of the program to help put food on the table.
    This program provides substantial benefits to low-income families 
with children, helping them to stretch their buying power. About half 
of all food stamp recipients are children, nearly 80 percent of food 
stamp benefits go to households with children, and over 80 percent of 
all children who are eligible for benefits receive them. On average, 
households with children receive about $300 in food stamp benefits each 
month, with the amount varying based on the size and income level of 
the household. Food stamp households also benefit from nutrition 
education that is part of the program in every State--helping to 
promote thrifty shopping and healthy eating among food stamp clients.
    The evidence is clear that the FSP makes an important difference in 
the lives of low-income children and families, and the others that it 
serves. With its nationwide standards for eligibility and benefits, it 
represents a national nutrition safety net for low-income families and 
individuals wherever they live. It is designed to expand automatically 
to respond to increased need when the economy is in recession and 
contracts when the economy is growing, making sure that food gets to 
people who need it, when they need it.
    Perhaps most importantly for today's hearing, the FSP makes more 
food available to households that participate. Food stamp families are 
able to spend more on food than they would be able to without the 
program, and providing benefits that can be spent only on food 
increases total food expenditures more than providing an equal amount 
of cash would. In addition, there is evidence that program 
participation can increase the availability of nutritious food in the 
home.\1\
---------------------------------------------------------------------------
    \1\ Research evidence summarized by Fraker (1990) and Fox, 
Hamilton, and Lin (2004) indicates that an additional dollar of food 
stamp benefits raises food expenditures by 17 to 47 cents; an 
additional dollar of cash, in contrast, raises food expenditures by 5 
to 10 cents. Both summaries also report evidence that the FSP increases 
household availability of food energy and protein. Devaney and Moffitt 
(1991) report that FSP participation significantly increased household 
availability of a broad array of vitamins and minerals: vitamins A, B6, 
C, riboflavin, thiamin, calcium, iron, magnesium, and phosphorus. 
nutritious food to children in summer camps and other settings in the 
summer months, when school is not in session.
---------------------------------------------------------------------------
    To sum up, Mr. Chairman--the Food Stamp Program works, and it works 
for children. That's why we're committed to ensuring effective program 
operations for all eligible people who wish to participate.
    To meet that commitment, we have implemented outreach activities 
such as the national media campaign. The number one reason that people 
do not apply for food stamp benefits is because they do not realize 
that they are eligible. The national media campaign seeks to raise 
awareness of the nutrition benefits of food stamps and encourage low 
income people to seek out more information about their eligibility for 
this important benefit. National media campaign activities primarily 
consist of radio advertising in areas of low participation.
    The Food and Nutrition Service (FNS) also provides outreach 
materials for the Food Stamp Program including posters and flyers, as 
well as radio and television public service announcements, that State 
and local food stamp agencies and community and faith-based outreach 
providers can use in their local outreach efforts.
    For the last four years, FNS has also awarded grants to community 
and faith-based organizations to implement and study promising outreach 
strategies. All of these outreach strategies are geared towards the 
working poor, including families with children, seniors, and legal 
immigrants, including citizen children of undocumented parents.
    Mr. Chairman, I know the focus of this hearing is how the FSP 
affects children's health, but I would be remiss if I did not mention 
the other major programs that I oversee which directly bear on this 
subject. The 15 domestic nutrition assistance programs administered by 
FNS work together to improve food security, fight hunger, and support 
healthy eating for low-income people across the Nation. The President's 
budget for Fiscal Year 2008 demonstrates the Administration's 
unwavering commitment to this mission by requesting a record level of 
$59 billion dollars for these vital programs, which serve one in five 
Americans over the course of a year. While these programs are designed 
to meet the needs of people of all ages who need assistance, they focus 
most strongly on the needs of children. In addition to food stamps, the 
major nutrition assistance programs include:
    <bullet> The Child Nutrition Programs (CNP), including the school 
meals (lunch and breakfast) program, and the Child and Adult Care Food 
Program (CACFP), which support nutritious meals and snacks served to 
over 30 million children in schools, child care institutions, and 
after-school care programs. In addition, the Summer Food Service (SFSP) 
Program and parts of the National School Lunch Program provide 
nutritious food to children in summer camps and other settings in the 
summer months, when school is not in session.
    <bullet> And for the youngest children and infants, we operate the 
Special Supplemental Nutrition Program for Women, Infants, and 
Children, or WIC. WIC addresses the special needs of at-risk, low-
income pregnant, breastfeeding, and postpartum women, infants, and 
children up to five years of age. It provides 8 million participants 
monthly with supplemental food packages targeted to their dietary 
needs, nutrition education, and referrals to a range of health and 
social services; benefits that promote a healthy pregnancy for mothers 
and a healthy start for their children.
    Overweight and obesity are critical issues for every part of our 
population, and addressing those problems is most important early in 
life, when eating and other health-related behaviors are developed. The 
policies that shape the programs are aligned with the Dietary 
Guidelines for Americans, which are revised every five years to ensure 
that policy is based on current scientific and medical knowledge. And 
each major program promotes healthy eating and active lifestyles 
through nutrition education and promotion.
    Nutrition education and services are provided to WIC participants 
in conjunction with other parts of the WIC benefit to improve birth 
outcomes and promote childhood immunization, and breastfeeding. Team 
Nutrition, a comprehensive, integrated plan to promote good nutrition 
through the Child Nutrition Programs, includes nutrition education 
materials for use in schools and technical assistance for food service 
providers. We also promote nutrition education across programs through 
the Eat Smart. Play Hard.<SUP>TM</SUP> Campaign, and by working with 
State agencies that operate the programs on State Nutrition Action 
Plans, to foster integrated cross-program strategies.
    Nutrition education efforts are not limited to the Child Nutrition 
Programs but are also provided by States to food stamp recipients. The 
program represents a prime opportunity to reach low-income children and 
families and encourage healthy practices that can last a lifetime.
    The FSP clearly has been a major benefit to low-income households 
with children over the years. Children in the FSP have also benefited 
from the increased commitment to nutrition education as a component 
part of the Program. Considered an optional benefit on the part of 
States, spending in the area of nutrition education has increased over 
the last fifteen years. For example, in FY 1992, FNS approved $661,000 
for Food Stamp Nutrition Education (FSNE) efforts conducted by seven 
State agencies. This year, FNS approved $275 million in federal funds 
for fifty-two State agencies to provide FSNE. It is important to note 
that FSNE plays a valuable role in helping to communicate the Dietary 
Guidelines for Americans to low-income audiences. This includes 
promotion of MyPyramid and its various iterations such as MyPyramid for 
Children and MiPiramide.
    To that end, FNS has also developed a series of nutrition education 
and promotional materials targeting women with children entitled Loving 
Your Family, Feeding Their Future: Nutrition Education through the Food 
Stamp Program. These materials are designed for Food Stamp mothers who 
may possess low-literate skills and who may be Spanish speakers. These 
materials can be used in any setting with similar target audiences, 
such as the WIC Program. The anticipated release date of these 
materials is May 2007.
    The Food Stamp Nutrition Connection is a website designed to 
provide training and information resources to FSP nutrition educators, 
and it provides more than 150 nutrition education resources for 
children.
    For a preview of our excellent children resource materials please 
visit our web sites at: http://foodstamp.nal.usda.gov, http://
www.fns.usda.gov/eafsmartplavhardkids/Library/actsheets.htm (For 
children in Spanish and English)
    I would like to take a moment to outline several of our Farm Bill 
Proposals, especially those that would benefit households with 
children.
    We are using the 2007 Farm Bill process to further improve program 
access and facilitate future self-sufficiency. The Administration's 
reform-minded and fiscally responsible proposals build on the success 
of the 2002 Farm Bill--raising food stamp participation rates among 
eligible populations, restoring eligibility for many legal immigrants, 
and providing new flexibility for States to tailor services to better 
serve their clients--with improvements in access, strong integrity, and 
careful stewardship of the taxpayer dollars. Let me outline some of the 
proposals that have particularly important impacts on families with 
children:
    First, we want to strengthen efforts to integrate nutrition 
education into the Food Stamp M Program by recognizing in the Food 
Stamp Act of 1977 that nutrition education is a component of the 
program and investing $100 million to establish a five-year competitive 
grants demonstration program targeted at developing and testing 
solutions to the rising rates of obesity. These grants will allow us to 
evaluate creative and innovative solutions in this complex area, such 
as point-of-sale incentives to purchase fruits and vegetables, 
increased access among food stamp recipients to farmers markets, and 
integrated initiatives that use multiple communication channels to 
reinforce key messages. These initiatives would include rigorous 
evaluations to identify effective strategies. This is important, as the 
Committee knows, because of the serious health threats of obesity and 
overweight threaten American citizens, but is even more critical when 
we consider the impact it has on our nation's children.
    Second, our proposals to increase program access that would affect 
families with children include:
    <bullet> Eliminating the cap on the dependent care deduction--
Current policy supports work or participation in work services by 
providing for limited deductions from the family's gross income 
associated with the cost of dependent care when determining food stamp 
eligibility and benefit amount: a cap of $200 per month for children 
under 2 and $175 for other dependent children is the current policy. 
The cap was set back in 1993. It is time to eliminate the cap, which 
would simplify State administration and help working families with 
children.
    <bullet> Excluding the value of college savings plans from the 
resource limit--This proposal would expand the plans eligible for 
exclusion from the resource limit when determining food stamp 
eligibility and would simplify administration for the States. Most 
significantly, it supports working poor, encourages focused savings for 
children's futures, and recognizes that households should not have to 
deplete college savings plans in order to get nutrition assistance. 
This proposal will exclude from the resource calculation the value of 
certain college savings plans that the IRS recognizes for tax purposes, 
including 529 plans operated by most States.
    <bullet> Excluding combat-related military pay--Enhanced pay from 
military deployment can sometimes cause families receiving food stamps 
to no longer be eligible for this assistance. This policy change would 
ensure that military families are not penalized for doing their 
patriotic duty. It supports the families of servicemen and servicewomen 
fighting overseas by ensuring that their families back home do not lose 
food stamps as a result of the additional deployment income. This 
proposal has been a part of the President's budget for sever years and 
was first enacted in the 2005 Appropriations Act; this farm bill 
proposal would make this annual policy fix permanent.
    <bullet> Encouraging savings for retirement--This proposal 
simplifies food stamp resource policy and makes it more equitable 
because under current law some retirement accounts are excluded and 
some are included. This proposal supports the President's Ownership 
Society Initiative, by increasing the ability of low-income people to 
save for retirement. It is expected, when fully implemented, to add 
approximately 100,000 persons to the program land to increase benefits 
by $592 million over 5 years. The majority of the new participants will 
be workers and their families, most with children, but also improves 
access for the elderly.
    Third, beyond the $100 million in obesity-prevention grants, we 
also propose to improve nutrition for children by:
    <bullet> Adding new mandatory funding for the purchase of 
additional fruits and vegetables for use in the National School Lunch 
and Breakfast Programs. This $500 million of funding over 10 years 
represents a net increase in the total purchase of fruits and 
vegetables for school meals over levels available under any other 
authorities.
    <bullet> Increasing Section 32 spending on fruits and vegetables by 
$2.75 billion over 10 years. This proposal will increase the 
availability of fruits and vegetables to low income individuals and 
school children participating in nutrition assistance programs, and the 
consumption of these healthful foods can contribute to the improved 
health of program participants.
    Mr. Chairman, Food Stamps and the other USDA programs help us lead 
the fight against hunger, and the level of commitment to this task 
remains high. But we still know that there is more to do. We are 
continuing to improve program operations, get benefits to those who are 
already eligible, but do not participate, and keep our eye on program 
integrity in the process.
    FNS programs enable other programs to operate better by making sure 
that young children have access to proper nutrition and are ready to 
learn.
    This concludes my prepared remarks. I would be happy to answer any 
questions you might have at this time.
                               __________

                      Testimony of James D. Weill

    Chairman Baca and Members of the Subcommittee, thank you for the 
opportunity to testify here today.
    I am Jim Weill, President of the Food Research and Action Center 
(``FRAC''). The Food Research and Action Center has been working for 37 
years to reduce and eventually end hunger in this country. Through 
research, policy advocacy, outreach, public education, and training and 
technical assistance for state and local advocates, public agencies, 
officials and providers, we seek to strengthen public nutrition 
programs and have them reach many more people in need.
    FRAC has been instrumental in helping to launch, improve and expand 
the food stamp, WIC, school breakfast, summer food and other nutrition 
programs.
    Today's topic is extremely important. The Food Stamp Program is a 
very strong and successful program--the nation's most important bulwark 
against hunger. The program is essential to the basic well-being of 
millions of Americans, including the nutrition and health of children, 
but needs to be strengthened further. My testimony will discuss: first 
the reasons that the program is so successful; then its important 
positive impact on children's nutrition and health; and third, key ways 
in which it needs to be improved.
    Even as the economy has grown year after year, lower-income 
Americans have received a shrinking share of the economic pie, losing 
out both relatively (compared to high-income groups) and absolutely 
(compared to the cost of living). Incomes typically have lagged growing 
health, housing and energy costs. Poverty, food insecurity, and similar 
problems caused by inadequate wages and economic supports generally 
have increased. The number of people living in poverty rose from 31.6 
million in 2000 to 37 million in 2005. The number of people living in 
households facing food insecurity--the government phrase for families 
without the resources to feed themselves enough, or unable for economic 
reasons to purchase a healthy diet, or otherwise struggling with 
hunger--rose from 31 million in 1999 to 38.2 million in 2004, and then 
fell to 35.1 million in 2005, still well above 1999 levels (2006 data 
are not yet available). More than 12 million children live in food 
insecure households.
    There are many heartbreaking stories those of us on this panel 
could tell about individuals and families struggling against hunger, 
stories whose poignancy merely grows when we think of our nation's 
extraordinary abundance. The one I keep coming back to in my mind 
involves a mother standing on a seemingly endless line of 896 people 
waiting outside a food bank in rural southeastern Ohio, as reported by 
the TV show 60 Minutes a couple of years ago. She explained to the 
reporter that she bought whole milk and cut it with an equal part of 
water: ``It makes milk last longer. Because the baby. . .needs milk.'' 
When asked what her dream in life was, this rural Ohio mother in our 
rich twenty-first century America said that it was to feed her baby 
undiluted milk.
    A stronger Food Stamp Program could fulfill that dream. We should 
not have to explain to this mother and millions like her that, even as 
the economy grows, the needed program improvements can't happen and, 
indeed, food stamp benefits will continue to be reduced further each 
year because of a law Congress passed in 1996.
    As a nation, we can do better.
                i. food stamps and low-income americans.
    The Food Stamp Program is the government's first line of defense 
against hunger and food insecurity, and a key factor in bolstering 
family economic success, ameliorating poverty and improving nutrition 
and health.
    For many low-income people, food stamps are the critical lifeline--
a source of basic income as fundamentally important as Social Security 
is to seniors. Indeed, In the 1980s then-Senator Robert Dole described 
the program as the most important advance in America's social programs 
since the creation of Social Security. Food stamp benefits lift the 
incomes of 2.2 million Americans/year above the poverty line. Food 
stamp benefits are the single most effective program in lifting 
children out of extreme poverty (defined as family income below 50 
percent of the poverty line). Families with earnings from low-wage work 
are heavily reliant on food stamps. For example, at the earnings level 
of a family of four with one full-time minimum wage worker, food stamp 
benefits are about $5,000 and the Earned Income Tax Credit is $4,100. 
As cash welfare eligibility has shrunk and more and more people have 
entered the workforce, but at low wages, moreover, there has been a 
sharp increase in the proportion of food stamp households with work 
income, as opposed to welfare.
    The program has a range of other policy and political strengths 
that have been key to its growing success over the years:
    <bullet> An initiative that began with bipartisan support in the 
1960s and 1970s, with early champions like Senators Robert Dole and 
George McGovern and then Representatives Bill Emerson and Mickey 
Leland, has continued to receive an extraordinary level of support from 
members of both parties. There also is considerable state and local 
official support, again from officeholders in both parties.
    <bullet> President Bush's Department of Agriculture has been a 
positive force since 2001 in increasing the access of eligible people 
to the program. President Bush's support in 2002 of eligibility for 
legal immigrants and better access for working families was an 
important factor in the steps forward made that year.
    <bullet> Polls show that Americans care deeply about eliminating 
hunger in this country, feel that not enough is being done in that 
regard, and want greater government efforts.
    <bullet> The continuing entitlement nature of the program has made 
it flexible and responsive to changes in economic conditions (whether 
local or national) and to emegencies. The Food Stamp Program stood out 
among federal programs after Katrina for its very fast and effective 
response to the needs of hundreds of thousands of families on the Gulf 
Coast.
    <bullet> The replacement of food stamp coupons by electronic 
benefits cards and other initiatives have reduced errors and fraud 
(more than 98 percent of benefits go to eligible households), and made 
the use of program benefits at the checkout lane much less visible, 
thereby reducing the stigma of participation.
    <bullet> In a time of growing insecurity and growing economic 
volatility for low-income families--more changes in employment and 
wages--the entitlement nature of food stamps, the national benefit 
structure (with benefit amounts inversely scaled to family income in a 
way essentially uniform across the nation), and the very few 
``categorical'' restrictions on eligibility all contribute to the 
program's responsiveness to need.
    <bullet> The program has support from disparate sectors, including 
the agricultural sector, food companies, and grocery retailers; labor; 
and the religious community.
    <bullet> The program supports many low-income working families 
(including those leaving welfare), children and seniors, as well as 
disabled and unemployed persons. There also are more than 600,000 
veterans in households receiving food stamps.
    <bullet> Food stamps reach millions of people from all parts of our 
society--e.g., Whites, African-Americans and Hispanics; rural, suburban 
and urban households. I know that some think of farm programs as the 
``rural part'' of the Farm Bill and food stamps as the ``urban part.'' 
That doesn't fully reflect the reality, which is better portrayed in a 
report from the Casey Institute at the University of New Hampshire 
entitled ``Rural America Depends on the Food Stamp Program to Make Ends 
Meet.'' The Casey Institute found that 22 percent of the nation's 
population lived in non-metropolitan areas in 2001, but 31 percent of 
food stamp beneficiaries lived there.
    Perhaps the clearest recent summary of the success of food stamps 
and the results of the considerable strengthening of the program came 
in a January issue of The National Journal devoted to ``10 Successes 
[and] 10 Challenges'' in American society--major issues in the public 
and private sectors. Alongside cleaner air, successful assimilation of 
immigrants, American entrepreneurship, and six other successes was food 
stamps, described as ``A Government Reform That Worked.'' The National 
Journal was particularly struck by the extremely low rates of program 
fraud, and the quick and effective response of the program on the Gulf 
Coast after Hurricanes Katrina, Rita and Wilma in 2005. I have attached 
the article to this testimony.
          ii. food stamps and children's health and nutrition
    Sometimes we take for granted the general good health and nutrition 
of our nation's children, and forget that it is our nutrition programs 
that have made a huge difference for millions of them. I would like to 
begin this part of my testimony by pointing out that 2007 marks the 
40th anniversary of a ground-breaking Congressional hearing on hunger 
in America, and its health and nutrition consequences for children. At 
that hearing, physicians shocked Congress and the nation with their 
descriptions of the state of nutrition and health among children in 
poor areas of Appalachia and the southeastern United States. Dr. 
Raymond Wheeler, a physician from North Carolina, testified on behalf 
of the Physicians Task Force on Hunger: ``Wherever we went and wherever 
we looked we saw children in significant numbers who were hungry and 
sick, children for whom hunger is a daily fact of life, and sickness in 
many forms, inevitability. The children we saw were more than just 
malnourished. They were hungry, weak, and apathetic. Their lives were 
being shortened. They are visibly and predictably losing their health, 
their energy and their spirits. They are suffering from hunger and 
disease, and directly or indirectly, they are dying from them, which is 
exactly what starvation means.''
    Beginning that day, many more Americans came to understand the 
importance of ending hunger and improving nutrition to ensure the 
health and educational achievement of our children. Federal nutrition 
programs have been created and expanded to ensure that the desperate 
situation Dr. Wheeler described would never again happen in our nation. 
By the late 1970s studies found hunger had been dramatically reduced by 
food stamps and other government initiatives like WIC and school meals. 
But we have in essence stalled, and in some respects slid backward 
since then.
    We need to reinvigorate our nation's anti-hunger effort.
    All of us recognize the importance of a healthful and sufficient 
diet for children, from the molecular biologist studying nutrition at 
the cellular level to the mothers and fathers among us who see it each 
day in our children's growth and development. But one difference today 
is that we are seeing and hearing more and more findings from 
laboratory research, epidemiological studies, and nutrition 
interventions that contribute to our growing understanding of the vital 
importance of enough good food for the next generation--for their 
health and cognitive, physical, emotional and social development--and 
the role of food stamps in accomplishing that. Food security, which the 
U.S. Department of Agriculture defines as ``access by all people [in 
the household] at all times to enough food for an active healthy 
life,'' translates, for children, into optimal cognitive development 
and better education outcomes, improved mental health and self-esteem, 
better family dynamics, healthier children with healthier futures, and 
obesity prevention. Everyday the Food Stamp Program works to make sure 
that millions of low-income children enjoy these positive outcomes. 
And, with additional funding and targeted changes in the program, it 
can make even more of a difference for these and other children and 
their families.
    Food stamps increase the nutrition available to low-income 
children. Over half of food stamp recipients are children, making it 
nearly as much of a child nutrition program as School Lunch and 
Breakfast. Food stamps increase household food spending, and research 
on the effects of food stamps on overall household food consumption 
reveals that basic nutrients in home food supplies are increased 
substantially (20 to 40 percent) by food stamps. USDA reports that the 
very large majority of benefits are spent on basic food items--for 
example, vegetables, fruits, grain products, meat and meat alternatives 
account for nearly three quarters of the money value of food used by 
food stamp recipients.
    One study by USDA researchers using national food consumption data 
looked at the impact of the Food Stamp Program on households' Healthy 
Eating Index (HEI) scores (an indicator of overall dietary quality 
developed by USDA based on the Dietary Guidelines for Americans) and 
found that the value of food stamps received by a household had a 
substantial and statistically significant positive effect on overall 
dietary quality. For each dollar of food stamps that a household 
received, the household HEI score went up--the higher the level of food 
stamps, the larger the positive nutritional effect.
    Another group of researchers looked specifically at the effects of 
household food stamp participation on the nutrient intakes of children 
1 to 4 years old, using the same national food consumption data. They 
found that for iron, vitamin A, thiamin, niacin and zinc, the Food 
Stamp Program had a significant positive effect on the intakes of this 
age group. Again, the intakes of these nutrients were significantly 
related to the amount of food stamps received--as benefits went up, the 
amount of each nutrient in the diet went up as well.
    Another recent study demonstrated that, among 8000 children 
followed from kindergarten to third grade, those whose families began 
to receive food stamps achieved significantly greater improvement in 
reading and math than those whose families stopped receiving food 
stamps.
    In short, the evidence is that food stamps make a positive 
difference for nutrition, and the consumption of a nutritionally 
adequate and healthful diet contributes to better health and 
educational outcomes for children.
    Food stamps increase the food available to low-income children and 
their families and thus move families closer to food security, and 
further away from the adverse consequences of food insecurity. As 
indicated earlier, more than 12 million children in the U.S. live in 
food insecure households--16.9 percent of children live in food 
insecure households, compared to 10.4 percent of adults.
    Researchers are finding that when children live in food insecure 
households, their health status can be impaired, making them less able 
to resist illness and more likely to become sick or hospitalized. Iron 
deficiency anemia among young children has also been associated with 
household food insecurity. Children from food insecure households have 
problems with learning, resulting in lower grades and test scores. They 
are also more likely to be anxious and irritable in the classroom, and 
more likely to be tardy, or absent from school. Adolescents from food 
insecure households have been shown to be more likely to have 
psychological problems.
    According to a survey of several thousand mothers of 3-year-old 
children in 18 large cities, mental health problems in mothers and 
behavioral problems in their preschool-aged children were twice as 
likely in food insecure households as in food secure households. In 
discussing their findings, the researchers assert: ``Social policy can 
address food insecurity more directly than it can address many other 
early-life stresses, and doing so can enhance the well-being of mothers 
and children.'' The Food Stamp Program is one of the social policies 
that can bring families with children more food security.
    Put differently, in the metaphor used by Dr. Deborah Frank of 
Boston Medical Center and the Children's Sentinel Nutrition Assessment 
Program, food stamps are like a childhood vaccine against malnutrition, 
hunger and food insecurity--a miracle drug that cuts babies' chances of 
dying, reduces hospitalizations, and increases children's school 
achievement. But because benefits are inadequate, we are giving 
children (in Dr. Frank's words) a ``sub-therapeutic'' dose of this 
miracle drug--enough to make them better, but less than science tells 
us they need, the equivalent of giving children penicillin that isn't 
quite enough to really cure a strep throat. And we are giving this 
miracle drug only to 60 percent of the people who need it. If this 
nation were giving polio or measles vaccine to only 60 percent of 
children, and in sub-therapeutic doses, I believe this Congress would 
act immediately.
    Food stamps, by moving families closer to food security and by 
allowing them to afford healthful diets on a more consistent basis, can 
play an important role in preventing childhood obesity. Certainly 
obesity among low-income people as well as more affluent people in our 
society is a serious concern. Some have worried that food stamps, by 
the mere fact of paying for food, contribute to obesity. But all the 
evidence is to the contrary. It is adequate resources for a healthy 
diet that reduce obesity, not hunger, stress, or recurrent cycles of 
eating and lack of enough food to eat. Food stamps and other nutrition 
programs can play a protective role against obesity, although that role 
may well be diminished by the inadequacy of the benefit amount.
    Emerging research is showing that participation in nutrition 
programs has the potential of protecting children from excess weight 
gain. An analysis of nationally representative survey data shows that 
school-age food insecure girls are less likely to be overweight or at 
risk of overweight if they participate in the School Breakfast Program, 
School Lunch Program or Food Stamp Program, or any combination of these 
programs.
    Research has shown that obesity can be a potential consequence of 
food insecurity among women. The reasons may include the ways in which 
low-income mothers must cope with limited resources for food--
sacrificing at times their own nutrition in order to protect their 
children from hunger and lower nutritional quality. Food insecurity and 
poverty may also act as physiological stressors leading to hormonal 
changes that predispose women to obesity. This interaction between food 
insecurity and obesity does not show up as consistently among children. 
This may be because families work so hard to protect their children 
from the consequences of household food insecurity. One of the programs 
that helps families do this is the Food Stamp Program. An expert panel 
appointed by the USDA has reviewed the scientific literature and found 
no evidence of a relationship between food stamp use and obesity. 
Similarly, an analysis of data from a national representative child 
development survey showed no evidence that the Food Stamp Program 
contributed to overweight among poor children. Research and common 
sense lead to the conclusion that a more adequate Food Stamp Program 
that supplies vulnerable families with the level of benefits they need 
to purchase healthful diets on a consistent and reliable basis will 
help children avoid both food insecurity and obesity.
iii. acting in food stamp reauthorization to promote children's health 
                             and nutrition
    As important and effective as the Food Stamp Program is, it still 
needs to be improved in significant ways to further reduce hunger and 
food insecurity and support nutrition and health.
    Recently a team of academic researchers, led by Harry Holzer of 
Georgetown University, produced an analysis of The Economic Costs of 
Poverty in the United States: Subsequent Effects of Children Growing Up 
Poor. They concluded that childhood poverty imposes very large long-
term economic costs on American society--by adversely affecting health, 
education, productivity and other attributes and outcomes, children's 
poverty leads to such outcomes as added health costs and lower earnings 
as adults. The total cost to this country is equal to nearly four 
percent of GDP, or about $500 billion per year.
    One reason these costs are being incurred--why our children are 
being harmed and our economy is being held back--is the nation's 
widespread hunger and food insecurity among families with children. As 
just one example, as Dr. Deborah Frank testified to the House Budget 
Committee four weeks ago that among children under age 3 (she 
specializes in the problems of very poor, very young children) those 
who are food insecure are 90 percent more likely to be in poor health 
and 30 percent more likely to require hospitalization.
    Our nation can improve the nutrition and health of children, as 
well as seniors, parents and others, and strengthen its schools, health 
care system and economy by making needed investments in the Food Stamp 
Program.
    Our top priority for the 2007 Farm Bill thus is a strong nutrition 
title that reflects this strategy by reauthorizing and improving the 
Food Stamp Program. The 2002 Farm Bill made important progress upon 
which to build. That bill restored food stamp eligibility for some (but 
not all) of the many legal immigrants excluded six years earlier; 
improved access for low-income working families; very modestly 
increased the standard deduction for some (but a minority of) 
beneficiaries whose allotment levels had been cut several years earlier 
by freezing that deduction; reformed how USDA evaluates state 
administration of the program; and gave states new options to 
streamline enrollment and reporting, aiding both clients and 
caseworkers.
    But, we have far to go in addressing hunger and food insecurity in 
this nation. The Food Stamp Program has brought the nation a long way; 
but it must be strengthened so we can truly move towards eradicating 
hunger and food insecurity in the midst of our great affluence. To 
realize the program's potential, Congress must follow three broad 
strategies: making benefit allotments adequate; opening eligibility to 
more needy people; and connecting more eligible people with benefits, 
since only 60 percent of currently eligible people, and barely half of 
eligible low-income working families, participate in the program. The 
recommendations below are aimed at achieving these three goals.
    These goals are reflected as well in two statements attached by 
this testimony. The first is a joint position of the Food Research and 
Action Center, America's Second Harvest--the Nation's Food Bank 
Network, and the American Public Human Services Association, the 
association of state food stamp directors and other state and local 
government human services professionals. The second is a letter to 
Congress in support of a strong nutrition title signed by more than 
1200 national, state and local organizations, with more joining every 
day.
    As a threshold matter, the 2007 Farm Bill must maintain the 
entitlement structure of the Food Stamp Program, which responds to 
increases in need whether due to local or national economic changes or 
disasters. One recent example underscores this point: the absolutely 
essential role that the Food Stamp Program played as an effective 
``responder'' in the wake of the devastating hurricanes of 2005. 
Several factors contributed to that response: leadership from USDA; key 
efforts of state governments; the efficiency of the Electronic Benefit 
Transfer (EBT) delivery system; and outreach and advocacy by nonprofit 
partners. But the foremost factor underpinning the Food Stamp Program's 
ability to act as an effective post-Katrina ``responder'' was and is 
its entitlement structure that lets it respond immediately and flexibly 
to changes in need.
    One essential priority in the Bill must be making benefit 
allotments more adequate--increasing the minimum benefit and other 
allotment levels and reversing the impact of long-term benefit cuts 
embodied in the 1996 law. It is the norm rather than the exception for 
a food stamp recipient household's benefits to run out several days 
before the end of the month--often in the third week of the month. The 
average benefit of roughly $1 per person per meal is not enough to 
purchase an adequate diet. The Thrifty Food Plan, which is the 
underlying rationale for the benefit amounts, does not represent what a 
family needs to purchase a minimally adequate diet, particularly for 
long-term consumption. This shortcoming was bad enough before--it has 
only been exacerbated by program changes in 1996 that cut benefits 
across the board and froze the standard deduction from income. By next 
year these cuts will cost a typical family of a parent and two children 
$450/year in food stamp benefits--a huge reduction for families 
struggling with poverty and hunger.
    As this testimony has discussed, food stamps fight both obesity and 
hunger, and more adequate allotments would do a better job of both. 
Food stamp benefits should be based on a food plan that reflects what 
it actually costs to feed a family a healthy diet, and the impact of 
the reductions in benefits enacted in 1996 must be addressed.
    Moreover, the $10 minimum benefit--unchanged since 1977--is 
woefully inadequate. It provides barely one-third the purchasing power 
today that it did when it was set. Most often applicable to seniors and 
persons with disabilities, the $10 minimum helps too little and 
discourages very needy people from going through an often complicated 
application process to obtain such a small amount. A significant 
increase in the minimum benefit is long overdue.
    It is essential, and also long overdue, to revise resource rules so 
that families need not forfeit meager savings in order to participate. 
Current resource limits are terribly restrictive--$3,000 for households 
with an elderly or disabled member; $2,000 for other households. The 
$2,000 limit has not been adjusted for more than two decades--while 
inflation has nearly doubled. Allowing families that suffer 
unemployment, involuntary part-time work, illness or other financial 
emergencies to access food stamp benefits without exhausting their 
resources will help those families rebound and promote their self-
sufficiency long-term, and will further bipartisan goals of fostering 
savings and asset development. I recently heard Robert Dostis, Director 
of the Vermont Campaign to End Childhood Hunger and a Vermont state 
legislator, tell about a client who was homeless and trying to save two 
months' rent--one for the security deposit and one for the first 
month--so she could get herself and her family back into housing. 
Because this hard and laudable effort on her part pushed her above 
$2,000 in assets, as it would in most housing markets in this country, 
she couldn't get food stamps. We have to fix this problem.
    We also urge that the 2007 Farm Bill expand eligibility to more 
needy people left out of the program now. These include all otherwise 
eligible legal immigrants, able-bodied adults who now face arbitrary 
time limits, ex-drug felons making new starts in life but disqualified 
from food stamps for life, and others struggling to make ends meet but 
facing arbitrary restrictions. We at FRAC are delighted that you will 
be hearing from Janet Murguia of the National Council of LaRaza this 
morning about the importance of restoring benefits for legal 
immigrants. The limitations on these groups' eligibility imposed by the 
1996 law, only slightly mitigated since then, has had only one 
outcome--more hunger and suffering.
    The food stamp reauthorization also should allocate funding for 
food stamp outreach and education activities. As I have indicated, the 
department estimates that just three of six of those eligible under 
current rules are participating in the program, and even fewer among 
working families. USDA's ``Food Stamps Make America Stronger'' media 
campaign and competitive grants to fund community-based outreach 
efforts are important initiatives, and a sound start. Considerably more 
funding for these and other efforts will be important to connect more 
eligible people with benefits.
    Good customer service is undermined by inadequate investments in 
caseworker staffing and office systems. The problems states have in 
funding these operations have been exacerbated in the last decade, as 
the federal government discontinued an enhanced federal match rate for 
state computer expenses and adopted a cost allocation formula below the 
traditional 50/50 match rate. As states have been squeezed and have 
under-invested in staff and systems, that has had negative effects on 
access to the program. We urge increased support for state 
administrative operations.
    The 2007 Farm Bill must continue to allow recipients choice among 
food purchases and support healthy choices through benefit adequacy, 
nutrition education, farmers' market access and other strategies. The 
current clear distinction between food and non-food items is in keeping 
with the fundamental purposes of the program and provides consumers and 
retailers with a simple test for determining an eligible product. 
Proposals to differentiate among food products, drawing lines among the 
300,000 food products on the market, would introduce unnecessary 
complexity. They also could well drive hungry people out of the 
program. Much of the stigma that had attached to the Food Stamp Program 
in the past stemmed from the public nature of redeeming food stamp 
coupons (the physical scrip that formerly was used) in a supermarket 
line. The implementation of EBT technology has helped to mainstream and 
make virtually invisible the food stamp purchase transaction at point 
of sale. Conversely, treating recipient shoppers differently from other 
consumers and raising questions at check-out as to what is reimbursable 
would threaten to increase stigma and run counter to national and state 
efforts to empower people as they move to self-sufficiency.
    Providing people with adequate resources to purchase food is 
essential, and strengthening the Food Stamp Nutrition Education 
programs is a second important component in a multi-faceted approach to 
ensuring good nutrition outcomes and addressing the nation's obesity 
problem. Other components include: supporting strategies that allow 
food stamps to be used at farmers' markets; ensuring appropriate 
outlets in communities for obtaining reasonably priced fruits and 
vegetables; and altering environmental messages that affect 
individuals' behavior.
    Finally, we agree with USDA that the program should be renamed to 
reflect its modernization, reforms and current thrust.
    In conclusion, the 2007 Farm Bill should include significant new 
investments in the Food Stamp Program to renew the nation's effort to 
eradicate hunger and food insecurity and improve the nutrition, health 
and learning of all our people, and especially children. The increased 
investments would pay dividends in good child development, child 
health, school achievement, a more productive work force, and greater 
economic security for America's rural, urban and suburban families.
    Mr. Chairman, we appreciate this opportunity to share our views on 
the 2007 Farm Bill and look forward to continued work with you and the 
Committee as the process moves forward.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                        Testimony of Gary Brunk

    Mr. Chairman and distinguished committee members:
    I come before you in the shadow of several Wheat State political 
leaders who have fought hunger over the last decades through the Food 
Stamp program.
    No state has done more in the U.S. Congress to strengthen the Food 
Stamp Program, our nation's first line of defense against hunger.
    Senator Bob Dole, one of the principle architects of the Food Stamp 
Act of 1977, took a program that existed largely as an add-on to public 
assistance and opened it to the working poor, the temporarily 
unemployed, the elderly, and people with disabilities.
    Representative Keith Sebelius helped craft the House version of 
Senator Dole's legislation.
    Representative Dan Glickman helped write important legislation that 
protected and strengthened the program.
    And in the mid-1990s then-Representative Pat Roberts led an effort 
to preserve the integrity of the program's structure. Later, as 
Senator, he worked to restore food stamp cuts made in 1996 that he 
believed went too far.
    Historians among you will note that Kansas' food stamp champions 
came from both political parties. That too is a legacy of Senator Dole, 
who in the late 70's worked with Democratic Senator George McGovern to 
improve the food stamp law.
    Their bipartisan friendship continued when, in 2005, Dole, McGovern 
and Donald E. Messer, a Methodist theologian, wrote Ending Hunger Now: 
A Challenge to Persons of Faith. The book mentions that the senators 
also collaborated to champion school lunch programs and supplemental 
nutrition programs for women, infants and children.
    The authors give an important clue about the values that brought 
them together in this book. ``Every religious tradition,'' they write, 
``emphasizes caring for children.''
    The connection Senators Dole and McGovern make between caring for 
children and eliminating hunger explain why, as director of a Kansas 
child advocacy organization, I am here.
    Let me tell you about children in Kansas today. In many ways Kansas 
is a terrific place to be a child. Year in and year out we do well in 
cross-state comparisons of child well-being. Kansas ranks 12th in that 
regard, according to the KIDS COUNT Data Book, a widely used 
compilation of statistics about children.
    Whenever I talk about how we rank, I immediately follow with two 
very large ``howevers.''
    The first ``however'' is that we've achieved our high ranking in 
comparison to states within a nation that does not itself compare well 
with most other industrialized nations. For example, as regards 
childhood poverty, the United States compares poorly with the world's 
economically developed nations.
    My second ``however'' is that we need always remember that no 
matter where our state places in a ranking, a significant number of 
Kansas children live with economic insecurity. And the odds are stacked 
against them.
    Of all our children, 14.6 percent live in families with incomes 
below the poverty level. Another 20 percent live in families with 
incomes below 200 percent of poverty. City setting or countryside, it 
makes little difference. The child poverty rate in thinly settled 
Kansas ``frontier counties'' is about the same as in urban areas--15 
percent. Densely settled rural counties fare worst, with poverty 
affecting about 17 percent of their children.
    One of the consequences of poverty is that about 12 percent of 
Kansas households--133,000--are food insecure, meaning that their lack 
of resources makes them uncertain about access to food. For many of the 
children in these families, food stamps are the most important 
protection from persistent hunger. In Kansas, 183,000 persons depend on 
Food Stamps and almost half of them are children. Of those children, 
76,000 live in poverty, 41,000 in extreme poverty.
    Of course when I say the Food Stamp Program protects thousands of 
Kansas children from hunger I'm talking about more than the discomfort 
or pain that comes of missing meals, bad as those consequences are.
    Others appearing at this hearing can speak with more authority 
about the radiant effects of hunger. A brief summary would note that 
hungry children are more likely to have behavioral and emotional 
problems. They are less likely to perform well in school. Hungry 
children are more likely to struggle with obesity. They are less likely 
to be in the full bloom of health.
    The effects of hunger are especially devastating for small 
children. Brain and child development research has focused increasing 
attention on life's earliest years. When things go right, this is a 
period of phenomenal cognitive and physical growth that lays the 
foundation for successful adulthood. When things go wrong, the 
foundation is weakened, and the negative consequences multiply.
    Children for whom much has gone wrong are likely to start behind 
their peers and to stay there.
    The trickle-down of poverty and hunger acts, cumulatively, like a 
slow poison. Food stamps help protect against that poison. The 
Children's Sentinel Nutrition Assessment Program (C-SNAP) calls the 
Food Stamp program ``one of America's best medicines'' because the 
nutrition it provides improve children's health, decreases 
hospitalizations, and optimizes mental, social and emotional 
development.
    I come to you today with a sense of urgency about keeping the 
Kansas medicine chest stocked with the remedy we call food stamps. In 
my view, it is imperative that Congress strengthen the nutrition title 
of the Farm Bill by improving the food stamp program.
    The number of food stamp recipients in the Wheat State has grown by 
more than 50,000 in five years. My friends at the Catholic Charities 
Food Pantry in Wichita, who served around 6,500 clients in 2001, tell 
me that the number was 10,500 four years later. People come to them 
once a month to take away a supply of food good for two or three days. 
Increasing numbers of these folks, I'm told, are working-poor families. 
This reflects the inadequate levels of benefits provided in the Food 
Stamp program.
    That leads me to four recommendations for strengthening the Food 
Stamp Program.
    The first is this. I'd like to encourage improving the food stamp 
benefit. In Kansas, the benefit is 95 cent per person per meal. How can 
that level of benefit purchase an adequate diet, given other claims on 
household income? It's not enough for basics, let alone a healthy 
nutritious diet. But not only is the benefit level insufficient, for 
many families it is actually eroding.
    As a result of benefit cuts enacted as part of the 1996 welfare 
law, the purchasing power of most households' food stamp benefit is 
eroding in value each year. Food Stamp Program budget calculations 
allow households to subtract a ``standard deduction'' from their 
income, to reflect the basic costs of housing, utilities, 
transportation, and other inescapable living expenses. The standard 
deduction represents a portion of household income that is not 
available to purchase food because it must be used for other 
necessities.
    Prior to 1996, the standard deduction was indexed each year to 
account for inflation, in recognition of the fact that basic living 
expenses rise with inflation. The 1996 welfare law, however, froze the 
standard deduction at $134 for all household sizes. In the 2002 Farm 
Bill, Congress improved the standard deduction to help address the 
needs of larger households. The standard deduction remains frozen at 
$134 a month, however, for households with three or fewer members.
    In 2008, food stamp benefits for a typical working parent with two 
children will be about $37 a month lower than they would have been 
without the across-the-board benefit cuts included in the 1996 law. 
That is 13 million dollars less for Kansans to spend on food in FY2008 
alone, and 168 million dollars in lost benefits between FY2008 and 
FY2017. By 2017, a typical working parent of two will, over the course 
of a year, miss out on more than one and a half months-worth of food 
stamps, compared to the amount of benefits she or he would have 
received under the law in place prior to 1996. Under current rules, 
this lost ground will never be recovered.
    To restore the purchasing power of food stamp benefits, the 
standard deduction needs to be raised from $134 to $188 in 2008 and 
annually adjusted for inflation. A typical household of three or fewer 
members would see its benefits increase by about $24 a month. This 
would not restore benefits to the levels they would have been without 
the 1996 law because of the cut in the maximum benefit, but much of the 
lost ground would be recovered. I realize that this would be very 
expensive, but even a partial fix would make a big difference to people 
trying to put food on the table.
    One way to begin stopping the erosion of benefits is to improve the 
proposal enacted in 2002 and raise the standard deduction from 8.31 
percent of the poverty line to 10 percent, as the Administration 
proposed in 2002. This would increase benefits right away for 
households of three or more people. Going from 8.31% to 10% would mean 
that in FY17 a typical working household of 3 would have about $11 more 
per month (in real terms) than it would have received under current 
law. Households of two would start to see an increase ten years earlier 
than under current law. Virtually all of the increased benefits in the 
first five years would go to families with children. (Over time, 
households of one and two would benefit as well.) At a minimum, 
Congress should ensure that benefits don't continue to erode in value. 
The problem should stop in 2007.
    Secondly, only about two out of three of those who are eligible for 
food stamps in Kansas are getting them. It's not just working-poor 
families who are eligible but not receiving them, but legal immigrants 
and seniors, too. I hope your committee will look for ways to simplify 
and streamline enrollment so state agencies can serve eligible 
households.
    The 2002 farm bill reduced paperwork and office-visit requirements 
for working-poor households. The same allowance should be made for 
households that include elderly or disabled members. The 2002 provision 
that allowed people to apply for the food stamp program over the 
Internet should be expanded so that they also can apply by telephone. 
Finally, Congress should give states the ability to coordinate food 
stamps with other programs that support those with low income, as well 
as supporting state efforts to use technology improvements and business 
models to help with program access and to realize administrative 
savings.
    Third, I would like to endorse a proposal in the President's 
budget: adjusting food stamps more accurately to reflect high child 
care costs. Tens of thousands of working families in Kansas do not have 
child care subsidies and have to pay out of pocket for child care cost. 
The Administration's proposal would allow working families with high 
child care costs to deduct the full cost of that care from households' 
income when determining their food stamp benefits. Right now that 
amount is capped at $160 per month per child for children over 2 ($200 
per month per child for younger children.) This proposal helps those 
families with child care costs above those amounts.
    The choice of paying for food or buying safe quality child care for 
your kids is no choice that a working poor parent should have to make. 
This proposal won't fully fix the problem of too little funding for 
child care, but it will ease the ripple effects of that serious 
problem.
    Finally, I'd urge you to expanding access to legal immigrants and 
poor households that have modest savings. The legal bar facing these 
parents now has implications for children born citizens here. Please 
note that 16% of children under 150% of poverty in Kansas have an 
immigrant parent. Serving these children and their families is critical 
to a comprehensive solution to child poverty in Kansas.
    I believe stopping the erosion of benefits, simplifying enrollment, 
making adjustments for child care costs, and expanding access moves us 
closer to the goal of eliminating hunger in America. On this committee 
are two Kansans, Representative Moran and Representative Boyda, a 
Republican and a Democrat.
    My challenge to them is to emulate the bi-partisan example set by 
Senators Dole and McGovern in the fight against hunger. That is also my 
challenge to all of you.
                               __________

                      Testimony of Kim McCoy Wade

    I'm Kim McCoy Wade, Executive Director of the California 
Association of Food Banks, and I represent 40 food banks united to 
build a well-nourished California. Our 40 community food banks partner 
with a network of 5,000 charities and congregations to serve over 2 
million Californians in need of food.
    Forty years ago in Texas, my mom graduated with a college degree in 
home economics and followed a call from President Johnson to enlist as 
a VISTA volunteer. She soon found herself living in Newark, New Jersey, 
where her new job was to teach moms how to use food stamps to shop and 
prepare healthy food for their families. Of course, as a VISTA 
volunteer, she also was living on food stamps herself, and found that 
first-hand experience more educational than anything she had learned in 
home economics. The women in her classes taught her how to stretch 
peanut butter into soups to last through the month.
    In California, just as in Texas and New Jersey, food stamps are the 
ultimate, if unsung, nutrition program for children. Food stamps can 
serve every child, of every age, on every day of the year, school day 
or not. Because of food stamps' creation 40 years ago, it's rare to 
find a starving child in America--and for that accomplishment we can 
all be proud and protective. Two million people now receive food stamps 
in California each month, and 2 out of 3 are children. Ninety percent 
are families with children. These 1.3 million children, like all 
participants, receive around $100 per month for their parents to spend 
on food at the grocery store. For states, this provides tremendous 
economic activity: more than $2 billion is spent on food in California 
alone, generating $3.7 billion in economic impact. For parents, it's a 
simpler equation: food stamps prevent them from sending their children 
to bed hungry or off to school unprepared to learn.
    While we can be proud that child starvation is largely a thing of 
the past in America, what, is far too common still is children eating 
oatmeal every night for dinner because the money has just run out. 
Families everywhere are struggling to afford housing, health care, and 
all the basic costs of raising kids today. Often, the first place that 
gets squeezed is the family food budget. Many kids end up with 
oatmeal--or other very low-cost, low-quality foods--for dinner because 
the food stamps they receive do not go far enough. Healthy food is 
expensive, with fruits and vegetables costing more than more processed 
foods, according to research from Adam Drewnowski at the University of 
Washington. Food stamps' average benefit of $1 per meal helps fill the 
plate, but isn't enough to truly nourish a child. One youth in Georgia, 
whose soccer team was recently featured on the front page of the New 
York Times, held his stomach and told his coach that he was hungry. 
When the coach said he could have a snack at home, he told her he 
couldn't because there was no food at home--it was the end of the month 
when the food stamps run out. That story matches food bank survey data 
finding that food stamps tend to last only 2 weeks of the month.
    Even worse, there are millions of poor children who don't get any 
food from the Food Stamp Program, because of the bureaucratic hurdles 
in their way. Only half of all eligible families participate in food 
stamps in California (46%)--and even fewer of our eligible working 
families (36%). More and more, the typical family eligible for food 
stamps is not unemployed or relying solely upon public assistance. 
Instead, they are working families and they are having tremendous 
difficulty navigating the system on their own. Some of these families 
give up because of state and local barriers that we are working to 
overcome with outreach, innovation, and advocacy. Nationally, however, 
we need Congressional leadership to continue to focus on making food 
stamps really work for kids and parents. As one example, ``categorical 
eligibility,'' which has helped boost participation in our neighbor 
state of Oregon to 80%, should not be eliminated as a State option, as 
the President's budget proposed.
    Why do the California food bank network and food banks around the 
country care so much about children and food stamps? Quite simply, 
because our mission is to end hunger in America, and we know we can't 
do it alone. The Food Stamp Program provides 8 times the amount of food 
that the charitable food network in America does, according to 
America's Second Harvest: the Nation's Food Bank Network. The new debit 
card system efficiently delivers benefits to families, which are then 
spent in the local grocery stores for foods that families choose to 
meet their health, cultural, and dietary needs. We especially need the 
Food Stamp Program to be strong, because when it is weak, families lean 
more on food banks and our tremendous network of charities, 
congregations, and volunteers. Food banks aim to promote and partner 
with the Food Stamp Program--not replace it.
    For all these reasons, food banks in California have taken the lead 
to connect families to food stamps through a partnership with USDA and 
the California Health and Human Services Agency. Our Association has 
contracted with 48 food banks and other community groups in 22 counties 
to target 135,000 people this year with information and assistance on 
food stamps. In communities across the state, food banks are taking a 
comprehensive approach to ending hunger that integrates three goals: 
providing healthy emergency food, especially California-grown fruits 
and vegetables; promoting nutrition education to encourage healthy food 
choices; and connecting people to food stamps so they are able to 
purchase the food they need. Statewide, we have also helped pilot a 
state hotline, on-line applications, and a web resource center, 
www.myfoodstamps.org. We are determined to move California from its 
current last place ranking among the states for food stamp 
participation.
    Our work on the front lines with children in need of food has shown 
us both the strengths and the weaknesses of the Food Stamp Program, and 
what's needed to deliver good nutrition to all children:
1. Enough money to buy healthy food all month long
    Families now receive less in food stamps than they did 10 years 
ago. The typical working family of 3 will receive over $400 less this 
year--and that loss is growing with each passing year. That's a 
particularly discouraging number to food bankers. Assuming we provide a 
family with a box of food worth roughly $35 each month, that's about 
the same as the $400 lost annually from food stamps. That's not 
progress in reducing hunger, that's just passing the buck. This loss of 
food dollars is a direct result of a freeze in the food stamp standard 
deduction enacted in 1996. Over the next 10 years, the Center on Budget 
and Policy Priorities estimates that California families on food stamps 
will receive $1.6 billion less than they would have had the 1996 cut 
not been enacted. Our food banks can't and shouldn't have to try to 
fill that difference. This lost ground in the fight against hunger can 
be regained by Congress focusing first on restoring food stamp benefit 
levels.
    An adequate monthly food budget, coupled with positive nutrition 
education, is what children and families need to get the healthy food 
they need. The minimum benefit of $10 that many of our seniors receive 
needs to be increased, too (and California needs specific assistance to 
fix our unique rules prohibiting food stamps for seniors and disabled 
children and adults receiving SSI.)
2. Food for all people in need
    The Food Stamp Program used to ask only if you were poor and needed 
food--and that's the right question. Now, there are different and 
complicated rules for immigrant families, unemployed adults without 
children, and certain ex-offenders. California is feeling the affects 
of this patchwork right now in our recent citrus freeze. Many newly 
unemployed farm workers are not turning to food stamps to help feed 
their children--either because they are not eligible or are confused 
about the different eligibility rules--and instead are coming to 
community food banks that now need additional freeze relief to meet the 
need. Currently, adult legal immigrants are generally not eligible for 
federal food stamps during their first five years in the country and 
then face complicated and intimidating rules after that period. All 
legal immigrants should be made eligible for the program. It's the 
right thing to do and it would have the added benefit of dramatically 
simplifying the program in California. Children in immigrant homes are 
hurt by program rules that feed some people in need, and not others.
    A second group of people who can't get food is people with savings. 
Surely children need parents to be saving for a security deposit for an 
apartment, for their tuition, or for the next rainy day when someone's 
sick or the car breaks down. But families can't get food stamps if they 
have more than $2000 in the bank. Don't let family savings be a barrier 
to family nutrition: eliminate the asset test.
No red tape
    Only about \1/3\ of food bank clients are receiving food stamps, 
though many more are likely eligible, according to America's Second 
Harvest. Through food banks' outreach to our clients, we have found 
that long waits, repetitive paperwork, and outdated finger imaging 
requirements all prevent families from completing the application 
process. One California study documented that it takes an average of 2 
trips to the food stamp office to successfully submit an application. 
Working families could particularly benefit from food stamps' power to 
boost their wages, but half don't apply because of red tape that means 
too much bureaucracy and not enough help. Partly as a result of this 
frustration, as many as half of the people food banks now serve are 
working families, according to several California food banks' 2006 
Hunger Studies.
    Even sophisticated outreach efforts will not achieve increased 
participation if not coupled with innovations that allow families to 
get food stamps in places outside the county welfare office--including 
on-line and at schools, medical centers, and food banks. The Electronic 
Benefit Transfer card that resulted from the 1996 farm bill was a great 
step to modernize the program. Congress should demonstrate similar 
ingenuity in this year's Farm Bill by continuing to invest in 
technology, combined applications, a new name, and other common-sense 
steps to simplify this process, while of course still preserving 
integrity.
    Another essential part of the Food Stamp Program is Food Stamp 
Nutrition Education (FSNE). At 14 food banks in California and 
throughout the country, FSNE projects are working to help low-income 
families achieve nutrition goals consistent with the Dietary Guidelines 
for Americans. By empowering children--and their parents--to make 
healthy choices, these programs can bring about positive lifestyle 
changes and especially increased fruit and vegetable consumption. But 
we can do more to unlock the potential of FSNE programs, to strengthen 
their ability to reduce hunger, and to help avoid costly health 
disparities such as obesity and type 2 diabetes. The Farm Bill provides 
an opportunity to modernize FSNE, to ensure that state and local 
programs can utilize evidence driven public health interventions that 
reach current and potentially-eligible food stamp recipients in 
multiple venues where they live, work, go to school, worship, and make 
their food and physical activity choices.
    The Food Stamp Program isn't the only nutrition program that food 
banks directly work with. We also partner with USDA to distribute 
emergency food, through both the Emergency Food Assistance Program (TEF 
AP) and the Commodity Supplemental Food Program (CSFP). Alarmingly, 
these emergency food programs are now serving fewer people in 
California than in recent years, despite increased need and their 
benefit to both families and the agricultural sector. In California, 
TEFAP and bonus commodities are down from 97 million pounds in 2002 to 
57 million pounds in 2006. CSFP, which serves mainly seniors, cut 5,000 
people last year in California and is again proposed for elimination in 
the President's budget. Both programs deserve significant, additional 
investment in food purchase to feed the people food banks serve every 
day.
    Finally, I have one last message on children's health and 
nutrition: this year, you are going to be presented with a lot of 
appealing new ideas around nutrition. I am hopeful that there is the 
opportunity and the funding available to explore many of these 
proposals. However, I also urge you to keep focused on what is our 
largest and most successful US nutrition program, preventing severe 
hunger and boosting nutrition for millions of children nationwide: the 
Food Stamp Program. Twenty four million Americans count on food stamps 
today, and another 20 million in need are counting on us to make sure 
the program will also work for them.
    There's a reason the National Journal recently ranked the Food 
Stamp Program as one of the top 10 American success stories. Children 
displaced by Katrina received food stamps. Teenagers with their growing 
appetites use food stamps. Infants--like my one year old son, just 
trying fruits and vegetables for the first time--participate in food 
stamps. All of these children are now relying on all of us adults to 
help them get the food they need to grow, learn, and thrive. Thank you 
for taking up that challenge.

                                  <all>

</pre></body></html>
